<html>
<title> - CHILD PROTECTION ISSUES</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                        CHILD PROTECTION ISSUES

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 23, 2000

                               __________

                             Serial 106-63

                               __________

         Printed for the use of the Committee on Ways and Means


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
66-736                     WASHINGTON : 2000


                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
WES WATKINS, Oklahoma                LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
SCOTT McINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida

                     A.L. Singleton, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    Subcommittee on Human Resources

                NANCY L. JOHNSON, Connecticut, Chairman

PHILIP S. ENGLISH, Pennsylvania      BENJAMIN L. CARDIN, Maryland
WES WATKINS, Oklahoma                FORTNEY PETE STARK, California
RON LEWIS, Kentucky                  ROBERT T. MATSUI, California
MARK FOLEY, Florida                  WILLIAM J. COYNE, Pennsylvania
SCOTT McINNIS, Colorado              WILLIAM J. JEFFERSON, Louisiana
JIM McCRERY, Louisiana
DAVE CAMP, Michigan


Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of March 16, 2000, announcing the hearing...............     2

                               WITNESSES

American Bar Association Center on Children and the Law, Mark 
  Hardin.........................................................    31
American Public Human Services Association, and Iowa Department 
  of Human Services, Mary Nelson.................................    66
Child Care Association of Illinois, Ronald H. Moorman............    38
Children and Family Futures, Nancy K. Young......................    54
Conference of State Court Administrators, and Connecticut Supreme 
  Court, Hon. Robert C. Leuba....................................    23
Connecticut Department of Children and Families, Hon. Kristine D. 
  Ragaglia, and Connecticut Department of Mental Health and 
  Addiction Services, Thomas A. Kirk, Jr.........................    47
DeWine, Hon. Mike, a United States Senator from the State of Ohio    10
National Council of Juvenile and Family Court Judges, and 
  Hamilton County Juvenile Court, Hon. David E. Grossmann........    17
National Court Appointed Special Advocate Association, Christine 
  DeLay..........................................................    35
Pryce, Hon. Deborah, a Representative in Congress from the State 
  of Ohio........................................................     6
Rockefeller, Hon. John D., IV, a United States Senator from the 
  State of West Virginia.........................................    11
Second Genesis, Inc., Gale Saler.................................    58

                       SUBMISSIONS FOR THE RECORD

Child Welfare League of America, statement.......................    81
National Child Abuse Defense and Resource Center, Roanoke, VA, 
  Barbara Bryan, statement.......................................    82
Voice for Adoption, statement....................................    83

 
                        CHILD PROTECTION ISSUES

                              ----------                              


                        THURSDAY, MARCH 23, 2000

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:00 p.m., in 
room B-318, Rayburn House Office Building, Hon. Nancy L. 
Johnson (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE

March 16, 2000

No. HR-19

          Johnson Announces Hearing on Child Protection Issues

    Congresswoman Nancy L. Johnson (R-CT), Chairman, Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing on child protection issues 
related to the training needs of court personnel and the extent of 
substance abuse in child protection. The hearing will take place on 
Thursday, March 23, 2000, in room B-318 Rayburn House Office Building, 
beginning at 1:00 p.m.
      
    Oral testimony at this hearing will be from invited witnesses only. 
Witnesses will include Members of Congress, representatives of juvenile 
and family court judges, court administrators, court appointed special 
advocates, and substance abuse and child protection experts. However, 
any individual or organization not scheduled for an oral appearance may 
submit a written statement for consideration by the Committee and for 
inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    The Adoption and Safe Families Act of 1997 P.L. 105-89) 
substantially changed the nation's child protection program. The new 
law requires States to initiate proceedings to terminate parental 
rights for children who have been in foster care for 15 of the most 
recent 22 months, and states that efforts to preserve or reunify a 
family are not required if the court finds that a parent had subjected 
the child to ``aggravated circumstances'' such as abandonment, torture, 
chronic abuse, or sexual abuse. These reforms focus attention on the 
need for judges and other court personnel to be trained in child and 
family development to ensure adequate implementation of the new law.
      
    In addition to the need for training of court personnel, 
researchers have identified substance abuse as a leading factor in many 
cases of children placed into foster care. There is some concern that 
treatment for substance abuse is not readily available for many parents 
with children in the custody of the State. Recovery from drug addiction 
can take years and parental relapses can result in the re-abuse of 
children and the re-entry of children into foster care.
      
    In announcing the hearing, Chairman Johnson stated: ``Every child 
deserves a safe and loving home. That's why it's important to have well 
trained and qualified judges make crucial decisions about children 
involved in abuse and neglect proceedings. That's also why I'm 
interested in the impact of parental substance abuse on the placement 
of children into foster care. It is time to identify promising 
approaches to help parents overcome substance abuse problems without 
requiring their children to spend indefinite periods of time in foster 
care.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on two issues. First, the Subcommittee will 
review the quality and availability of training for judges, court 
personnel, volunteers who participate in court-appointed special 
advocate programs, and attorneys who represent the children and the 
parents of children in abuse and neglect proceedings. Second, the 
Subcommittee will discuss the extent of substance abuse among families 
involved with the child protection system, the challenge this poses for 
moving children into permanent living arrangements within the timelines 
required by the Adoption and Safe Families Act, and the effectiveness 
of drug treatment interventions.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Any person or organization wishing to submit a written statement 
for the printed record of the hearing should submit six (6) single-
spaced copies of their statement, along with an IBM compatible 3.5-inch 
diskette in WordPerfect or MS Word format, with their name, address, 
and hearing date noted on a label, by the close of business, Thursday, 
April 6, 2000, to A.L. Singleton, Chief of Staff, Committee on Ways and 
Means, U.S. House of Representatives, 1102 Longworth House Office 
Building, Washington, D.C. 20515. If those filing written statements 
wish to have their statements distributed to the press and interested 
public at the hearing, they may deliver 200 additional copies for this 
purpose to the Subcommittee on Human Resources office, room B-317 
Rayburn House Office Building, by close of business the day before the 
hearing.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. All statements and any accompanying exhibits for printing must 
be submitted on an IBM compatible 3.5-inch diskette WordPerfect or MS 
Word format, typed in single space and may not exceed a total of 10 
pages including attachments. Witnesses are advised that the Committee 
will rely on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. A witness appearing at a public hearing, or submitting a 
statement for the record of a public hearing, or submitting written 
comments in response to a published request for comments by the 
Committee, must include on his statement or submission a list of all 
clients, persons, or organizations on whose behalf the witness appears.
      
    4. A supplemental sheet must accompany each statement listing the 
name, company, address, telephone and fax numbers where the witness or 
the designated representative may be reached. This supplemental sheet 
will not be included in the printed record.
      
    The above restrictions and limitations apply only to material being 
submitted for printing. Statements and exhibits or supplementary 
material submitted solely for distribution to the Members, the press, 
and the public during the course of a public hearing may be submitted 
in other forms.
      

    Note: All Committee advisories and news releases are available on 
the World Wide Web at ``http://waysandmeans.house.gov.''
      

    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.


                                <F-dash>


    Chairman Johnson of Connecticut. The hearing will come to 
order. My colleague and ranking member, Ben Cardin, is on his 
way, but I am going to go ahead and start with my opening 
statement so we will be able to proceed promptly.
    Today we do continue our oversight of the Nation's child 
protection system. In the past, we have examined a wide variety 
of child protection issues, and we have originated important 
legislation like the Foster Care Independence Act, the Adoption 
and Safe Families Act, and the Multi-Ethnic Placement Act.
    Our goals today are more modest. We want to examine two 
issues that we believe are important in improving our Nation's 
child protective programs. First, when Congress created the 
current structure of Federal support for child protection by 
enacting Public Law 96-272 in 1980, it wisely included open-
ended funding at 75 percent Federal match for the training of 
caseworkers, administrators, and others employed by State and 
local child protection agencies. For some reason, however, 
court personnel were not included in the 75 percent funding. 
Thus, many of the most vital members of the team of people 
working on child protection cases cannot receive training with 
Federal funds. Judges, guardians ad litem, court-appointed 
special advocates, or CASAs, and other court personnel play a 
central role in child protection. Clearly, training is a must 
for these central participants in one of the most important 
phases of our child protection process.
    Last year, our subcommittee originated and the House passed 
a simple change in the Title IV-E statute that made court 
personnel eligible for the Federal match. The cost of this 
provision was $55 million over 5 years. The provision now 
resides over in the Senate. I hope today's hearing will provide 
additional motivation for the Senate to take action on this 
important legislation and I encourage all of our witnesses and 
those in attendance to urge the Senate to act on this 
provision.
    I welcome my esteemed friend and colleague, Congresswoman 
Deborah Pryce of Ohio, who will provide strong support for this 
training and, in fact, whose experience and wisdom led to the 
introduction of the bill that the provision in our earlier 
legislation reflects.
    I would also like to extend a very warm welcome to our 
noted colleague from the Senate, Senator Mike DeWine, who was 
elected to Congress the same year I was but has gone on to 
bigger and better things, so to speak. [Laughter.]
    Senator DeWine. Different.
    Chairman Johnson of Connecticut. He has worked closely with 
Congresswoman Pryce on this issue, and he will be our carrier, 
along with his colleagues interested, in the Senate. So it is a 
pleasure to have you both here and a very great pleasure to 
welcome Senator Rockefeller as well, with whom I have worked on 
many issues of importance to children.
    I also want to recognize Ms. Christine DeLay of Texas, who 
has relatives in high places and has come to testify today. 
Christine and Tom have a long history of involvement in child 
protection issues as foster parents, but Christine as a CASA 
herself. And I am very pleased that she is here today to 
testify on her experience and on behalf of their national 
organization.
    Our second panel will address another important child 
protection issue. Based on testimony from Dr. Nancy Young that 
we will hear later, it seems nearly certain that a minimum of 
50 percent of child protection cases involve a parent with an 
alcohol or drug abuse problem, and I would have to say, since I 
was first elected in 1983, the child service agencies in my 
district, even in the rural areas, right across the board, 
rural and urban, would tell me that 80 percent of their family 
cases involve some kind of substance abuse. So the 50 percent I 
consider to be a very conservative estimate.
    Historically, there has been little coordination between 
State agencies that fund drug treatment programs and State 
child protection agencies. Our second panel will address both 
the frequency of drug addiction among child protection cases 
and the problems encountered in finding drug treatment programs 
for these parents. Witnesses will focus attention on recent 
attempts to do the impossible: to coordinate government 
agencies, in this case, the child protection agency and the 
drug treatment agency, at the State level. And I am very 
pleased to say that our own Kristine Ragaglia, the Commissioner 
of Child and Family Services in Connecticut, will describe a 
model that she has developed that is a great step in the right 
direction of effective services for families with substance 
abuse problems.
    But I would also say that really as a member out there just 
asking at Head Start programs and agencies and across the 
board, are there enough programs, the answer is almost always 
yes. Are people getting to them? The answer is almost always 
no.
    So we have planned this hearing for a long time. I consider 
this an extremely important subject, and I am very pleased to 
have knowledgeable colleagues to lead us off.
    [The opening statement of Mr. Cardin follows:]

Statement of Hon. Benjamin Cardin, a Representative in Congress from 
the State of Maryland

    Madam Chairman, I commend you for holding this hearing on 
two issues that have a direct impact on the safety and well-
being of millions of abused children--the importance of the 
courts in making critical placement decisions and the 
devastating connection between substance abuse and child abuse.
    These two issues have always been important, but they have 
become even more so with the passage the bipartisan Adoption 
and Safe Families Act (ASFA) in 1997.
    This measure rightly ensures that a child's need for 
protection and permanency is the primary focus when any 
placement decision is made. However, in pursuing this worthy 
goal, the new law places additional burdens on the child 
welfare courts, and it accelerates the time-frame for the 
provision of services to parents with substance abuse problems.
    Consider for a moment one of the central requirements of 
the Adoption and Safe Families Act: States must begin to 
initiate court proceedings for the termination of parental 
rights for children who have been in foster care for 15 months 
unless certain exceptions apply. This mandate will obviously 
increase the number of cases going through family courts, which 
are sometimes already overcrowded. Therefore, without adequate 
resources for the courts, the goals of the Federal law to 
provide safe and stable homes for children will be undermined.
    Under the leadership of the Chairwoman Johnson, this 
Subcommittee has begun to respond to the challenges now 
confronting the courts. The Fathers Count Act, which passed the 
House at the end of last year, includes a provision to provide 
Federal funds for the training of court personnel involved in 
child abuse and neglect cases.
    These resources will help the courts understand and comply 
with the requirements imposed by ASFA, as well as appreciate 
more general issues regarding child development.
    In addition to this provision, I hope our Subcommittee will 
consider adopting other changes proposed by Senators Dewine and 
Rockefeller to assist our Nation's family courts in making 
timely and wise placement decisions for at-risk children.
    The same 15-month requirement in ASFA now challenging our 
courts also dramatically shortens the time a parent has to turn 
their life around to regain the custody of their children. If 
we believe such a time limit is necessary for the long-term 
well-being of children, we must then also ensure that parents 
have every opportunity to meet this expedited time line.
    In short, this means providing them with adequate access to 
substance abusetreatment.
    Regrettably, child welfare workers and judges are not 
always sufficiently trained in how to detect and cope with 
substance abuse problems. And of even greater concern, when 
accurate assessments are made, there is often a lack of 
available treatment.
    In fact, HHS reports that 63 percent of mothers with drug 
problems do not receive any substance abuse treatment within a 
year. Furthermore, only 10 percent of child welfare agencies 
can find substance treatment programs for their clients within 
30 days, according to the Child Welfare League of America.
    I therefore hope this Subcommittee will consider expanding 
substance abuse screening, prevention and treatment services 
for families in the child welfare system. Considering that drug 
and alcohol problems are a contributing factor to between half 
and three-fourths of all child welfare cases, such an effort 
may actually save money as it saves children and families.
    Thank you.
      

                                <F-dash>


    Chairmen Johnson of Connecticut. With that, I will 
recognize Congresswoman Pryce.

 STATEMENT OF HON. DEBORAH PRYCE, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Ms. Pryce. Well, thank you very much, Madam Chairwoman. It 
is always an honor and a privilege to work with you and your 
staff on any given issue, and it is great to be here with you 
today.
    I come wearing several different hats. I am a former 
prosecutor and judge, a Member of Congress whose district 
includes the Dave Thomas Center for Adoption Law at Capital 
University, my alma mater, and I am also an adoptive parent. My 
experience wearing these different hats has formed my interest 
and perspective on adoption and child protection issues.
    There is nothing sadder to me than the thought of a child 
who has been abused or neglected, and nothing happier than the 
thought of a child finding the warmth and love of a permanent 
adoptive family. Unfortunately, the period of time between 
these two points during which a child's case is pending before 
the courts can be a period of interminable delays, bureaucratic 
snags, and less than thorough and accurate review of a child's 
case, all of which can have lasting negative effects on the 
child.
    Healing for abused and neglected children can only begin 
when they are in a safe and permanent environment, but all too 
often these children languish in the foster care system in a 
state of emotional limbo.
    By and large, I know that the judges, court officials, and 
social workers involved in our Nation's abuse and neglect 
courts are extremely dedicated individuals who strive to do 
their best for the children. However, there is widespread 
recognition that the system is being stretched far beyond 
capacity. We all need to work together to examine ways to do 
this better.
    Without a doubt, one of the crowning achievements of the 
last Congress was the Adoption and Safe Families Act of 1997, 
and I was very proud to cosponsor that. And I don't need to 
tell this committee what was in it, so I won't. But while the 
act's accelerated timelines are essential to the achievement of 
its important purposes, they have resulted in increased 
pressure on our Nation's already overburdened abuse and neglect 
courts.
    Having examined and discussed this issue with many of my 
colleagues at the adoption center and former colleagues in the 
judicial system, it is clear that the laudable goals have 
resulted in additional strain on the courts and court 
personnel. For example, according to the National Center for 
Juvenile Justice, between 1991 and 1997, in my own home 
district of Franklin County, Ohio, 38 percent of children who 
are awaiting permanent adoption because parental rights have 
been severed have been in the system over 4 years or more, and 
43 percent have been waiting between 2 to 4 years. Even in 
Hamilton County, Ohio, which is widely regarded as having one 
of the best family and dependency court systems, 33 percent of 
these children have been awaiting permanent placement 4 or more 
years.
    Nationally, according to the Department of Health and Human 
Services, children who are adopted from foster care leave the 
system between 3.5 and 5.5 years after they enter it.
    The problem persists because of the court backlogs and 
caseloads. According to the American Bar Association, a 
caseload of 40 to 50 active cases for a full-time staff 
attorney for a child welfare agency is reasonable--40 to 50 
cases. However, attorneys, for example, in the Cook County, 
Illinois, Public Defender's Office have an average of 650 
juvenile dependency cases at any given time, while the State's 
attorneys each have about 1,000 cases on average.
    In Santa Clara County, California, it is reported that 13 
attorneys in the child welfare agency handle 4,000 child 
maltreatment cases at any given time. These huge caseloads 
result in hearings that may not be substantive and may be 
frequently delayed or continued, ultimately contributing to the 
courts' inability to meet our statutory deadlines.
    The inability to deal effectively with this overload of 
cases is due in large part to inadequate resources and 
inadequate training in family law. While there are several 
issues that contribute to the delays inherent in our family 
court system today, I believe there are two areas that are 
particularly troublesome and on which further study of the 
issue should focus.
    First, there is a nationwide lack of computerized case-
tracking systems. Such systems are necessary for the efficient 
identification and elimination of existing case backlogs, 
moving abuse and neglect caseloads forward in a timely manner, 
and helping to place children into safe and stable families. 
For example, in California it is reported that the State lacks 
statewide standards for information systems, and although there 
are information systems in place, none are well designed to 
track dependency cases.
    Across the country, in North Carolina, many juvenile courts 
completely lack automated systems. Fewer than half of the 
juvenile court clerks in 40 North Carolina counties surveyed 
reported using a computer for any purpose, and none reported 
using any court management software. With an effective, 
automated case-tracking system, courts could more reliably 
follow the progress of individual cases and meet their 
deadlines.
    Second, there is often inefficient training of court 
personnel in issues of family law. According to the Department 
of Health and Human Services and the National Center for 
Juvenile Justice, judges, court personnel, agency attorneys, 
guardians ad litem, volunteers who participate in CASA 
programs, and attorneys who represent children and the parents 
of children often lack training specific to child welfare law, 
as well as to other family-related topics, such as child 
development and the dynamics of child maltreatment.
    Further, there is often a lack of attorney training in the 
crossover non-legal social service issues inherent in 
maltreatment cases. This problem is increased by the frequent 
turnover of judges and attorneys in these courts, resulting in 
the constant influx of personnel untrained in these important 
family law areas. Better training for judges, attorneys, and 
other court personnel in these basic issues would translate 
into more substantive and productive hearings, which in turn 
would lead to more rapid disposition of these cases.
    Thank you for the time you have given me today, Madam 
Chairwoman, and, Mr. Cardin, thank you. I really appreciate 
your efforts to help the courts help these children move into 
safe and loving arms.
    [The prepared statement follows:]

Statement of Hon. Deborah Pryce, a Representative in Congress from the 
State of Ohio

    Thank you madam Chairwoman, and thank you to the members of 
the Subcommittee for giving me this opportunity to participate 
in today's hearing to talk to you about ways Congress can help 
children by improving the abuse and neglect court system.
    Today, I come to you wearing several different hats: I am a 
former prosecutor and judge, a member of Congress whose 
district includes the Dave Thomas Center for Adoption Law at 
Capital University Law School, on whose Board of Advisors I 
serve, and an adoptive parent. My experience wearing these 
different hats has formed my interest and perspective on 
adoption and child protection issues.
    There is nothing sadder to me than the thought of a child 
who has been abused or neglected, and nothing happier to me 
than the thought of such a child finding the warmth and love of 
a permanent adoptive family. Unfortunately, the period of time 
between these two points, during which a child's case is 
pending before the courts, can be a period of interminable 
delays, bureaucratic snags, and a less than thorough and 
accurate review of the child's case--all of which can have 
lasting negative effects on the child. Healing for abused and 
neglected children can only begin when they are in a safe and 
permanent environment--but all to often these children languish 
in the foster care system in a state of emotional limbo.
    By and large, I know that the judges, court officials, and 
social workers involved in our nation's abuse and neglect 
courts are extremely dedicated individuals who strive to do 
their best for the children who they are seeking to help. 
However, there is widespread recognition that the system is 
being stretched beyond capacity. We all need to work together 
to examine ways to do better.
    Without a doubt, one of the crowning achievements of the 
last Congress was the Adoption and Safe Families Act of 1997, 
which was introduced by Representative Camp, a distinguished 
member of this subcommittee. I was a proud cosponsor of this 
Act.
    Briefly, this Act seeks to ensure that children, through no 
fault of their own, do not linger in child welfare 
bureaucracies, being deprived of the loving and nurturing 
adoption which they need. The Act requires expedited review of 
child welfare cases, and promotes stability and permanence for 
abused and neglected children by requiring timely decision-
making in proceedings to determine whether children can safely 
return to their families or whether they should be moved into 
safe and stable adoptive homes. While the Act's accelerated 
timelines are essential to the achievement of its important 
purposes, they have resulted in increased pressure on the 
nation's already overburdened abuse and neglect courts.
    Having examined and discussed this issue with my colleagues 
on the Dave Thomas Center for Adoption Law Board of Advisors, 
as well as with my friends and Ohio Judges David Grossman and 
Kay Lias, it is clear to me that the laudable goals of the 
Adoption and Safe Families Act have resulted in additional 
strain on the courts and court personnel. For example, 
according to the National Center for Juvenile Justice, between 
1991 -1997, in my home district of Franklin County, Ohio, 38% 
of children who are awaiting permanent adoption because 
parental rights have been severed have been in the system over 
4 or more years. And 43% have been waiting between 2 to 4 
years. Even in Hamilton County, Ohio, which is widely regarded 
as having one of the best family and dependency court systems, 
33% of these children have been awaiting permanent placement 4 
or more years. And nationally, according to the Department of 
Health and Human Services, children who are adopted from foster 
care leave the system between 3.5 and 5.5 years after they 
enter. Although the Adoption and Safe Families Act has 
addressed this to some extent, the problem persists.
    The problem persists because of court backlogs and 
caseloads. According to the American Bar Association, a 
caseload of 40 to 50 active cases for a full-time staff 
attorney for a child welfare agency is reasonable. However, 
attorneys in the Cook County, Illinois, Public Defender's 
Office have an average of 650 juvenile dependency cases at any 
given time, while the state's attorney's each have about 1,000 
such cases on average. In Santa Clara County, California, it is 
reported that 13 attorneys in the child welfare agency handle 
4,000 child maltreatment cases at any given time. These large 
caseloads result in hearings that may not be substantive and 
may be frequently delayed or continued, ultimately contributing 
to the courts' inability to meet statutory deadlines.
    The inability to deal effectively with this overload of 
cases is due in large part to inadequate resources and 
inadequate training in family law. While there are several 
issues that contribute to the delays inherent in our family 
court system today, I believe these are the two areas that are 
particularly troublesome, and on which future study of the 
issue should focus.
    First, there is a nationwide lack of computerized case-
tracking systems. Such systems are necessary for the efficient 
identification and elimination of existing case backlogs, 
moving abuse and neglect caseloads forward in a timely matter, 
and helping to place children into safe and stable families. 
For example, in California it is reported that the state lacks 
statewide standards for information systems. Although there are 
information systems in place, none are well designed to track 
dependency cases. Across the country, in North Carolina, many 
juvenile courts completely lack automated systems. Fewer than 
half of the juvenile court clerks in 40 North Carolina counties 
surveyed reported using a computer for any purpose, and none 
reported using any court management software. With an 
effective, automated case-tracking system, courts could more 
reliably follow the progress of individual cases through the 
system and ensure that deadlines for permanency decisions are 
met.
    Second, there is often insufficient training of court 
personnel in issues of family law. According to the Department 
of Health and Human Services and the National Center for 
Juvenile Justice, judges, court personnel, agency attorneys, 
guardians ad litem, volunteers who participate in court-
appointed special advocate (CASA) programs, and attorneys who 
represent children and the parents of children in abuse and 
neglect proceedings often lack training specific to child 
welfare law, as well as to other family-related topics, such as 
child development and the dynamics of child maltreatment. 
Further, there is often a lack of attorney training in the 
crossover non-legal social service issues inherent in child 
maltreatment cases. This problem is increased by the frequent 
turnover of judges and attorneys in these courts, resulting in 
the consistent influx of personnel untrained in these important 
family law areas. Better training for judges, attorneys, and 
other court personnel in these basic issues would translate 
into more substantive and productive hearings, which in turn 
would lead to more rapid disposition of cases.
    I look forward to working with you, Madame Chairwoman, and 
the other members of the Subcommittee, to address these and 
other areas so that we can help our courts help our children 
move into safe and loving arms.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much for 
your work with us last year on this provision and your 
continued interest in it and your own experience in this area.
    Senator DeWine?

STATEMENT OF HON. MIKE DEWINE, A UNITED STATES SENATOR FROM THE 
                         STATE OF OHIO

    Senator DeWine. Madam Chairwoman, thank you very much for 
holding this hearing. Congressman Cardin, thank you. You both 
have been real leaders in this whole area. Your committee has 
taken on an awesome responsibility. You have had a very 
vigorous hearing schedule, and I just want to congratulate you 
for that.
    You were involved, as were all three members of this panel, 
in 1997 in the passage of really a landmark bill, the Adoption 
and Safe Families Act. That is a bill I think we all can be 
very proud of. It is a bill that attempted to change the 
culture in this country. I am beginning to see its effects in 
Ohio, and I think we are beginning to see its effects across 
the country.
    We tried in that bill, as I said, to change the culture. We 
tried to make it very clear that the safety of the child must 
always be paramount in any of these decisions that are made at 
the local level. And we also tried in that bill to speed up the 
process so that, as Congresswoman Pryce said, young children in 
foster care would not languish in foster care, that they would 
move on, that they would move through the system, if they 
couldn't go back to their natural parents, that they would be 
eligible for adoption so that they could be adopted at a 
reasonable age so that they could get on with their life and 
that they would have a shot at life as other children have, and 
they would have the opportunity to have what every child should 
have, and that is, parents who love that child and who will 
care for that child and raise that child.
    We did that, and we knew, though, at the time that we had 
other work to do. And we knew that it was not going to be easy 
for the local jurisdictions to get this job done. Madam 
Chairman, you have a bill which you have sent to the Senate 
which is a very good bill, and we are going to do what we can 
to move it over there.
    I have another bill that I have introduced, along with 
Senator Rockefeller, which aims to do many of the same things, 
and that is, to complete the work that we began several years 
ago. We knew at the time that courts were overburdened. We knew 
that the timelines that we set for them were going to be very 
difficult for them to achieve. We also knew from the testimony 
we received and from our own checking in our home States that 
many times these courts did not have really the technical help 
to keep their dockets moving and to get these cases in front of 
them.
    And, frankly, some of the tragedies that we have read about 
in the paper recently, as this committee is so very familiar 
with, occurred because judges, good-faith judges, people who 
were trying to do their job, didn't have information in front 
of them, didn't have the proper information in front of them.
    What the different bills that Senator Rockefeller and I 
have introduced, the bill that you have referenced, what they 
will do is to give some assistance to the local courts, either 
in the form of training for judges, which is very, very 
important, or in the need of technical assistance.
    I look at this hearing today as a very important hearing, 
and I look at the different pieces of legislation that have 
been introduced as very important. And I look at them as being 
really a follow-up to the work that we began together in 1997. 
We knew it was not going to be easy. We knew we had a long ways 
to go. We have made progress, but we have a lot further to go. 
And so I just thank you for having this hearing today on a 
topic that I consider just to be paramount to the future of our 
families and the future of our children.
    I do have a written statement. I will submit it for the 
record. Thank you very much.
    Chairman Johnson of Connecticut. Thank you very much, 
Senator DeWine.
    Senator Rockefeller?

   STATEMENT OF HON. JOHN D. ROCKEFELLER IV, A UNITED STATES 
            SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Rockefeller. Thank you, Madam Chairwoman. I love 
listening to Mike DeWine talk because he knows whereof he talks 
so well. I think you were, what, 29 when you started out? 
[Laughter].
    Senator DeWine. Twenty-five. Back a long time ago.
    Senator Rockefeller. Well, be that as it may, that is 
experience plus more wisdom. The point is he was in the 
trenches, and it is just something that I enormously admire. 
And he and I just worked together on a lot of things, and John 
Chafee, when he was living, would do these same things. We are 
both worried about the 500,000 foster care kids. Three thousand 
of those are in my State. That is not very large, but as far as 
I am concerned, it is very large. And Senator DeWine has talked 
about the 1997 act and the need to put children's health and 
permanency, homes, et cetera, as the first priority of public 
policy, and Mike DeWine is my expert on the role of the courts. 
I say this, so I won't even get into that.
    I want to mention one other thing, though, and that is what 
you referred to, Madam Chairwoman, and that is the role of 
alcohol and drug abuse which I think is ferocious. What did we 
hear yesterday that we in America consume 90 percent of what 
Colombia produces. You know, it is just staggering. Then you 
try to put that down to people who are battered and lost in 
society, and it is a terrible thing.
    So the problem is huge. We know that 67 percent of parents 
in the child welfare system have problems with alcohol and 
drugs, but only one-third get help. And my math tells me that 
means that two-thirds don't get help. That is a prescription 
for disaster. So that is why I am working with Senator DeWine, 
Senator Snowe, Senator Dodd, and many others in legislation 
which is instantly becoming easier to pass, I think, in both 
the House and the Senate as a sense of the next generation 
increases. It has been quite interesting to watch that over the 
last several years, and I credit John Chafee and Mike DeWine 
with a lot of that.
    So I think we need a new approach. I think we need a new 
system that can address the very special concerns of this very 
fragile population, that is, parents with alcohol problems, and 
as a result of that they neglect their children. Their children 
get into trouble. The prevention program that serves a single 
male with drug problems is not going to work for a mother and a 
child, probably, so we have to differentiate and be 
sophisticated in what we do.
    I think we have to link child protection workers to these 
families in ways which we have not done up until this point 
specifically related to alcohol and drug treatment. And forging 
these kinds of relationships is very easy to talk about. It 
takes an awfully long time to do. You know, people are slow to 
change, and we all know that.
    So we are introducing next week a bill which costs a lot of 
money, and that will be the first reaction to it, $1.9 billion 
over 5 years, $200 million the first year, ending up with $550 
million, I think, in the fifth year, and it is specifically to 
combat drug and alcohol abuse in families in child welfare. 
Yes, it is a large sum, but it is a huge problem. And the cost 
of doing nothing is, I think, apparent to all of us. Kids are 
just going to be in foster care for much longer.
    So we try to promote innovative approaches for both parents 
and for children. We will cover screening. We will cover 
assessment to help prevention. We will fund outreach. We will 
fund retention programs. Actually, I don't know if 
``recidivism'' is the right word, Mike, on this, but it is a 
pretty good track record on this. You know, one-third come out 
of it well, one-third come out of it a little less easily but 
come out of it, and one-third don't and probably end up in 
horrible trouble. But the point is that two-thirds are helped. 
We need to support outpatient services, residential treatment, 
after-care, all of these things.
    So let me just conclude, Madam Chairman and Congressman 
Cardin, by saying that I really have two goals: one is for 
families to have successful treatment, and, secondly, that kids 
can return to a safe home. I think those are pretty 
fundamental.
    I think we have to offer treatment first. If it doesn't 
work, then we can move towards finding a new safe, permanent 
home for that child. Under the Adoption and Safe Families Act, 
courts could not move forward on adoption until appropriate 
services have been provided to a family. That is the law. Our 
bill, therefore, solves that problem. We have a very strict 
accountability part in there, and I think that is very 
important to say. Congress is required to get reports on how 
the program is progressing, and that happens on an annual 
basis, and I hope that we can work together.
    [The prepared statement follows:]

Statement of Hon. John D. Rockefeller IV, a United States Senator from 
the State of West Virginia

    Congresswoman Johnson, Congressman Cardin, thank you for 
welcoming me, and my good friend, Mike DeWine today. Your 
leadership in holding an oversight hearing on child welfare and 
the role of the courts, as well as the importance of substance 
abuse is crucial.
    We are here because we care deeply about the vulnerable 
children in our child welfare system, especially the 500,000 
children in foster care--3000 of those are West Virginia 
children.
    In 1997, together we passed the Adoption and Safe Families 
Act. It was a historic law that said a child's health and 
safety must be paramount. It clearly stated that every child 
deserves a safe, permanent home and the law imposed strict 
deadlines to ensure that happens, and children don't get 
``lost'' in the foster care system.
    These are crucial goals, but if we really want states to 
achieve them, we must build on the foundation of the Adoption 
Act.
    In order to move a child into a safe, permanent home, often 
through adoption, the courts are vital. A judge approves when a 
child is removed. A judge decides when a child returns home, or 
when adoption is best for a child. Critical decisions that 
change a child's life.
    Senator DeWine is ``my expert'' on the role of the courts. 
He's an experienced prosecutor and tireless advocate so I am 
proud to work with him on the issue of improving our courts. I 
agree with his remarks, but don't think I need to echo them 
again. Let me merely say thank you for previously voting for a 
provision to train judges and court personnel. Let's work 
together find the funding required to enact this vital 
legislation this year
    Therefore, I want to talk about the next issue on the 
Subcommittee's agenda--the role of alcohol and drug abuse among 
families in the child protection system.
    Let's begin the discussion about the enormous program of 
alcohol and drug abuse for families within the child welfare 
system. Statistics vary, but all suggest that alcohol and drug 
abuse is a major factor aggravating child abuse and neglect. 
One survey estimates that 67% of the families in the child 
welfare system have problems with alcohol and drugs, but only 
one-third get help. That means that two-thirds do not get help. 
Until we address this tragic problem, there will be a gaping 
hole in our child protection system.
    This is why I am working with Senators Snowe, DeWine, Dodd 
and others to develop a bipartisan bill to invest in alcohol 
and drug abuse prevention and treatment for this unique 
population. I want to build on our previous work.
    I believe a new program and a new approach are essential. A 
new system is needed to address the special concerns of this 
unique population--parents with alcohol and drug problem who 
neglect their children. A program designed to serve a single 
male with drug problems doesn't respond to the needs of a 
mother and her child.
    To be effective, we must link child protection workers with 
those involved in alcohol and drug treatment programs. Forging 
new partnerships takes time--and it takes money. That is why we 
will introduce legislation next week to invest $1.9 billion 
over 5 years to combat the problems of drugs and alcohol abuse 
in families in child welfare.
    I understand this is large sum, but alcohol and drug abuse 
is a huge problem. But before reacting to the cost of the bill, 
consider what the costs are, if we doing nothing.
    If we do not invest in alcohol and drug abuse prevention 
and treatment for such families, children will be neglected or 
abused. More children will be placed in foster care, and 
perhaps linger there too long. In 1997, this subcommittee 
received testimony from Professor Richard Barth. Professor 
Barth, at the time, worked in California. He noted that many 
newborns in substance abuse cases already had siblings placed 
in foster care. Barth estimated that if only one-third of the 
mothers with substance abuse problems got successful, early 
treatment upon the birth of their first child, instead of 
waiting until later, many years of foster care placements could 
be prevented and millions of dollars could be saved.
    Our bill is designed to promote innovative approaches that 
serve both parents and children. It will offer funding for 
screening and assessment to enhance prevention. It will support 
outreach to families and retention so that parents stay in 
treatment. It can support joint training, and educate alcohol 
and drug counselors about the special needs of children and the 
importance of a safe, permanent home. It can support out-
patient services or residential treatment. It allows 
investments in after-care to keep families and children safe.
    If we do invest in such specialized alcohol and drug 
treatment programs for families, we can achieve two things. For 
many families, I hope, treatment will be successful and 
children will return to a safe and stable home. But for others, 
we will have tried, and learned the important lesson that some 
children need an alternate place--some children need adoption. 
Under the Adoption and Safe Families Act, courts should not 
move forward on adoption, until appropriate services have been 
provided to families. That is the law, and we must follow it, 
and move some children towards adoption.
    We want a responsible approach that will include 
accountability. It requires annual reports to assess how much 
progress is made each and every year. Reports should measure 
success in treating parents, but, equally important will be 
measures of children's safety and family stability.
    Over the years, we have worked on child welfare issues in a 
positive, bipartisan manner and I hope that will continue as we 
grapple with such tough controversial issues as alcohol and 
drug abuse.


                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much. There 
is a subtle irony in the discussion that has gone forward to 
this point. I asked my staff while you were talking what money 
we had put into computer systems for the courts, either us or 
the judiciary system. And when you look at all the money we 
have put into the child protection agencies to help computerize 
them to track their cases and didn't include the courts, I 
mean, what does that tell you about our ability to do agency 
interrelationship or committee cooperation and to look 
systemwide?
    So agency divisions and lines are part of the problem, and 
it is interesting that it is part of the problem at the Federal 
level, too, because if we had done for the court case-tracking 
system what we did for the agency case-tracking system in what 
we did--what was the year we did that? Anyway, back there when 
we started that project, which has taken many years to 
complete, and we still have some States that really aren't yet 
up and running, think how much further we would be along and 
how much more we would have been able to accomplish the goals 
of the Adoption and Safe Families Act if we had been able to 
think across agency lines as well.
    So it is a very thoughtful piece of legislation that you 
Senators have brought forward, and I am sorry we didn't 
distribute summaries of it. But as you listen to the testimony, 
anyone here is certainly welcome to make comment because this 
issue of interagency cooperation is to me a very interesting 
one. We have had some very serious studies done of how welfare 
reform has in many States and has not in other States been able 
to stimulate interagency cooperation. And I myself have 
reservations about whether grants should do that or whether we 
should require that as a condition of getting any money for 
child protective services.
    So how we need to provoke this and where we need to put our 
money is really the two issues that your legislation does 
challenge us to answer, and we really look forward to working 
with you on that. We simply must do a better job. There are 
some contradictions as you go around. The families have 
substance abuse problems, and they don't want to admit it, and 
neither does the agency want to because they are very afraid 
that their children will be taken from them. So there are 
certain ways that we have to accommodate the law in order to 
allow the very coordination and integration that we can see 
would be useful.
    Senator Rockefeller. Madam Chairwoman?
    Chairman Johnson of Connecticut. Yes.
    Senator Rockefeller. Could I make one additional comment?
    Chairman Johnson of Connecticut. Absolutely.
    Senator Rockefeller. I spent 4 really interesting years in 
the early 1990s chairing something called the National 
Commission on Children and Families, and we produced actually a 
unanimous report, which is unusual in this town. But I will 
never forget--and I talked about alcohol and drug abuse, and 
the other two witnesses talked about the court system and the 
need to train judges. But I will never forget going into the 
Los Angeles juvenile court and going up in a very large caged 
elevator with children on one side, criminals on the other, and 
then they got off. The children went to the left to their 
family courts and the criminals went to the right to whatever 
their fate was.
    Chairman Johnson of Connecticut. How frightening.
    Senator Rockefeller. I sat there with the commission 
members, and the chief judge came over and sat beside me and 
whispered in my ear, sort of doing a translation, like a UN 
translator or something, trying to explain to this non-lawyer 
what in heaven's name was going on. There were kids incourt 
whose mother hadn't shown up, the lawyer hadn't shown up, they 
didn't speak English and they didn't have the documentation. 
The chief judge said--this is back, you know, almost 10 years 
ago or 8 years ago. He said, ``We can spend about 5 or 6 
minutes per case, and that is if we have all the information.'' 
And things have gotten worse since then.
    That is sort of the searing experience that I always think 
back to.
    Chairman Johnson of Connecticut. One worthy of sharing.
    Mr. Cardin, welcome.
    Mr. Cardin. Thank you, Madam Chair, and let me apologize 
for being a few minutes late. Actually, I was on the Senate 
side. I got a little lost over there. [Laughter.]
    I should have gotten my directions straight.
    Let me first compliment my three colleagues. This is really 
a good way to start our hearings. It shows a commitment that 
this is an ongoing struggle, that no one bill is going to solve 
the problems, that we have to continue to pay attention to our 
most vulnerable children. And I do applaud the three of you for 
your leadership in this area in coming forward with 
constructive suggestions and proposals in order to deal with 
this.
    You have pointed out, all three of you, the concerns within 
our court system, training personnel and backlogs, and I agree 
with that. I just want to spend a moment on substance abuse, 
because I think substance abuse is a critical problem within 
our welfare system. Many of the mothers have substance abuse 
problems, and it is causing serious safety issues for our 
children and, as Senator Rockefeller pointed out, keeping 
children in foster care longer.
    One of our witnesses later will point out that most of the 
substance abuse programs in this Nation are directed to males 
within our criminal justice system and that we don't really 
have a focus on substance abuse within the welfare system. And 
I know, Senator Rockefeller, I guess the point that you are 
making, and Senator DeWine, we need to really concentrate on 
this population in order that we get programs and 
infrastructure in place in order to deal with it. Is that 
pretty much as you see it?
    Senator Rockefeller. Yes, it is outreach. You know, we have 
caseworkers for all kinds of people in our society, and somehow 
when you get to substance abuse, it becomes somebody else's 
problem. And that is the interagency question or, you know, 
whose jurisdiction, who is meant to be doing it.
    What I think we are trying to do here--I will just use this 
alliteration because we are all three from Ohio and West 
Virginia. What we are trying to do is stitch together a quilt 
which you can hang up on the wall which will work, because the 
many parts hold together, outreach and counseling and help and 
the money for the treatment is all fundamental.
    Mr. Cardin. If you have an episode that brings you into the 
criminal justice system, you have a chance to get some help--
may--but if you are a mother with a problem, it is much more 
difficult. I think that is what we are trying to really do 
here.
    Again, I applaud you on your bill, and also, as you know, 
we have some legislation pending in the Senate now that deals 
with the court personnel. I would just hope that we could 
figure out a way to move these issues forward, and I understand 
it may cost a few dollars, but these are certainly investments 
in children who need our help, and I very much applaud you for 
your efforts.
    Thank you, Madam Chair.
    Chairman Johnson of Connecticut. Now I'd like to recognize 
Dave Camp from Michigan. You know, when a committee works, the 
chairman doesn't necessarily lead the effort on every single 
bill. And on the Adoption and Safe Families Act, Dave Camp 
really led the effort. It certainly was a bipartisan bill, but 
he did all the picking through the details and building the 
consensus and leading it. And it is a very special pleasure to 
have him still on this committee, and I recognize Dave if he 
would like to comment.
    Mr. Camp. Well, thank you. I used to sit next to the Chair, 
and then after that bill passed, I got sent to the end of the 
line. [Laughter.]
    Mr. Camp. But I want to thank--
    Chairman Johnson of Connecticut. It just goes to show you, 
he is much higher ranking on other subcommittees. You can't 
have it all.
    Mr. Camp. Well, I want to thank all of you for your 
testimony and your comments and also your help and efforts on 
the Adoption and Safe Families Act, and obviously I am looking 
forward to the hearing today and looking at what else we can 
do. And I realize, Senator Rockefeller, these are issues that 
you have cared about very deeply for a long time, as all of you 
have, and I am glad we didn't delay that bill because there 
have been some positive things that have occurred in moving 
kids out of foster care into loving homes.
    My own State won almost $1 million in incentive awards 
under the legislation, so there are some positive changes being 
done. But this problem of what to do with the system kids find 
themselves in and trying to ensure that the provisions of the 
legislation that we worked on are enacted I think is a very 
real one, and particularly when there is also an interfacing of 
agencies, both law enforcement and child protection services, 
and they don't always coordinate. And I just think there is 
going to be a lot of work ahead to do on this, and I look 
forward to working with all of you, and thank you all for your 
leadership on this. It wouldn't have happened without all of 
your efforts, and I appreciate it very much.
    Thank you. Thank you, Madam Chair.
    Chairman Johnson of Connecticut. This committee has held 
very extensive oversight hearings on the Adoption and Safe 
Families Act, and it was very clear that the problem is in the 
courts. And so this is an opportunity to begin to look at how 
we can overcome that problem. The provision that was in the 
bill that passed the House came directly from those hearings 
and Deborah's legislation in the House. So it is a small start, 
but this computer issue and then the larger issue of 
coordination are really work yet to be done. So we thank you 
for testifying, and we look forward to working with you both 
and with Deborah.
    Senator DeWine. Thank you very much.
    Senator Rockefeller. Thank you.
    Chairman Johnson of Connecticut. Now let's start with the 
first panel: the Honorable David Grossmann, the National 
Council of Juvenile and Family Court Judges, from Reno, Nevada; 
the Honorable Robert Leuba, Chief Court Administrator, Supreme 
Court of Connecticut, on behalf of the Conference of State 
Court Administrators; Mark Hardin, Director of Child Welfare 
for the American Bar Association Center on Children and the 
Law; Christine DeLay, volunteer, National Court Appointed 
Special Advocate Association; and Ron Moorman, Executive 
Director, Child Care Association.
    It is a pleasure to welcome you. Thank you very much for 
being with us, and please feel free to comment on the preceding 
testimony if you care to.
    Congresswoman Pryce, are you staying? Would you come up and 
join us up here?
    Ms. Pryce. Well, I cannot stay with the panel long, but 
thank you very much.
    Chairman Johnson of Connecticut. Stay as long as you can. 
We are happy to have you.
    We will start with Judge Grossmann.

STATEMENT OF HON. DAVID E. GROSSMANN, HAMILTON COUNTY JUVENILE 
 COURT, CINCINNATI, OHIO, AND PAST PRESIDENT, NATIONAL COUNCIL 
       OF JUVENILE AND FAMILY COURT JUDGES, RENO, NEVADA

    Judge Grossmann. Thank you, Madam Chairwoman and 
Congressman Cardin. I appreciate the opportunity to be here 
this afternoon to testify on this very important matter. I have 
spent the good portion of my adult life working in the area of 
the courts. I have been the presiding judge in Cincinnati, 
Ohio, for the last 25 years, and before that 16 years as a 
magistrate, and we have worked through many of the problems 
that you are now looking at in the area of a struggle to move 
children into safe, nurturing, permanent homes who otherwise 
would continue to be stranded in the system.
    We all know the problem, the many hundreds of thousands of 
children that are, in fact, struggling, stranded, as I said, in 
the system. We know that they come out of dysfunctional 
families. We also know that the system itself is to some degree 
dysfunctional. And when you have a dysfunctional system, the 
problem is that it keeps functioning dysfunctionally. And that 
presents a very serious challenge.
    You know, when your pipes break or your plumbing doesn't 
work, the first thing you do is turn off the water. When your 
car is burning oil, the first thing you do is to turn off the 
engine and go get the head off and grind the valves and replace 
the rings. With courts, you can't just turn off the system. It 
keeps going, and the problem is, the challenge is, to fix it 
while it is going. It is sort of like heart surgery. You have 
to keep the body living while you try to fix the problem.
    Now, it is not only important to know--of course, it is 
basic to know that you have a problem, but the real challenge 
is to know why do you have the problem. And I think in the area 
of the courts, a number of us who have studied this and have 
been very much instrumental in preparing documentation on how 
to manage this are quite well aware of why we have the problem.
    First of all, in the courts--and I address them primarily 
because if the courts don't work, the rest of the system 
doesn't work either. And that seems to be a reality that has 
now dawned on many folks, including Congress, that the courts 
need some real help here to get done what they need to do, both 
in training and in technical assistance.
    But if we look at the courts, we see across the country a 
number of things that are obvious. The cases are not moving 
swiftly. They are not given sufficient attention in front-
loading, that is, enough information is not presented quickly 
on to bring the case moving forward in an expeditious way. The 
courts lack information systems, and I think, Madam Chairwoman, 
you mentioned that. And, by the way, you have spent a lot of 
money on SAQUIS and AFGARS. Those are fine computer systems. 
They do the courts practically no good at all because the 
courts themselves must have information and computer systems to 
manage their own processes. It is nice to have aggregate 
information, but it is very important to know within each 
individual court how the system is functioning. They can't do 
that, particularly in the larger courts, if they don't have 
their own systems. And, of course, you observed that many of 
them do not; therefore, they are kind of flying blind.
    And you are stuck with the fact that you look at statistics 
and we look back and say, well, in 1997 it was such-and-such or 
1996. We are lucky if we can tell what it was in 1998. It is 
kind of trying to fix a problem, and you are looking at 
history, but you don't know what the problem looks like right 
now.
    Therefore, one of the things that I would urge the 
committee to do is to look very carefully at how monies move to 
the courts to increase their ability to handle their management 
information systems and to handle their processes.
    I brought with me a document called the ``Resource 
Guidelines: Improving Court Practice in Child Abuse and Neglect 
Cases.'' This has become the yellow brick road. This has become 
kind of the how-to manual across the United States with courts. 
This volume tells courts exactly how to handle the problem, 
what to do in a very specific way. This is not a lot of 
platitudes and nice sayings. It is actually a very detailed 
how-to manual.
    We know what the problems are. We know how to fix them. The 
challenge is to get the training necessary while the system is 
running. And, of course, you come to judges and say, look, you 
got to change how you do business, and their response is: ``I 
am so busy doing what I am doing, I don't have time to look up. 
I don't have a chance to try to fix it.''
    Now, we know how that can be done. We have seen it happen. 
And, by the way, I brought another document along which is 
called the ``Child Victims Act: Model Court's Project Status 
Report.'' This is 20 courts across the country that have become 
very active in the area of trying to address this problem. 
These are courts that you will recognize. This is New York 
City, this is Miami, Florida. It is Chicago, Illinois, it is 
Newark, New Jersey. These are important areas where this 
problem is highly, highly visible. These courts are now working 
to solve these problems. I am telling you that we are making 
progress, but we need more assistance from the standpoint of 
funding to improve the training of judges, the training of 
court personnel, the opportunity to develop the technical 
assistance that these courts most desperately need. And it is 
not happening unless we get the kind of financial support that 
they need.
    The courts have been, as you observed Madam Chairwoman, 
they have been sort of the stepchildren. We have poured a lot 
of money into the executive branch, into the child welfare 
systems, but the courts were just sort of standing on the side 
there, and nobody noticed. But if you don't fix the courts, 
they are the great accountability agent, they are the people 
that possess the wherewithal and the power to hold the entire 
system accountable and can make the thing function. But if they 
themselves are not functioning properly, it is very, very hard 
to get home.
    Madam Chairman, I think I have talked long enough, but you 
understand my urgency here.
    [The prepared statement follows:]

Statement of Hon. David E. Grossmann, Hamilton County Juvenile Court, 
Cincinnati, Ohio, and Past President, National Council of Juvenile and 
Family Court Judges, Reno, Nevada

    Chairman Johnson, members of the Subcommittee, the National 
Council of Juvenile and Family Court Judges (NCJFCJ) is honored 
to have the opportunity to testify before you today on the 
court's experience and views on the training needs of court 
personnel and on the problem of substance abuse in child 
protection.
    I am David E. Grossmann of the Hamilton County Juvenile 
Court, Cincinnati, Ohio, and a past President of the NCJFCJ. I 
currently serve as Chair of the Expedited Adoption Committee of 
the National Council, and regularly serve as faculty for the 
National Council during judicial and interdisciplinary training 
seminars and conferences nationwide.

The National Council of Juvenile and Family Court Judges

    Founded in 1937, the National Council of Juvenile and 
Family Court Judges is the nation's oldest judicial membership 
organization. We are an independent nonprofit organization, and 
membership is comprised of state judges and other professionals 
of courts who deal with children and families. The case loads 
of these courts have grown dramatically, especially in the 
areas of child abuse and neglect, family and domestic violence, 
juvenile crime, alcohol and drug abuse, divorce, adoption and 
non-support of children.
    The National Council maintains the National College of 
Juvenile and Family Justice on the University of Nevada, Reno 
campus. Last year, the College sponsored or collaborated in 
implementation of over 191 national, regional, state or local 
training programs for over 25,000 judges and system 
professionals. NCJFCJ members serve as faculty and also assist 
in providing technical assistance to trainees and their courts. 
Funding for training efforts of the National Council comes from 
a number of private and federal grants, with substantial 
funding from the U.S. Department of Justice, Office of Juvenile 
Justice and Delinquency Prevention.
    In 1975, the National Council's research division, the 
National Center for Juvenile Justice (NCJJ) was established in 
Pittsburgh, PA. With federal support from the Office of 
Juvenile Justice and Delinquency Prevention, the National 
Center collects data from juvenile courts nationwide and 
analyzes data and trend information on juvenile crime issues. 
The reports generated by the National Center based on this data 
provide the primary source of credible information on juvenile 
delinquency nationwide.
The Permanency Planning for Children Department

    Now celebrating its twenty-fifth year of providing judicial 
training and technical assistance for this nation's juvenile 
and family court judiciary and others, the Permanency Planning 
for Children Department leads the National Council of Juvenile 
and Family Court Judges' effort to improve court practice in 
handling child abuse and neglect cases.
    The history of the Permanency Planning for Children 
Department dates back to the early 1970's, when juvenile and 
family court judges who comprised the National Council's 
membership began to recognize the need for judicial review of 
children in placement. At that time, children were often being 
removed unnecessarily from their homes. Once in foster care, 
children were lingering for years with no permanent resolution 
to their cases. Children who had been abused or neglected by 
their birth families were subjected to years of out-of-home 
placement. They found themselves moved from foster home to 
foster home, with no clear goals for reunification with their 
birth families or movement toward alternative permanent 
placement. Children were reaching adulthood and transitioning 
out of the foster care system with no sense of family, with low 
self-esteem, and with no direction for the future.

Public Law 96-272--The Adoption Assistance and Child Welfare 
Act of 1980

    The National Council, recognizing the need for judges to 
take a leadership role in overseeing dependency cases and in 
moving cases toward permanency, began a national training 
effort in 1974 for the education of juvenile and family court 
judges, child welfare professionals, attorneys, and other court 
and child welfare system professionals. Training was based on 
principles which were later encompassed in Public Law 96-272--
The Adoption Assistance and Child Welfare Act of l980. An 
unprecedented piece of legislation, this Act set out principles 
which are key to child welfare and court practice today. The 
Act made it clear that courts must take an oversight role to: 
(1) Avoid unnecessary separation of children and families; (2) 
If removal is necessary, provide for reunification at the 
earliest possible time; (3) When reunification is not feasible, 
provide for a safe, permanent home at the earliest possible 
time.
    Upon passage of the Act, the National Council recognized 
the continued need for training for judges and 
interdisciplinary audiences nationwide to inform key players of 
their new roles in the handling of dependency cases and to map 
out protocols and plans for changes in practice that 
implementation of the new law would require. Training 
nationwide focused on the law and its provisions, and resulted 
in changes in court rules, child welfare agency practice and in 
legislation at the state level across the country.
    Early training efforts and subsequent national training 
initiatives were funded by the Edna McConnell Clark Foundation, 
the Office of Juvenile Justice and Delinquency Prevention of 
the U.S. Department of Justice and the Children's Bureau of the 
U.S. Department of Health and Human Services. In 1984 
Permanency Planning Task Forces were established in all 50 
states and the District of Columbia. Focused efforts of 
judicial leaders at both the appellate and juvenile and family 
court levels ensured that training was provided to judges and 
court personnel. Training efforts resulted in changes in 
practice which improved the handling of child abuse and neglect 
cases by the courts and by child welfare systems.
    Within the limits of funding provided, training continued 
throughout the 1980's, but it became clear at the close of the 
decade that in spite of the best efforts of the National 
Council and its team of volunteer judicial, child welfare and 
court-related faculty, that much more needed to be done. 
Although hundreds of training programs had been held, hundreds 
more were needed. Even as late as the 1990's system 
practitioners in jurisdictions who had not had the benefit of 
training around the provisions of the Adoption Assistance and 
Child Welfare Act were unaware of their new roles as envisioned 
by the Act.
    Conducting ``business as usual'' in many jurisdictions was 
meeting with disastrous results. Public outcry was often noted 
when judges and other key system players who had not had the 
benefit of training regarding the Act misunderstood the 
``reasonable efforts'' provision of the Act, thinking that 
``reasonable efforts'' was synonymous with making ``every 
effort'' to return a child home. In spite of the Act's intent, 
children were being returned home to unsafe situations and 
being harmed as a result of misconception and lack of 
understanding as to what the law intended. Clearly, the 
desperate need for training on the Act and its provisions had 
not been met for many members of the judiciary, the child 
welfare system, or other professionals within the child welfare 
and court systems. Resources in terms of training dollars were 
simply not available to meet the nationwide need for training 
for all members of the judiciary and court systems who made 
critical decisions regarding the lives of this nation's abused 
and neglected children.

The Adoption and Safe Families Act of 1997

    In 1997, another landmark piece of child welfare 
legislation was passed by Congress and signed into law. The 
Adoption and Safe Families Act of 1997, P. L. 105-89 placed 
additional responsibilities upon courts requiring that they 
take an even more vigilant role in monitoring the handling of 
child abuse and neglect cases. Additional judicial oversight, 
shortened time lines, and increased accountability on the part 
of child welfare agencies and courts alike were required to 
ensure that children were moved to permanency at the earliest 
possible time. Changes in practice on the part of courts, 
attorneys, child welfare agencies and all other key players 
within the child welfare and juvenile and family court systems 
were required to meet the mandates of the law.
    The Adoption and Safe Families Act was important in 
clarifying the roles of the courts and child welfare agencies 
in the handling of child abuse and neglect cases, and set forth 
clearly the important considerations in the handling of 
dependency cases--that each child be provided a safe, permanent 
and stable home, and that the child's safety and well-being be 
considered paramount in the decision-making process.
    Once again, a new federal law was passed to guide states in 
improving court practice in child abuse and neglect cases. And 
once again, adequate resources to ensure the training of every 
judge handling a dependency docket nationwide were not 
available. Training dollars since passage of that law have been 
stretched to the limit. In 1995 The Permanency Planning for 
Children Department of the National Council conducted 26 
judicial and interdisciplinary training programs. In 1999, due 
to the rising demand in the field for training around the 
Adoption and Safe Families Act of 1997, the number of training 
programs provided totaled 114, reaching 8,156 participants, an 
increase of over 250% in three years' time without additional 
resources to fully fund such efforts.

Impact of Substance Abuse on Handling of Child Abuse and 
Neglect Cases

    This nation's juvenile and family courts have witnessed an 
unprecedented rise in cases involving child abuse and neglect 
over the past decade. Cases are entering the court system which 
are more complex and more difficult to handle than ever before. 
According to the U.S. Department of Health and Human Services, 
in 1997, over three million cases of suspected child abuse and 
neglect were reported. Over two million of these cases were 
investigated by child welfare agencies, and over one million of 
those reported cases were substantiated.\1\ A variety of 
reasons for this rise in caseloads and for the increasing 
complexity of cases have been cited. These include poverty, 
homelessness, and most significantly--substance abuse.
---------------------------------------------------------------------------
    \1\ Administration for Children and Families; U.S. Department of 
Health and Human Services, 1999.
---------------------------------------------------------------------------
    A January, 1999 report by the National Center on Addiction 
and Substance Abuse at Columbia University indicated that 
``drugs and alcohol abuse causes or exacerbates seven out of 
ten cases of child abuse or neglect.'' \2\ The study concluded 
that ``substance abuse and addiction dangerously compromise or 
destroy the ability of parents to provide a safe and nurturing 
home for children.''
---------------------------------------------------------------------------
    \2\ ``No Safe Haven: Children of Substance-Abusing Parents,'' 
National Center on Addiction and Substance Abuse at Columbia 
University, January 11, 1999.
---------------------------------------------------------------------------
    In a report released in April, 1999 the U.S. Department of 
Health and Human Services estimated ``that substance abuse is a 
substantial factor in a third of all child abuse and neglect 
cases, and up to two-thirds of foster care cases'' \3\
---------------------------------------------------------------------------
    \3\ ``Blending Perspectives and Building Common Ground,'' 
Administration for Children and Families, the Office of the Assistant 
Secretary for Planning and Evaluation, and the Substance Abuse and 
Mental Health Services Administration, U.S. Department of Health and 
Human Services, 1999.
---------------------------------------------------------------------------
    Information regarding, how to handle child abuse and 
neglect where substance abuse is a factor, services necessary 
for treatment of these cases, establishment of drug courts as a 
method for handling this caseload, and other critical areas can 
best be imparted through provision of judicial and 
interdisciplinary training at the local, state and national 
level.

Improving Court Practice in Child Abuse and Neglect Cases

    In 1992, the National Council of Juvenile and Family Court 
Judges, following a three-year effort, published the RESOURCE 
GUIDELINES: Improving Court Practice in Child Abuse and Neglect 
Cases. This document, written by a committee of judges, child 
welfare professionals, attorneys, consultants and others 
identified best practice in handling child abuse and neglect 
cases. Endorsed by the Conference of Chief Justices and the 
American Bar Association, the RESOURCE GUIDELINES has been used 
as a blueprint for change by State Court Improvement programs 
nationwide. Over 19,000 copies of this document have been 
disseminated to date, and courts and child welfare agencies 
alike are using the RESOURCE GUIDELINES as a basis for 
assessing current practice and planning for change.
    Upon completion of the RESOURCE GUIDELINES, the National 
Council established a Model Court Project. The purpose of this 
project was to identify courts, nationwide, who were willing to 
examine dependency practice, identify barriers to permanency, 
implement change and to serve as models to others with similar 
goals. The Hamilton County Juvenile Court in Cincinnati, Ohio 
served as the first demonstration Model Court. The Model Court 
Project currently encompasses 20 courts, including 
jurisdictions as large as Cook County, Illinois--Chicago; Los 
Angeles, CA; New York City, NY; Essex County, NJ--Newark; and 
Dade County, FL--Miami. One third of the nation's children in 
foster care are served by the Model Court Project.
    Model Courts of the National Council have demonstrated 
remarkable success in improving practice in the handling of 
child abuse and neglect cases by: (1) shortening time in care 
from removal to permanency; (2) increasing adoptions; (3) 
building resources for providing services to children and 
families through judicial leadership and through collaboration 
with key system players in each Model Court community. 
Collaboration between courts, child welfare agencies, 
attorneys, service providers, the faith community and others 
has resulted in better outcomes for children and families in 
each Model Court jurisdiction.
    Currently, each of the twenty Model Courts involved in the 
Model Court Initiative of the National Council is serving as a 
mentor to other courts around the nation who are attempting to 
improve dependency practice. Strategies for change as well as 
programs and principles which have guided the work of Model 
Courts are being shared and replicated by other courts 
nationwide.
    The work of the Model Courts, their successes, and their 
challenges is chronicled each year in a written publication 
entitled the Model Court Status Report. This has proven a 
useful tool in ``getting the word out'' to courts nationwide 
who are attempting court improvement efforts on their own.
    However, in addition to the written work being generated as 
a result of the Model Court initiative, training has been 
established as the best method of disseminating the work of the 
Model Courts nationwide. Through national, state, and local 
conferences, Model Court representatives share their 
experience, provide guidance regarding how other jurisdictions 
may overcome barriers to permanency, and provide encouragement 
to the many inspired judges and others who may wish to 
undertake a systems change effort. Training is the essential 
tool for allowing jurisdictions to plan and implement systems 
change efforts on their own. Resources for this work have been 
barely able to keep up with the demand.
    Currently there are literally dozens of courts beyond the 
twenty Model Courts at work in developing new models for 
handling child abuse and neglect cases. The RESOURCE GUIDELINES 
provides a blueprint for change. The Model Courts and their 
experiences as laboratories for change provide the essential 
tools to ready other systems to implement changes without 
'remaking the wheel'' and stumbling over similar barriers.
    Training regarding the need for systems change for judges 
and other system professionals, the work of the Model Courts 
and others, emerging issues such as child development and 
substance abuse, and trends in juvenile and family court 
dependency practice is critical, and resources for doing so are 
currently stretched to the limit.

The Importance of Judicial Education

    The Adoption Assistance and Child Welfare Act of 1980, the 
National Council's RESOURCE GUIDELINES and Model Court project, 
and the Adoption and Safe Families Act of 1997 set policy 
guidelines for best practice in handling child abuse and 
neglect cases. However, as pivotal and important as they are, 
they cannot have a positive impact upon court and systems 
practice at the grassroots jurisdictional level until resources 
allow for training in every juvenile and family court 
jurisdiction across the nation. Judges do not change how they 
do business unless they are convinced they need to do so. Child 
welfare agencies, attorneys, service providers and others will 
not modify their behavior without motivation and the tools to 
do so. Training can provide the bridge between current practice 
and improved practice. No law can ``go on the books'' and be 
effective unless system practitioners understand the intent and 
spirit of the law, and the expectations of all parties in 
carrying out the mandates of the law. Training serves this 
purpose.
    The Adoption and Safe Families Act of 1997 is an excellent 
piece of legislation, but it will not fully be implemented 
until every judge in this nation understands the mandates of 
the law and his responsibility under the law. As was the 
experience with Public Law 96-272, the Adoption Assistance and 
Child Welfare Act of 1980, there may be judges and system 
practitioners throughout the country who, if not provided 
training, will proceed with business as usual.
    A study conducted by the National Council of Juvenile and 
Family Court Judges of court representatives across the nation 
from 1996-1998 indicated that practice varied widely from 
legislation around adherence to time lines and other statutory 
guidelines as mandated by P.L. 96-272. In fact, 54% of study 
respondents indicated that time frames or other statutory 
guidelines as set by the law were ``loosely adhered to'' in 
actual practice. ``Composite responses from court improvement 
specialists across the nation confirm that supporting good 
practice in statute involves careful articulation the duties 
and responsibilities of parties, providing guidance with 
respect to expectations and required procedures for events, 
improving representation, providing consistency and supporting 
efforts to monitor case progress effectively.\4\ Training can 
bridge the gap between legislative intent and daily practice.
---------------------------------------------------------------------------
    \4\ Gatowski, Ph.D., Sophia, Shirley Dobbin Ph.D., Krista Johns, 
J.D., Margaret Springgate, J.D., ``Child Abuse and Neglect Cases: 
Examining State Statutes in Everyday Practice'' and ``Child Abuse and 
Neglect Cases: A National Analysis of State Statutes.''

---------------------------------------------------------------------------
Making the Adoption and Safe Families Act of 1997 A Reality

    The critical need for judicial and interdisciplinary 
education continues, and must be met. Every judge in the nation 
handling child abuse and neglect cases must be reached, in 
order for new twelve-month timelines to be achieved, clear 
expectations of courts and child welfare agencies under the law 
to be outlined, and goals for improved handling of child abuse 
and neglect cases to be developed and implemented.
    Resources are currently not available that will allow for 
this nationwide judicial training and technical assistance 
effort. However, the mechanism for providing judicial training 
nationwide is in place. Volunteer faculty, sitting judges who 
have the knowledge and desire to motivate others on the bench 
to change practice, have made a commitment to serve as trainers 
during state, local and national training programs. Information 
focusing on the requirements of the new federal legislation and 
topical information on subjects related to dependency court are 
currently available. Nationally recognized speakers have 
indicated their willingness to travel and to speak to judicial 
and interdisciplinary training Conferences. Written materials 
which can supplement hands-on training are available. The lack 
of adequate funding for this training is currently the only 
barrier to providing each of this nation's judges the tools 
with which to improve court practice in child abuse and neglect 
cases. Let us make the Adoption and Safe Families Act of 1997 a 
reality by educating a system for change.
    Thank you, Mrs. Chairman, for inviting me here today to 
speak on behalf of the National Council of Juvenile and Family 
Court Judges. I am pleased to be available to answer your 
questions or to provide additional information you may require.
      

                                <F-dash>


    Chairman Johnson of Connecticut. We do have a red light 
system, and I always hate to cut people off because your 
experience is so terribly valuable to our committee. But we 
will have more time to question if we can keep our statements 
within the 5-minute limit, and we do include your entire 
statement in the record.
    Judge Leuba?

 STATEMENT OF HON. ROBERT C. LEUBA, CHIEF COURT ADMINISTRATOR, 
CONNECTICUT SUPREME COURT, ON BEHALF OF THE CONFERENCE OF STATE 
                      COURT ADMINISTRATORS

    Judge Leuba. Thank you very much, Madam Chair and members 
of the committee. It is an honor to be here to address this 
important issue of child protection.
    I am a judge of the Superior Court in Connecticut and the 
Chief Court Administrator.
    Chairman Johnson of Connecticut. Excuse me, Judge. Could 
you speak a little closer to the microphone?
    Judge Leuba. I certainly can. Thank you.
    For the record, my name is Robert Leuba. I am a judge at 
the Superior Court in the State of Connecticut and the Chief 
Court Administrator for the Connecticut court system. I am 
honored to be here today as a member and representing the 
Conference of State Court Administrators, which is consisting, 
as you know, of 50 States, Puerto Rico, and the Territories. 
The State courts are pleased to be included in the discussion 
on policy matters relating to the issue before the committee of 
oversight of the child protection area.
    I have submitted written testimony, and I won't review 
that, just to summarize. But before I do, I want to thank you 
for last year's passing of the Fathers Count Act with the 
amendment that included assistance here, and I guess we will 
just have to work harder with the Senators who were here and 
others to get that all the way this year, if the committee sees 
fit.
    I have several key points, many of which have been covered 
by the previous speakers. ASFA, the Adoption and Safe Families 
Act, is an important program in moving ahead in the child 
protection area. I have submitted copies of a resolution 
adopted by the Conference of State Court Administrators and 
also the Conference of Chief Justices supporting the 
implementation of ASFA, and I want to wholeheartedly add my 
voice to that resolution.
    As you know--it has been said before--that legislation 
makes judges a key component of the process. There are many, 
many steps in the process in which the judge is the necessary 
ingredient. I have listed them in my testimony. I won't 
enumerate that here.
    It adds responsibilities to the courts without any funding 
whatever, and, of course, I guess we are all here today to 
indicate to the committee the need in State courts around the 
country of financing for training and technical assistance in 
connection with the implementation of ASFA.
    Specifically, we would request the amendment of the Social 
Security Act, Titles IV-B and IV-E, which provide for training 
now in the executive branch, but we would need to have the 
judicial branches of government around the country included as 
eligible participants in that process.
    We appreciate the opportunity to be here today, and just 
before I conclude, I want to just give you a little idea of 
what is happening in Connecticut. In Connecticut, which is one 
of the members of the Conference of State Court Administrators, 
we have about 3 million people, as you know, Madam Chair, and 
we use about $285 million to run the court system, $54 million 
of which is devoted to juvenile courts. We have received from 
the Federal Government under the Court Improvement Program 
$75,000 a year for training, which, as you can see, in 
proportion is a small drop in the bucket for us, and we need 
more, frankly.
    I have given you information in my written testimony about 
other States, what they are doing, Arizona and Kentucky and 
Michigan, and I won't elaborate further on that except to say I 
would be glad to answer any questions you have about what is 
going on in Connecticut and to provide any information that is 
needed by the committee or staff through the National Center 
for State Courts or the Conference of State Court 
Administrators, of which I am a member.
    Thank you very much.
    [The prepared statement follows:]

Statement of Hon. Robert C. Leuba, Chief Court Administrator, 
Connecticut Supreme Court on behalf of the Conference of State Court 
Administrators

Introduction

    Ms. Chairperson and Members of the Subcommittee, my 
statement is submitted on behalf of the Conference of State 
Court Administrators (COSCA). I thank you for the opportunity 
to appear before you today on the important issue of child 
protection.
    My name is Judge Robert C. Leuba, Chief Court Administrator 
for the State of Connecticut Judicial Branch. The points that I 
want to make this afternoon are:
    <bullet> The Conference of State Court Administrators wants 
to commend Congress for its efforts to improve the protections 
available to children through the enactment of the Adoption and 
Safe Families Act (ASFA).
    <bullet> It is our belief that the court systems and judges 
are the key to effective implementation of ASFA, but we need 
help in meeting our responsibilities.
    <bullet> ASFA significantly increased the responsibilites 
of the courts in handling child protection issues, but did not 
provide the court systems with additional resources to assist 
them in meeting the new demands.
    <bullet> State court systems need additional resources to 
provide training and technical assistance to the local courts 
and judges so that they can effectively implement ASFA.
    <bullet> Specifically, we are requesting that the Social 
Security Act be amended to make judicial training eligible for 
federal financial participation and that funds be appropriated 
to provide technical assistance to state court systems.
    I have been with the Connecticut Judicial Branch for 13 
years, both as an administrator and as a trial judge. Prior to 
becoming a judge, I served for a number of years in the public 
sector and as an attorney in private practice. During my pre-
bench public service career I served as Legal Counsel and 
Executive Assistant to Governor Thomas J. Meskill from 1973-
1975; Commissioner of Motor Vehicles from 1971-1973; and Mayor 
of the Town of Groton from 1967-1969.
    Throughout my years with the Judicial Branch, I have had 
the opportunity to preside over a variety of criminal, civil, 
and family matters, including those involving the abuse and 
neglect of children and termination of parental rights. I 
served as presiding judge of the family division of the New 
London Judicial District, as well as Chief Administrative Judge 
of the Judicial Branch's Civil Division.

Conference of State Court Administrators (COSCA)

    I appear before you today as a representative of the 
Conference of State Court Administrators (COSCA). COSCA was 
organized in 1953 and is dedicated to the improvement of state 
court systems. Its membership consists of the principal court 
administrative officer in each of the fifty states, the 
District of Columbia, the Commonwealth of Puerto Rico, the 
Commonwealth of the Northern Mariana Islands, and the 
Territories of American Samoa, Guam, and the Virgin Islands. 
COSCA is a nonprofit corporation endeavoring to increase the 
efficiency and fairness of the nation's state court systems. 
The purposes of COSCA are:
    <bullet> To encourage the formulation of fundamental 
policies, principles, and standards for state court 
administration;
    <bullet> To facilitate cooperation, consultation, and 
exchange of information by and among national, state, and local 
offices and organizations directly concerned with court 
administration;
    <bullet> To foster the utilization of the principles and 
techniques of modern management in the field of judicial 
administration; and
    <bullet> To improve administrative practices and procedures 
and to increase the efficiency and effectiveness of all courts.

Support for the Effective Implementation of ASFA

    COSCA and the Conference of Chief Justices (CCJ) have 
established the effective implementation of ASFA as one of 
their highest priorities for 2000, as they did in 1999. 
Attached for your information is a copy of a joint resolution 
that was adopted by CCJ and COSCA that supports the goals of 
ASFA and its effective implementation.
    Our interest in this issue grows out of our longstanding 
involvement with federal efforts to protect children in danger 
of abuse and neglect. The enactment of the Adoption Assistance 
and Child Welfare Act of 1980 (P.L. 96-272) vested a unique and 
critical responsibility with the courts to oversee the 
protection of children in child abuse and neglect situations. 
For the first time, the 1980 Act required courts to review and 
evaluate state welfare agencies' actions. Further, courts were 
required to make judicial determinations that the state 
agencies had made ``reasonable efforts'' to prevent the removal 
of children from their homes, to reunify children with their 
families after a foster care placement, and to provide 
permanent homes for children who cannot be reunited with their 
families. Congress also required courts to hold dispositional 
hearings no later than eighteen months after a child's original 
placement and hold a hearing every twelve months thereafter to 
review progress on the permanency plan. States in which the 
reasonable efforts findings were not made and properly 
documented and in which the time frames for hearings were not 
met could be sanctioned with the loss of federal funding.
    In 1997, Congress concluded that the promises of the 1980 
Act were not realized. Passage of ASFA holds new promises for 
children who are vulnerable to abuse and neglect. To realize 
these promises, however, Congress needs to recognize and 
provide adequate support for the needs of the institutions 
critical to ASFA implementation: the courts.

Impact of ASFA on the Courts

    The effect of the new mandates on courts has been to 
increase the workload of the courts because of the added 
judicial determinations and longer hearings needed to resolve 
the complex issues required by the Act. The following 
represents the highlights of the new mandates and their impact 
on the courts.
    <bullet> Judges are required to make the child's health and 
safety the primary standard for determining a state's 
reasonable efforts to keep the child in the home or reunify the 
child and the parents.
    <bullet> Judges are required to make judicial 
determinations of when reasonable efforts to prevent removal 
and reunify the family are not required because of egregious 
circumstances.
    <bullet> Judges are required to make the difficult 
decisions pertaining to the termination of parental rights in 
cases where a child has been in foster care for fifteen 
consecutive or fifteen of the twenty-two most recent months. In 
the cases where an exception to the fifteen-month rule is 
requested, judges must determine whether the compelling reasons 
are sufficient not to file the petition.
    <bullet> Judges are required to conduct hearings on the 
permanency plans that have been developed by state child 
protection agencies no later than twelve months after a child 
enters care, six months earlier than had been required in the 
past.
    <bullet> Judges are required to insure that the procedural 
rights of foster parents, pre-adoptive parents, and relative 
caretakers are protected and that they are notified of hearings 
and have the opportunity to be heard at all hearings.
    <bullet> Judges are required to review the placement of a 
foster child every twelve months and to determine when the 
child will be returned to his or her parents or placed for 
adoption or with a relative or with a legal guardian.
    Additionally, ASFA strengthened the courts' oversight 
authority in reviewing the work of the child protection agency 
staff. The combined result of the ASFA changes is more complex 
and significantly longer court hearings.
    Congress enacted the Adoption and Safe Families Act (ASFA) 
of 1997 (P.L. 105-89) in response to the concerns that the 
child protection system was not adequately addressing the needs 
of abused and neglected children. The Act was designed to 
address two major concerns (1) the safety of children in all 
decisions and (2) the need to find permanent homes in a timely 
manner for children who have been removed from their homes. The 
changes brought about by ASFA are positive and will bring about 
better results for children.
    Please do not misunderstand, we support implementation of 
ASFA. Our concern is with ensuring that courts have the 
resources necessary to implement the Act, not with its 
provisions. We believe that these changes are necessary to 
insure better results for children. We share your belief that 
the health and safety of our children should be given the 
highest priority when deciding the difficult issues pertaining 
to the termination of parental rights and the removal of 
children from their homes and families. As mentioned earlier, 
in establishing priorities for 1999 and again in 2000, CCJ and 
COSCA identified the effective implementation of ASFA as one of 
their highest priorities.

Court Needs for Training and Technical Assistance

    To implement ASFA effectively, courts need federal support 
and assistance. To this end, we want to address two issues. 
First, courts need to have access to the training funds 
currently available to executive agencies under Title IV-B and 
Title IV-E of the Social Security Act. Second, Congress needs 
to appropriate the $10 million for technical assistance for 
states authorized by ASFA.
    We have strong evidence that training is inadequate and 
that state court systems are in need of technical assistance to 
aid them in implementing systemic changes for improving the 
handling of child protection cases and in implementing the 
provisions of ASFA. In 1993, Congress created the Court 
Improvement Project (CIP), a grant program to assist state 
courts in improving their handling of child abuse and neglect 
cases. Congress appropriated funds to provide CIP grants to the 
highest court in each state for judicial improvement efforts. 
Congress required each state to use their CIP funds in the 
first year to conduct an assessment, to identify problems in 
processing child abuse and neglect cases, and to develop 
strategies for addressing those identified problems. While 
these assessments pre-dated the adoption of ASFA, they 
identified clearly the need for more training and technical 
assistance for courts. The amount of CIP funds each state 
receives is not large, but states have leveraged the CIP funds 
with state and local dollars and used the CIP funds to 
stimulate a synergy among judicial, executive, and private 
resources.
    The availability of federal financial participation dollars 
for training expenses for judges and non-judicial personnel 
will significantly increase the availability of needed training 
programs. Many states have used state and local funding and a 
portion of their CIP funds for judicial training, but the 
funding is not adequate to address all of the training needs 
for judges and non-judicial personnel. To effectively implement 
ASFA and protect the interest of children, judges and non-
judicial personnel need to know more than the child welfare 
laws and court procedures. Judges need training on such topics 
as child development (particularly the importance of attachment 
and bonding), the dynamics of families, the dynamics of 
domestic violence and child abuse, the impact of substance 
abuse on the abusers and the family, and the appropriate 
application of mediation in child protection cases. These 
topics are just a sampling of the training needs. Judges do not 
have to be experts on these topics, but they need a good 
understanding of the subject matter so they can put the 
testimony of the experts that testify in their courts into 
perspective. Federal reimbursement dollars would significantly 
enhance the ability of courts to provide needed training for 
court personnel.
    Federal resources to provide states with technical 
assistance will allow state court systems to benefit from the 
court-based initiatives and experimentation that is taking 
place around the country. In a survey, State Court 
Administrators and Chief Justices were asked to identify the 
types of technical assistance that they need to assist them to 
effectively implement ASFA. The responses fell within the 
following eight categories.
    <bullet> development of automated tracking systems;
    <bullet> development of automated interfaces between court, 
law enforcement, and social service agency data bases;
    <bullet> evaluation of case flow and implementation of 
streamlined procedures;
    <bullet> development and implementation of new case 
management models;
    <bullet> development and implementation of early case 
resolution programs;
    <bullet> development and implementation of mechanism for 
monitoring compliance with terms of court orders;
    <bullet> development and evaluation of new models for 
representation of children; and
    <bullet> development and implementation of court rules that 
facilitate timely case processing.
    Courts have struggled to exploit the resources that have 
been available to them for improving the handling of abuse and 
neglect cases. Certainly, the indicators exist to show that 
courts are committed to systemic improvements. States are 
experimenting in the development of training programs, case 
management models, automated tracking systems, and expedited 
procedures. These state efforts would be all the more effective 
if additional resources were available to enhance training 
efforts and to provide technical assistance to the state court 
systems so they can aid each other and share lessons learned.
    Additional federal resources will allow state court systems 
to go far in effectively implementing ASFA. To provide a 
broader understanding of some of the identified training needs 
and the opportunities for technical assistance, a brief summary 
of activities in Connecticut and other states follow.
Connecticut Experience with Training

    The Court Improvement Program funds enable the Connecticut 
Superior Court for Juvenile Matters to continue its efforts to 
further enhance the court's response to children and families 
presented before the court for child protection matters. These 
funds are used to pay for technological enhancements, to 
support staff development and to improve the quality of legal 
representation for children and indigent parents.
    As the Committee is particularly interested in the 
training, I will focus my remarks on how Connecticut uses court 
improvement program funds to pay the costs associated with 
providing training to judges and court officials on the complex 
issues surrounding child protection.
    In Connecticut, a standing committee of state and private 
agency training experts has been convened to identify training 
needs for child welfare workers, court staff and agency 
attorneys and staff attorneys in relevant topic areas. A 
primary goal of the group is to focus on experiential learning 
for adults that can be applied in daily work. Agency 
management, social workers, court administrators, court support 
staff, judges, and other public and private child welfare 
agency staff will be targeted to receive skill building 
training and become familiar with innovations in permanency 
planning.
    The first endeavor of the group was to plan a seminar 
focused on mediation advocacy. This seminar was held in May of 
1999 and assisted participants in the mediation process to 
understand their role and assist them to understand how to 
maximize their participation. Three hundred participants 
attended this seminar which proved to be very valuable in 
providing a better understanding of the mediation process and 
intervention strategies for mediation participants.
    The funds available through the Court Improvement Program 
have assisted the court in sponsoring multidisciplinary 
training for court staff, attorneys, CPS agency staff, and 
judges on the Adoption and Safe Families Act. A state team was 
sent to the National Grantees Meeting held in Baltimore. The 
team was comprised of a judge handling juvenile matters, a 
Department of Children and Families administrator, and the 
State Court Improvement Program grant manager.
    In addition, the Judicial Branch has collaborated with the 
child welfare agency and the Office of Child Advocate to 
sponsor multidisciplinary training seminars. One seminar, which 
was attended by approximately three hundred people, including 
attorneys, court personnel, and mental health professionals, 
was held on the Adoption and Safe Families Act and the role of 
the guardian ad litem. Another such seminar was held on 
mediation and the last seminar that was conducted provided 
child advocacy training for attorneys.
    A concurrent permanency-planning seminar was held in the 
Fall of 1999. The National Resource Center for Foster Care and 
Permanency Planning at Hunter College provided technical 
assistance and training resources.
    We are in the process of developing training initiatives on 
adoption and attachment issues for staff across agencies and 
systems. This portion of this year's Court Improvement Program 
funds will be used to design and implement a core curriculum 
for attorneys representing children and parents in child 
protection cases.
    The Connecticut Judicial Branch has received $150,000 for 
the period from August 1, 1999 through July 31, 2001 under the 
Court Improvement Program which is administered by the U.S. 
Department of Health and Human Services, Administration for 
Children and Families. Considering the fact that, in 
Connecticut, we spend $54.1 million per year on our juvenile 
efforts, this $150,000 provides us with some much needed 
additional resources, but does not represent a significant 
portion of our overall budget for juvenile matters.
    If we were given additional resources, we would be able to 
enhance our efforts. For example, we would be able to provide 
training to senior judges, judge trial referees, and attorneys 
who have indicated an interest in serving as mediators. 
Currently, in Connecticut, we do not have a mediation program 
for juvenile matters that involves full-scale mediation with 
family members. We do have, however, a mediation program that 
typically involves the attorneys in a particular case. We have 
recognized the need to enhance this program, but have been 
unable to fund it to-date.
    In addition, if funding were made available, we would like 
to develop an extensive training program for courtroom clerks, 
office assistants, and caseflow coordinators in the child 
protection system. It is essential that staff who work in the 
area of child protection be given on overview of the entire 
system and an up-to-date training manual.
    Finally, it has been brought to our attention by the Chief 
Administrative Judge for Juvenile Matters that many judges 
would benefit from an intensive four or five day seminar on the 
use of computers, particularly in the area of child protection. 
We do not have the funds at this time, to provide this 
intensive training.
    Unfortunately, we have not been able to provide all of the 
training that is so sorely needed in this area due to funding 
limitations. If additional funding were made available, we 
would be able to implement this training plan, which would 
benefit the children and families appearing before the court 
for child protection matters.

Experience and Experimentation in Other States

    Kentucky
    Kentucky is typical of most states in the way in which they 
handle their judicial education programs. States, such as 
Kentucky and Connecticut, have taken the initiative to develop 
training programs, but limited resources have restricted the 
availability of the programs. Federal financial participation 
dollars would significantly enhance the availability of 
judicial and non-judicial education programs.
    The Kentucky court system is striving to improve the 
handling of dependency cases. They have initiated innovations, 
but are in need of additional resources to help them sustain 
and expand these initiatives.
    In most states, many guardian ad litems (GALs) have limited 
experience in representing children in abuse, neglect, and 
dependency proceedings. The GALs essentially practice this kind 
of law as one small part of their overall general practice. 
Thus far, Kentucky has had the ability to conduct GAL training 
on ASFA in certain designated pilot sites and family court 
sites. Kentucky court officials see the need for this training 
to continue and to be conducted in additional judicial 
districts and circuits.
    In Kentucky, judges attend ``Judicial Colleges'' every 
year. At the Colleges, judges receive training regarding the 
method by which courts should conduct their business. However, 
more judicial training relating to ASFA is necessary, 
particularly in those districts and circuits where family 
courts do not exist. An evaluator reporting to Kentucky court 
officials concluded that some judges, particularly in rural 
areas, have been reluctant to order terminations of parental 
rights. The evaluator concluded, ``altering the day to day 
behavior of courtroom decision makers, not rewriting statutes, 
has the most promise for systemic, meaningful change.'' At this 
year's Circuit Judges' Judicial College, a special ``family 
court track'' was developed for the family court judges to 
attend. At this section, Judge Jim Payne from Indiana conducted 
an in-depth training on ASFA. All circuit judges were not able 
to receive this training. Kentucky court officials have 
identified regional training sessions, in addition to the 
Judicial Colleges, as a mechanism to insure that all judges 
receive the training they need to comply with spirit and 
requirements of ASFA.
    Currently Kentucky has a statewide tracking system for 
children in foster care; however, access to this system is only 
available to employees at the Administrative Office of the 
Courts Central Office. The system contains several different 
variables, including the findings made by Citizen Foster Care 
Review Boards. This tracking system could be expanded to 
include real time access in the courtroom to judges during 
judicial proceedings involving abuse, neglect, and dependency 
cases. This expansion would perhaps allow judges to make more 
informed decisions on behalf of children. One essential step in 
the implementation of ASFA is the identification of those 
children who have been in foster care for twelve months or more 
and more importantly those who have been in foster care for 
fifteen of the last twenty-two months. Currently, Kentucky 
court officials are able to provide family court judges with 
statistical reports that identify these populations. Limited 
resources have prevented them from providing the same reports 
to circuit court judges.
    Arizona
    Arizona has developed an on-line training program, 
available through their state Intranet that would serve as a 
good model for other states. The availability of technical 
assistance dollars would increase the ability to replicate this 
type of training enhancement in other states.
    The Arizona court system has been very proactive in 
addressing the changes needed to improve the handling of 
dependency cases. Starting January 1, 1999, all Arizona 
jurisdictions, with the exception of Maricopa County (Phoenix), 
were required to process dependency petitions in the ``Model 
Court'' format. Due to its size, Maricopa County was given an 
additional time for the conversion and brought their cases into 
the new process by July 1, 1999.
    State Court Improvement funding was made available to 
assist Superior Courts with the changes in dependency case 
processing. All fifteen Arizona counties receive funds for 
Court Improvement implementation.
    All counties established a local Court Improvement 
Implementation team that oversees ``Model Court'' 
implementation. The teams may include staff from the Attorney 
General's office, Department of Employment Security (DES), 
contract attorneys, Clerk's office, behavioral health 
providers, and tribal representatives. In April of 2000, all 
teams will go to Phoenix for training and to discuss successes 
and barriers to Court Improvement implementation. They will 
also identify future project goals.
    Arizona has spent over a year developing the Juvenile On-
Line Tracking System (JOLTS), a statewide dependency data 
collection system. JOLTS has been fully operational in all 
counties since September 1999. Although the system continues to 
undergo enhancement it has been designed to collect all 
dependency case information including hearing dates and 
outcomes, family problems, placement information, sibling 
information and case plan details.
    In 1999, Arizona Supreme Court Chief Justice Thomas Zlaket 
signed an Administrative Order mandating that all judges new to 
the dependency bench (including pro tem judges and 
commissioners) participate in a Dependency Curriculum Program. 
The training program is held annually and includes the 
following topics:
    --Dependency Case--From Removal to Permanency,
    --Law,
    --Mediation and Settlement Conferences,
    --Severance and Guardianship,
    --Adoption,
    --The Role of Other Players in Dependency Cases,
    --Drug Addiction and Treatment,
    --JOLTS--Dependency Data Collection,
    --Introduction to Child Development,
    --Child Abuse and Neglect,
    --Mental Illness, and
    --Services and Programs.
    Because Arizona judicial rotation often occurs mid-year and 
Dependency Judicial Training occurs only once a year, it was 
necessary to develop an interim training for judicial officers 
hearing dependency cases. Judicial staff have access to a 
Distance Learning Program via the state Intranet. The Distance 
Learning Package focuses on the progress of a dependency case 
from petition filing through conclusion. This includes possible 
termination of parental rights, permanent guardianship, and 
adoption. The training was developed as a tool for judges who 
have not yet had the opportunity to attend the full Dependency 
Curriculum as required.
    As you can see, Arizona has accomplished a great deal in 
the dependency arena. They are currently working with a 
contractor to evaluate the changes in their dependency system 
over the past year. Although it will be a year before the 
report is completed, Arizona court officials feel certain that 
the changes that they have made will have a positive impact on 
dependent children.
    Other states could benefit from the work that Arizona has 
done if there was a system for transferring the information and 
products they have developed to those other states. Although 
they have accomplished much within their own state, Arizona 
court officials also see the need for additional training and 
technical assistance. In particular they cited the need for 
training on the Indian Child Welfare Act (P. L. 96-262) and the 
Multi-Ethnic Placement Act (P. L. 103-382) and on the new 
federal rules for implementing ASFA that were published on 
January 25, 2000. As to the types of technical assistance that 
may be needed nationally, they cited the need to assist courts 
with (1) developing standards for attorneys (both private or 
court appointed counsel) practicing before them, (2) 
establishing data collection systems, (3) developing judicial 
benchbooks, and (4) evaluating the progress made by the courts.
    Michigan
    Michigan is developing a reporting system to assist them in 
monitoring the ASFA timeframes to insure that the local courts 
are in compliance. Again, the availability of technical 
assistance dollars would increase the ability to replicate this 
reporting system in other states.
    The Michigan court system is in the process of designing 
and implementing a reporting system to gather data on its 
compliance with the ASFA time frames. The State Court 
Administrative Office will be publishing an annual report for 
the State Legislature that includes information and statistics 
detailing the court's adherence to the ASFA time frames and 
specific reasons for any failures to meet any of the time 
frames. On a monthly basis, the State Court Administrative 
Office will issue a Permanency Indicators Report to each judge 
that tracks seventeen indicators. The seventeen factors follow:
     1. Number of days from removal to hearing;
     2. Number of days from placement to commencement of trial 
or acceptance of plea;
     3. Number of days from removal from home to adjudication 
(petition closed);
     4. Number of days from adjudication to commencement of 
initial dispositional hearing;
     5. Number of days from commencement of initial 
dispositional hearing to entry of Order of Disposition;
     6. Number of days from dispositional order or last review 
hearing to new review hearing;
     7. Number of days between permanency planning hearing date 
and review hearing date;
     8. Number of days from original filing to permanency 
planning hearing;
     9. Number of days from trial to termination hearing;
    10. Number of days from petition to termination hearing;
    11. Number of days from termination hearing to decision;
    12. Number of termination hearings (granted, denied on 
motion, and dismissed/withdrawn);
    13. Number of children made permanent wards;
    14. Permanency outcomes (return home, kinship care, 
adoption, permanent foster placement, independent living, and 
guardianship);
    15. Cases with disrupted permanency;
    16. Number of days from removal to permanency; and
    17. Cases that have not reached permanency.
    Michigan is in the process of piloting this tracking and 
reporting system. The knowledge that they gain in this project 
will be most helpful to other states. As stated previously, 
having a mechanism to transfer knowledge and products from one 
state to another would benefit many states.

COSCA Recommendations

    We ask your consideration of two recommendations--(1) 
modify the Social Security Act to make federal funding 
available for reimbursing the costs of training for judicial 
and non-judicial personnel and (2) appropriate technical 
assistance funds targeted at the needs of courts.
    As mentioned previously, I have attached for your 
information a copy of a resolution that was adopted by the CCJ 
and the COSCA at their last annual meeting on August 5, 1999. 
While this resolution goes beyond the scope of our testimony 
today, it does represent the support of the two Conferences for 
ASFA and our respective commitments to the effective 
implementation of ASFA.
    Courts have been and will continue to be creative and 
leverage resources from a variety of sources to assist them in 
meeting their responsibilities and your expectations for the 
effective implementation of ASFA. We ask your consideration in 
making federal resources available to accomplish that end 
result. Additional federal resources will allow state court 
systems to go a long way toward effectively implementing ASFA.
    Thank you for giving COSCA, and through it the state judges 
of our country, an opportunity to be heard on this important 
issue. I would be glad to address questions from the 
Subcommittee.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, 
Judge.
    Mr. Hardin?

STATEMENT OF MARK HARDIN, DIRECTOR, CHILD WELFARE, AMERICAN BAR 
           ASSOCIATION CENTER ON CHILDREN AND THE LAW

    Mr. Hardin. Madam Chair, Congressman Cardin, Congressman 
Camp, thank you very much for the opportunity to testify, and I 
want to say first how delighted I am with your remarks and also 
the testimony previously from Congresswoman Pryce and the 
Senators which demonstrate your concern and your knowledge of 
the key role of the courts in foster care improvements and also 
your commitment to improvements.
    I am speaking today specifically on the importance of 
training for attorneys in achieving safety and permanency for 
children, and especially the importance of training to achieve 
the goals of the Adoption and Safe Families Act. And I will 
cover four points: first, the critical role of attorneys in 
protecting children and achieving the goals of ASFA; second, 
the unique and demanding nature of legal practice in child 
protection cases; third, current problems in performance of 
attorneys in these cases and how it is related to training 
issues; and fourth, how effective attorney training with 
Federal help, can help protect children, ensure fairness to 
families, and accomplish the goals of ASFA.
    My first point was that attorneys play a vital role in 
affecting the future of these children. You are already very 
aware, as your remarks indicate, that courts play a central 
role in planning and decisionmaking for children in foster 
care. Well, it is attorneys who largely control the flow of 
information that reaches the judge. And when attorneys are 
unaware of vital facts important to children's safety and 
treatment and, therefore, don't present them to the judge, 
there is a greater possibility of tragic judicial mistakes.
    Effective attorneys are vital to the success of the 
Adoption and Safe Families Act. Agency attorneys, for example, 
need to know how to trouble-shoot and move their cases. Agency 
attorneys need to learn how to pursue the difficult and 
challenging cases instead of waiting for years to bring them 
forward when they have become easier in court due to the length 
of stay of the child in foster care.
    Effective attorneys for parents and children are also 
crucial to the success of ASFA. Because of the tighter ASFA 
deadlines, basic fairness makes it especially important that 
the attorneys for parents and children perform well.
    Second, I want to point out that child protection law is 
very specialized and very demanding. Very few attorneys outside 
our field appreciate the challenges and complexity. Child 
protection cases involve a unique set of hearings, each with 
very specific purposes and specific strategies. There are also 
very many legal issues unique to child protection law, 
including special issues related to confidentiality, unique 
constitutional questions, evidentiary issues, administrative 
law procedure. There are likewise many non-legal areas that 
attorneys need to know about, like child development. You 
referred to substance abuse. They need to understand something 
about that, and they also need to understand about child abuse.
    Another challenge for attorneys is the particular severity 
of child and family problems in child protection cases. One or 
more parents may well have difficulties with substance abuse, 
serious psychological disorders, character disorders, and may 
be involved in criminal behavior. Likewise, children often have 
serious psychological problems often due to the abuse and 
neglect, learning disabilities. My point, of course, is that 
attorneys need to have training in all these subjects, legal 
and non-legal.
    Attorneys also deal with very large and complex 
organizations including the child protection agency, law 
enforcement, a wide array of public and private service 
providers as well as with mental health and medical 
professionals.
    My third point was that the performance of many attorneys 
in child protection--while we are working on it and making 
progress--is still deeply flawed due to a lack of systematic 
training. I am sorry to say that in many courts attorneys still 
often meet their clients just a few moments before the 
beginning of court hearings. And there are places where this is 
still common practice and even accepted.
    My final point is that effective training can make a major 
difference. Training can explain the special ethical 
obligations of attorneys. Federal training monies through Title 
IV-E matching funds can help develop performance standards for 
attorneys and educational programs to explain those standards. 
Training materials can summarize law, describe the hearing 
process and, explain key legal concepts. With more stable 
funding for training, agencies and courts can set up standard 
curricula that all attorneys are expected to learn. Attendance 
can be made mandatory, and attorneys can be held accountable 
for what they are supposed to learn at those programs.
    To sum up, there are many other crucial issues such as 
performance measurement and computerized performance 
measurement systems. While improvements in training will not 
solve all the problems in attorney or court performance, it 
ultimately will make a major difference in the lives of abused 
and neglected children and their families.
    So, again, I will just say how much we appreciate the 
opportunity to speak to you today. Thank you very much.
    [The prepared statement follows:]

Statement of Mark Hardin, Director, Child Welfare, American Bar 
Association Center on Children and the Law

    Madam Chair, members of the Subcommittee, thank you for the 
opportunity to testify this afternoon.
    I am Mark Hardin, Director of Child Welfare at the American 
Bar Association Center on Children and the Law. For over 22 
years, I have specialized and provided training in legal issues 
concerning child abuse and neglect, foster care, and adoption. 
I have also testified here a number of times in the last 20 
years. I submit this testimony at the request of the President 
of the American Bar Association, William G. Paul of Oklahoma 
City, Oklahoma.
    The ABA has supported court reforms and improvements of the 
system that serves children who have been abused or neglected 
dating back to the 1970's. We have focused particularly on the 
role of judges and attorneys in child abuse and neglect and 
foster care cases in the nation's juvenile and family courts. I 
am speaking today on the importance of training for attorneys 
in achieving safety and permanency for foster children and 
especially in achieving the goals of the federal Adoption and 
Safe Families Act. I will discuss four points:
    <bullet> The critical role played by attorneys in 
protecting children, achieving justice for the parties, and 
achieving the goals of the federal Adoption and Safe Families 
Act of 1997 (ASFA).
    <bullet> The unique and challenging nature of legal 
practice in child protection cases.
    <bullet> Current problems in the performance of attorneys 
in foster care litigation, and how that is related to a lack of 
training.
    <bullet> How effective training for attorneys can help 
protect children, ensure fairness for parties, and achieve the 
goals of ASFA.
    My first point is the critical role played by attorneys in 
determining the future of abused and neglected children.
    You are already aware, I'm sure, that courts play a central 
role in planning and decision making for children in foster 
care. Courts must make a whole series of pivotal decisions 
concerning each child in foster care. Without a well 
functioning court system, children's safety is compromised, 
families are needlessly broken up, and children languish for 
years in foster care instead of permanent homes. Without well 
functioning courts, the goals of ASFA cannot be achieved.
    Judges cannot serve families and children effectively 
without competent and well-prepared attorneys. Attorneys 
largely control the flow of information to the judge. Attorneys 
decide what witnesses, evidence, and arguments to present. When 
attorneys are unaware of vital facts important to the 
children's safety and treatment, these facts may never be 
brought to the judge's attention. Without complete relevant 
information, judges' decisions may well be ill informed or even 
tragically mistaken.
    Effective agency attorneys are vital to the success of the 
Adoption and Safe Families Act. They must be able to 
troubleshoot and identify problems in advance, such as failure 
to locate key parties and relatives. They must help prepare 
findings for the judge that will move the case forward later. 
They must be willing to pursue the difficult and challenging 
cases and not wait years for them to because easier because the 
child has already stayed so long in foster care.
    Knowledgeable and trained attorneys for parents and 
children are equally crucial to filling the goals of ASFA. 
Given the tighter timeframes for decisions that are required by 
the Adoption and Safe Families Act, it is particularly 
important that attorneys for parents and children effectively 
and diligently represent their clients. If parents' attorneys 
are unprepared, family relationships more likely will be 
severed unfairly or needlessly. If children's attorneys or 
guardians ad litem do not perform well, children's needs may 
not be met in foster care and the ASFA decision timelines may 
be frustrated.
    Child protection law is a very specialized and demanding 
area of practice. It remains a little known area of the law, 
and few attorneys appreciate its challenges and complexity. 
Child protection cases involve a unique series of hearings each 
with specific purposes. For attorneys, each hearing requires a 
special set of strategies and careful preparation. There are no 
close analogues for child protection hearings in different 
areas of the law. There are also many legal issues unique to 
child protection law, including special issues of evidence, 
constitutional law, administrative law, and procedure. 
Likewise, there are many non-legal issues attorneys must 
understand such as child development, substance abuse, and 
basic principles of child abuse and medicine. Attorneys need to 
understand the unique way these issues are presented in child 
protection cases. They need training to gain this 
understanding.
    Another factor adding to the challenges of child protection 
law for attorneys is the severity of child and family problems 
in child protection cases. For example, in the majority of 
child protection cases, one or more parents has difficulties 
with substance abuse. More often than not, parents often have 
serious disabilities, psychological disorders, character 
disorders, or are involved in criminal behavior. We know that a 
disproportionate number of foster children have psychological 
problems (often due to the abuse or neglect), learning 
disabilities, and other critical issues and disabilities.
    Still another difficult challenge for attorneys is that 
they must deal with large and complex bureaucracies, especially 
the child protection agency. Attorneys must understand how 
these bureaucracies work in order to represent their clients 
effectively. In addition to the public child protection agency, 
attorneys must effectively work with law enforcement, a wide 
range of public and private treatment providers, schools, and 
medical and mental health professionals.
    Finally, child protection cases present unique legal 
strategies. An attorney who is familiar only with criminal or 
civil practice is unlikely to appreciate these strategies. For 
example, attorneys need to understand that criminal defense 
strategies in defending a parent in juvenile court usually is 
counter productive for their client and family, serving only to 
delay the case. Child protection attorneys also need to 
understand the unique ongoing oversight role of the court and 
how to develop strategies for the different steps in the case.
    The performance of many attorneys in child protection cases 
is inadequate. This is directly related to a lack of systematic 
training. Recently, under the federal court improvement grants, 
the nation's state court systems evaluated their own 
performance in child abuse and neglect. The American Bar 
Association prepared a summary of the findings of these state 
court self-assessments.
    The self-assessments found a very real need for improvement 
in the performance of attorneys. In many places, low standards 
of preparation and performance prevail. In many courts, some 
attorneys meet their clients for the first time only a few 
moments before the beginning of hearings. No other pre-hearing 
preparation occurs.
    In addition, many attorneys don't understand their special 
roles in child protection cases. One report described new 
agency attorneys coming to court and actually asking 
caseworkers what they, as the workers' attorneys, were supposed 
to do. Other reports describe attorneys not understanding 
either law or strategy in these cases.
    Many state court self assessment reports said that 
attorneys handling child protection cases not only are often 
inexperienced in child protection cases, but often also quickly 
move on to new areas of law. This fact adds to the need for 
systematic and early training for all attorneys taking on these 
cases.
    Effective training for attorneys can make a major 
difference in their performance. Training can explain the 
special ethical obligations of attorneys in these cases. 
Training moneys can help develop performance standards for 
attorneys and then establish programs where practitioners learn 
what is expected of them. Training materials can also summarize 
child protection law, describe the hearing process, and explain 
key legal concepts and issues.
    With more stable funding for training, agencies, bar 
organizations, and courts can set up standard curricula that 
all attorneys are expected to learn. Attendance at such 
training should be required. Attorneys can be more easily held 
accountable for performing in accordance with their training. 
They can receive rapid instructions in new legal developments, 
through materials, face-to-face training, and videotapes. If 
administrative costs under Title IV-B of the Social Security 
Act are made available for this purpose, attorney training will 
realize major advances.
    While improvements in training will not solve all the 
problems in attorney and court performance, it can translate 
into significant performance improvements, and ultimately will 
make a major difference in the lives of abused and neglected 
children and their families.
    We appreciate the opportunity to testify and will submit 
more complete written testimony at a later time.
    Thank you very much.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much, Mr. 
Hardin.
    Ms. DeLay?

STATEMENT OF CHRISTINE DELAY, VOLUNTEER, FT. BEND COUNTY CHILD 
ADVOCATES PROGRAM, RICHMOND, TEXAS, ON BEHALF OF NATIONAL COURT 
  APPOINTED SPECIAL ADVOCATES ASSOCIATION, SEATTLE, WASHINGTON

    Ms. DeLay. I am honored to be invited to speak to you 
today, Madam Chairwoman and Mr. Cardin and Mr. Camp, about 
court-appointed special advocates, CASAs, and the role they 
play by helping courts and the different social services make 
informed decisions in the best interest of children.
    First, I would like to thank you and applaud the 
subcommittee's leadership for your work last year on the Foster 
Care Independence Act. I am a CASA volunteer with the Child 
Advocates of Fort Bend County in Richmond, Texas, and my 
husband, Tom, and I have been foster parents for a number of 
years. We are well acquainted with the support and services 
that older teens need when they are transitioning out of foster 
care into becoming self-sufficient. I recognize that this 
legislation will be instrumental in helping young adults 
transition into independent living.
    The committee is considering increasing the training of 
court personnel, including court-appointed special advocates. 
Let me tell you why this is important.
    CASAs are citizen volunteers appointed by the juvenile and 
family courts in cases of abuse or neglect. The volunteer is an 
independent voice focusing exclusively on what is best for the 
child. The courts and the child protective service agencies are 
dealing with overwhelming caseloads. CASAs only have one or two 
cases at a time so they can give each child's case the 
sustained personal interest it deserves.
    The volunteer reviews, records, researches information, and 
talks to everyone involved in the case before making a 
recommendation to the court about a particular child's 
placement and their needed services. The CASA remains on the 
case until it is resolved, the same CASA, as the child's 
tenacious advocate for a safe and permanent home. Sadly, 
sometimes this takes years.
    It is easiest to illustrate the CASA volunteer's unique 
ability to effectively advocate for children by citing real 
cases. I want to share one with you. The names and identifying 
information have been changed to protect the confidentiality of 
the people involved.
    The story takes place in my home county of Fort Bend, 
Texas. It was in the fall of 1998, and our CASA program entered 
a courtroom expecting to attend a third and final termination 
of parental rights hearing for a specific case. The drug-
addicted mother of three little boys had relinquished her 
rights 6 months earlier. The father of the boys was a career 
criminal that no one could find. Previous hearings had resulted 
in two 30-day continuances at the request of the court-
appointed attorney for the father. Despite a year's worth of 
work by both CASA and CPS to locate the father, his whereabouts 
were still unknown.
    When the CASA arrived at the courthouse, she heard the same 
old song and dance. The father's attorney needed more time and 
the other attorneys in the case, including the children's 
attorney, were willing to agree to yet one more continuance. 
However, the CASA would not stand for it. She told the rest of 
the professionals assigned to the case that enough was enough.
    She went on to tell them, ``I represent three little boys 
who deserve a permanent home. They have been waiting for over a 
year for us to free them for adoption. The foster parents want 
to adopt, and they have been here three times now hoping the 
termination would be granted. We can do better than this. I 
don't want them to go home empty-handed today.''
    She stated that the father couldn't be found because he 
didn't want to be found. It was imperative for the parties 
involved to shift their focus to the welfare of the children. 
Therefore, she would not agree to a continuance and would ask 
the judge to go forward. She did, and he did.
    That night, Mark, Scott, and Nathan learned that they were 
going to be adopted by their foster parents and they would have 
what they had never had in their young lives--a permanent home.
    This story illustrates the need for all court personnel to 
be trained in the requirements of the new Federal laws. Today 
there are nearly 900 CASA programs throughout the country. In 
1998, the courts appointed CASA volunteers to the cases of 
183,000 children representing more than one-third of the 
children in foster care. These volunteers are the eyes and the 
ears of the court, and they are critical to the implementation 
of the new adoption laws. But training alone will not change 
the hearts and minds of a culture. Cultural change will only 
come when we as a society really believe that children's safety 
and well-being must be paramount.
    In the best interest of our children, I would recommend to 
this committee that you support training of CASA volunteers as 
well as the judges and attorneys. I am sure you recognize this, 
and I do want to thank you the committee for passing H.R. 3073. 
We were very upset that it was not--that it died in the Senate. 
But we are hopeful that the training provisions will be 
reintroduced and passed again.
    Thank you.
    [The prepared statement follows:]

Statement of Christine DeLay, Volunteer, Ft. Bend County Child 
Advocates Program, Richmond, Texas, on behalf of the National Court 
Appointed Special Advocate Association, Seattle, Washington

    Madame Chairman and Members of the Subcommittee,

    I am honored by your invitation to speak today about the 
Strengthening Abuse and Neglect Courts Act.
    First, I would like to thank and applaud the Subcommittee's 
leadership for your work last year on the Foster Care 
Independence Act. I am a CASA volunteer with the Ft. Bend 
County Child Advocates Program in Richmond, Texas. My husband 
Tom and I are also foster parents. From my experience as a CASA 
volunteer, I am very well acquainted with the support and 
services that older teens need when they age out of foster care 
and must become self-sufficient.
    When Congress approved the Adoption and Safe Families Act 
[ASFA], it established a national standard that a child's 
safety is of paramount concern in cases of abuse and neglect. 
What's more, that foster care should only be a ``temporary'' 
situation in the precious short time of childhood. Children 
should be placed in safe and permanent homes as quickly as 
possible. The Strengthening Abuse and Neglect Courts Act 
[SANCA] will bring much-needed resources to our juvenile courts 
to more effectively manage the backlog of children's cases 
already in the system, and to move new cases more 
expeditiously.
    Among the resources provided to courts through SANCA is the 
expansion of Court Appointed Special Advocates (CASAs). CASAs 
are citizen volunteers appointed by the juvenile and family 
courts in cases of child abuse, neglect or abandonment. The 
volunteer is an independent voice, focusing exclusively on what 
is best for the child. CASAs handle just 1 or 2 cases at a 
time, so that they can give each child's case the sustained, 
personal attention it deserves. The volunteer reviews records, 
researches information and talks to everyone involved in the 
case, before making a recommendation to the court about a 
particular child's placement and needed services. The CASA 
remains on the case until it is resolved, as the child's 
tenacious advocate for a safe and permanent home.
    The role of the CASA volunteer becomes even more critical 
under the shorter timeframes of ASFA. The courts and agencies 
are still dealing with overwhelming caseloads, yet have less 
time to devote to an individual child's case. CASAs are an 
assurance that a child has an advocate who will take the time 
to thoroughly research the child's situation and that important 
facts are not overlooked. CASA volunteers are typically 
appointed to the more complex children's cases--those in which 
the best solutions for a child's safe placement are difficult 
to discern. CASA volunteers will delve deep into a child's 
situation, including locating and speaking with extended family 
members, and report this information to the court.
    Today there are nearly 900 CASA programs throughout the 
country. In 1998, the courts appointed CASA volunteers to the 
cases of 183,000 children, representing more than \1/3\ of the 
children in foster care. More than 30% of all children in 
foster care live in just ten cities--the country's largest 
cities. CASA volunteers advocate for 7,000 children in these 
cities. Yet that is just a little more than 4% of the children 
in care--an estimated total of 162,000 children in the 10 
largest cities.
    SANCA will expand the capacity of CASA programs in these 
urban areas to advocate for more children, and to assure that 
these children do not get lost in systems that are so 
overwhelmed.
    The legislation will also provide for CASA expansion by 
establishing programs that can serve children across multiple 
rural jurisdictions. There are already CASA programs throughout 
the country--from New York, to Indiana, Oklahoma, Texas, New 
Mexico and California--that are serving children residing in 
rural areas across two and three counties. SANCA will enable 
the National CASA Association to promote and support this model 
in the 387 rural court jurisdictions that are still without 
CASA advocacy.
    In rural Southeast Texas, the Supreme Court Task Force on 
Adoption has piloted a cluster court in a 10-county area. The 
judge travels among the 10 counties and specializes in just 
child protection cases, rather than myriad cases typically 
handled by rural county courts. The cluster court can serve as 
another model for rural expansion from a central location.
    Thank you for your attention and the opportunity to speak 
before you today.
      

                                <F-dash>


    Chairman Johnson of Connecticut. I would point out, it 
hasn't died. It is suffering from benign neglect. [Laughter.]
    Chairman Johnson of Connecticut. And we still have a chance 
to get the proper focus upon it, and we will appreciate your 
help and the help of all of you advocates in the room to 
accomplish that goal.
    Mr. Moorman?

STATEMENT OF RONALD H. MOORMAN, EXECUTIVE DIRECTOR, CHILD CARE 
                    ASSOCIATION OF ILLINOIS

    Mr. Moorman. Madam Chairperson and members of the 
subcommittee, I do want to thank you for the opportunity to 
testify today and recognize the fact that the testimony that I 
am going to give is beyond the scope of just talking about 
court training. It has to do with another whole sector of the 
child welfare community that is in desperate need of training 
resources, and that is the private sector, and the link between 
what we do in the private sector and what we do in the court 
system is extremely important.
    My name is Ron Moorman, and I represent 108 voluntary, not-
for-profit child welfare agencies in the State of Illinois, and 
these are agencies that basically deliver the full range of 
child welfare services, foster care and adoption and 
reunification services. The testimony that I am giving is 
supported fully by our Governor, George Ryan, and also by other 
organizations in our State such as the Catholic Conference and 
the Jewish Federation.
    I am very, very proud of the role that the private agencies 
provide in the State of Illinois. Illinois is a two-sector 
system, and it has a very, very strong base of voluntary not-
for-profit child welfare agencies. It is a true public-private 
partnership that is, I think, a hallmark of our system. This is 
true, and not just in Illinois, but in many other States as 
well.
    I do need to point out that in the past several years, 
under the impetus of the Adoption and Safe Families Act, 
Illinois adoption rates have grown in record-shattering 
numbers. We had 9,500 wards that moved to adoption in FY 1999. 
We had 6,600 in the FY 2000. We have 6,100 projected for this 
year. If we include reunifications in that number, we will move 
approximately 13,000 children through the court systems in Cook 
County.
    In order to achieve that record, Illinois places priority 
emphasis on a dual public-private sector approach to the 
delivery of child welfare services. In fact, Illinois purchases 
over 80 percent of its foster care services from private child 
welfare agencies.
    As the numbers demonstrate, that process works, and what is 
critical to that is a dedicated, committed, and well-trained 
workforce. That is absolutely essential if we are going to meet 
the performance standards that, in fact, you have set up for 
the system. Unfortunately, current Federal policies financially 
penalize Illinois for its reliance on private sector agencies 
in the delivery of child welfare services. I am testifying here 
today to urge you to rectify what we perceive to be perhaps an 
unintended but clearly unfair statutory policy.
    As required under Title IV-E of the Social Security Act, 
training funds for public child welfare programs are reimbursed 
at a 75 percent matching rate by the Federal Government. This 
incentive ensures that States do invest in training public 
child welfare workers for the work that they have to do. 
However, the current law does not provide States the same 
financial match incentives to train child welfare workers from 
private child welfare agencies. Plainly, this structure of the 
Federal training match unfairly discriminates against States 
like Illinois that have a strong private sector child welfare 
base.
    As I said, Illinois currently purchases over 80 percent of 
the foster care services it provides from private agencies, and 
I simply have a hard time believing that it was ever your 
intention to exclude private agencies from these critically 
needed resources. That doesn't correlate with the vision and 
the wisdom that you recently displayed in passing the Adoption 
and Safe Families Act.
    In closing, I would stress that States such as Illinois 
which make innovative and successful use of private agencies in 
the delivery of child welfare services must be able to take 
advantage of the same incentives and reimbursement 
opportunities for training that States that rely on a public 
child welfare system do. So we would urge the members of the 
subcommittee to take immediate steps to rectify this inequity 
and pass corrective legislation this year that will ensure the 
continued success of public-private partnerships to better the 
lives of children and families in need.
    Madam Chairman, in the press release that was put out for 
this hearing, you had a quote that said, ``Every child deserves 
a safe and loving home,'' and that is why it is important to 
have well-trained and qualified judges to make crucial 
decisions about children involved in abuse and neglect. And 
while that is certainly true for judges and it is certainly 
true for CASA, it is equally true for those individual 
caseworkers, public and private, who on a daily basis hold the 
lives and futures of countless children and families in their 
hands.
    I thank you for your consideration, and I urge your help 
with this request. Thank you.
    [The prepared statement follows:]
    [Attachments are being retained in the Committee files.]

Statement of Ronald H. Moorman, Executive Director, Child Care 
Association of Illinois

    Madame Chairperson, Members of the Subcommittee, thank you 
for giving me the opportunity to testify today on critical 
issues related to child welfare. My name is Ronald Moorman and 
I am the Executive Director of the Child Care Association of 
Illinois (CCA), which is a voluntary, not-for-profit 
organization established in 1964, dedicated to improving the 
delivery of social services to the abused, neglected, and 
troubled children, youth and families of Illinois. This 
testimony enjoys the full support of Governor Ryan and many 
other child welfare organizations in Illinois, such as the 
Catholic Conference and the Jewish Federation.
    I testify here today with great pride in describing the 
strong private sector base of the child welfare system in 
Illinois and want to underscore the strong public-private 
partnership that is a hallmark of our system and those of 
several other states. Ensuring the safety of Illinois' 
children, the availability of stable care, and the 
establishment of permanent placements are of utmost importance 
to those of us in both the public and private sector who are 
participants in the delivery of child welfare services to 
children and families in Illinois. Clearly, successful outcomes 
for children and families in the child welfare system depend 
heavily on the availability of a qualified, highly trained 
workforce in both the public and private sectors. Today I will 
focus my remarks on a critical problem facing the child welfare 
system in America and steps that must be taken to guarantee the 
continuing availability of such a trained workforce in Illinois 
and in other states with similar child welfare systems.
    In the past few years, under the impetus of the Adoption 
and Safe Families Act, Illinois' adoption rates have 
demonstrated the success in child placement--9,514 wards to 
adoption/guardianship in FY1999, 6,623 in FY2000, and 6,112 
projected for FY 2001. Additionally, dedicated efforts have 
been targeted at ensuring that children's needs within the 
State's foster and substitute care systems are quickly and 
appropriately met with the right types and levels of services. 
In order to achieve such strong and successful results in our 
child welfare system, including high rates of adoption and a 
``wrap around'' service delivery system, Illinois places 
priority emphasis on a dual public/private sector approach to 
delivering child welfare services in the state. In fact, 
Illinois purchases over 75 percent of the foster care services 
it provides from private child welfare agencies.
    The Governor of Illinois and the Illinois Department of 
Child and Family Services fully expect our provider agencies to 
meet high performance and outcome standards. We strongly 
support that expectation. Also, to meet such a challenge and to 
guarantee that children and families receive quality care, a 
high premium is placed on ensuring that both public and private 
workers are thoroughly trained. We fully support that 
assumption. As adoption numbers alone clearly demonstrate, such 
collaborative working relationships help ensure that the vast 
needs of children are efficiently met throughout the state. 
Moreover, a dedicated, committed and well-trained workforce is 
absolutely essential to meet federal performance standards.
    Unfortunately, current federal policies financially 
penalize Illinois for its reliance on private sector agencies 
in the delivery of child welfare services. I testify here today 
to urge you to rectify what we perceive to be perhaps an 
unintended, but clearly unfair, statutory policy. As required 
under Title IV-E of the Social Security Act, training funds for 
public child welfare programs are reimbursed at a 75 percent 
matching rate by the federal government. This incentive ensures 
that states invest in training public child welfare workers to 
work effectively with abused and neglected children and their 
families. The current law does not, however, provide states the 
same financial match incentives to train child welfare workers 
from private child welfare agencies. Plainly, the structure of 
the federal training match unfairly discriminates against 
states that have a strong private sector welfare base, like 
Illinois, which as I stated previously, currently purchases 
over 75 percent of the foster care services it provides from 
private sector agencies.
    States such as Illinois should not be penalized for the 
private sector commitment of its non-profit child welfare 
agencies and their creative use of private resources in meeting 
the needs of children and families. Changing the current 
federal welfare training match to include training for private 
welfare agency workers must occur. The investment of federal 
monies in this training effort would ultimately be to the 
benefit of all parties involved. In fact, in Illinois, 
officials at all levels in both public and private sectors 
believe that extending the incentive to train private agency 
workers will ultimately result in a less expensive child 
welfare system.
    Finding permanent homes and safe environments for children 
who enter the child welfare system, whether in foster care or 
adoptive families, requires a highly trained and committed 
workforce. The extensive efforts in training the child welfare 
workforce in Illinois has contributed to Illinois' recent 
successes--the state is among the nation's leaders in the 
number of adoptions from foster care. Permanency results will 
continue to improve and children will spend less time in foster 
care if the entire system--public and private--is well-trained 
and focused on similar child protection and permanency goals. 
An enhanced federal matching rate will help achieve these 
goals.
    In closing, I would like the Members of the Subcommittee to 
remember that given rapidly changing public policy, service 
delivery standards, and best clinical practices, it is 
imperative that ongoing training for welfare workers be 
available. States with innovative and successful use of private 
agencies in the delivery of child welfare services, such as 
Illinois, must be able to take advantage of the same incentives 
and reimbursement opportunities for training private workers in 
the best clinical practices as are available to states whose 
systems are built on public workers. Do we as a nation 
genuinely want to push states toward a fully public child 
welfare delivery model as the current statutory language does, 
or do we want to foster and build the valuable private sector 
strengths of states like my own?
    We urge Members of the Subcommittee to take immediate steps 
to rectify this inequity and pass corrective legislation this 
year that will ensure the continued success of public/private 
partnerships to better the lives of children and families in 
need. Thank you for your time, and I would be happy to answer 
any questions.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you. As the former 
chairman of a nonprofit children's agency, I hear exactly what 
you are saying. It is bizarre, isn't it, that we have--
    Mr. Moorman. It truly is bizarre. It doesn't make sense.
    Chairman Johnson of Connecticut. No one in their right mind 
would imagine that, you know, government agencies are going to 
do all this work. I personally don't know of a State in which 
that is the case. Maybe there is one, but certainly Connecticut 
has also a very developed public-private partnership providing 
the services to this group of children, and we have already 
begun getting estimates on that issue.
    You raise some very interesting points as a panel. 
Certainly you all make a compelling case for training of 
volunteers, of lawyers, of judges, of court personnel, and the 
training that people need in these areas, that was very 
helpful, Mr. Hardin, for you to line out not just the 
complexity of the legal issues but the ethical issues and the 
child development, the human development information that you 
really need to have at least some grasp of.
    So if you are going to have this level of training and 
sophistication, it seems to me States should not be allowed to 
rotate their judges through the children's courts. You know, I 
just don't see how we do this anymore. You look at some of the 
big complex mergers and acquisitions, and I certainly would 
want a judge that would have some experience in that level of 
complex case. And we are reaching that same level of complexity 
in family law, and the body of information that you need that 
is non-legal and the knowledge of the agency network and so on 
and so forth. So it isn't just a matter of coordination. It is 
a matter of coordinating well-trained parts, well-informed 
people.
    Judge Leuba, in Connecticut--or, actually, you know, you 
represent the court administrators across the country. Are 
courts moving now to letting people specialize in this? Should 
part of our effort, if we are going to spend money on training, 
should we also reward States that are willing to get people to 
specialize in this work?
    Judge Leuba. My own view for Connecticut, we do rotate 
judges as a general rule, but judges who want to stay working 
in a particular area do so. And my experience in Connecticut is 
that a very large percentage of our judges do stay from year to 
year.
    We do find, however, that over the long haul there is what 
I am going to call, for lack of a better term, burnout. And 
when you get a judge who has been in a court for a long time 
and just can't stand to go and listen to one more of these 
problems, it is my responsibility, I think, to the court that 
the judge is leaving to find someone else who is appropriately 
qualified, train that person, and get them in the place where 
they are needed.
    Connecticut is just one of the States. You will notice in 
my testimony I highlighted what they are doing in Arizona. They 
are developing online training programs so that judges who are 
moved into that court are trained before they get there. We 
haven't had an online system in Connecticut, but we are doing 
annual training programs when court judges change assignments. 
So they will be trained in the areas, and the training funds 
which you could unleash in this process will assist courts 
across the country to be sure that any judge that is assigned 
to a court dealing with child protection issues will be 
adequately trained. And I hope a lot of that will come from 
computer programs.
    I asked my own chief administrative judge in the juvenile 
area what their biggest need was, and it was in the training of 
judges in the computer world and the development of computer 
programs for training. So I think that is going to be of 
assistance to courts that do move judges around from time to 
time.
    Chairman Johnson of Connecticut. Mr. Hardin, in discussing 
the really desperate need of lawyers for some better training, 
it is sort of like post-specialty training in medicine. You 
suggested that we might even want to require that to practice 
in this arena that you have completed certain courses as a 
matter of professional credentials.
    That raises the issue of if you are going to offer the 
level of training that really we need in many ways, you are 
going to give a lot of people in the court system credentials 
that should have educational--they should be recognized by the 
education system, they should be recognized as accomplishments, 
and they should be rewarded in the pay structure.
    Mr. Hardin. I agree with that. The courts are beginning in 
some instances to set up mandatory training programs, but they 
haven't gone as far as they might go in terms of expecting 
people to actually demonstrate competence. And they haven't 
gone as far as they need to go in creating really systematic 
curricula that people are actually expected to master to 
perform in this field.
    Chairman Johnson of Connecticut. And, Ms. DeLay, the same 
kind of question to you. If we put the money into training and 
you testified that volunteers need it as well, we would 
certainly have to reward the volunteers for that level of 
investment in education with certificates and degrees. You 
know, we have certificate programs for people who work in 
nursing homes as nurse's aides. And when you look at the level 
of responsibility that volunteers take in this system, it 
really not only bespeaks a right and an obligation for 
training, but some recognition on our part. I hope you will 
think about that and see how we might do that.
    The other question I wanted you to address was: Is it 
common for CASA volunteers to have as much influence in a case 
as that really remarkable experience you described?
    Ms. DeLay. It is in child advocates of Fort Bend County. 
Our CASA is very strong, and it goes back to our leadership. We 
have a wonderful executive director and staff, and--
    Chairman Johnson of Connecticut. So do you have training 
for volunteers that is quite extensive--
    Ms. DeLay. Oh, yes, we do. You go through a minimum of 30 
hours of training before you ever get a first case, and then 
you have to complete, I don't know, a certain amount of 
trainings throughout each year in order to keep your ability to 
be able to volunteer.
    Chairman Johnson of Connecticut. And you have no problem 
getting volunteers? This is a pretty demanding volunteer job.
    Ms. DeLay. We have a smaller county, so we have enough 
volunteers for every child that comes into the court system. 
However, some of the larger counties like Harris County in 
Texas and Los Angeles County in California, they don't have 
nearly enough. But they do send a CASA to court with each child 
even though the CASA doesn't work with that child throughout 
the year.
    Chairman Johnson of Connecticut. Doesn't have the personal 
relationship that is possible in the smaller districts.
    Ms. DeLay. Yes.
    Chairman Johnson of Connecticut. Well, thank you for your 
dedication to that movement. This makes such a tremendous 
difference. I appreciate it.
    On the other issue of credentialing, would that make it 
harder to get volunteers or might it be an incentive?
    Ms. DeLay. Not in my experience. I mean, we are pretty open 
for every bit of training they can get. It is a very passionate 
group of people.
    Chairman Johnson of Connecticut. How many hours a week do 
CASA volunteers put in?
    Ms. DeLay. Well, it varies a lot. A week before last, I was 
just assigned a new case, and I probably spent 30 hours the 
first week I had it and maybe 20 the second. And then we don't 
go to court again until April the 26th, and I probably won't 
put in more than 15 hours between now and then.
    Chairman Johnson of Connecticut. That is very interesting 
because, you know, both of my daughters are stay-at-home moms 
after, you know, a number of years of professional working. 
And, you know, if we gave credentials for completing that kind 
of training, you set yourself up later on when you want to go 
back part-time or full-time with a very impressive record as a 
volunteer and documentable experience. Interesting.
    Judge Grossmann, when you look at the variety of--the 
breadth of training demand and the need for continual 
training--I mean, you can't just do this once and let it go. 
Are there already seminars going on in your State on other 
issues? We passed some pretty complicated legislation in recent 
years like the Multi-Ethnic Placement Act. Do you have training 
sessions going on that are looking across agency lines and that 
would be easy to use to fold this additional burden in?
    Judge Grossmann. Yes, there are two sources within the 
State. We have, of course, the Ohio Association of Juvenile and 
Family Court Judges that cooperate with the supreme court in 
putting out training sessions and systems that are very useful 
in bringing on judges as they become new to the bench, and 
ongoing training for those that have been there for a good 
while. And then the National Council does a fair amount of 
training, as is outlined in some of my written testimony, which 
is also accessible.
    But the challenge is great. The turnover, you touched on a 
very serious point when you said shouldn't there be some tenure 
in this office. I remember going out to California a number of 
years ago when they were first trying to struggle with the fact 
of bringing their juvenile court judges into some kind of 
status where they could stay on long enough to at least find 
out where the key to the washroom was.
    The problem is very serious when you have fungible judges 
and they move in for a year or two and move out, and they have 
no clue as to how this system functions. So that is a very, 
very serious need.
    But, yes, there are tools which, with some funding 
assistance, could be spread even wider than they are now.
    Chairman Johnson of Connecticut. Well, I do appreciate the 
seriousness of the burnout problem, and when you are burned 
out, I don't care what your profession is, you really need to 
have the right to move on. But also, if the system works 
better, we will have a little less burnout.
    Judge Grossmann. That is right.
    Chairman Johnson of Connecticut. It is just so terribly 
frustrating.
    Mr. Moorman, would you like to add anything before I turn 
to Mr. Cardin?
    Mr. Moorman. Not really.
    Chairman Johnson of Connecticut. Okay. Thank you.
    Mr. Cardin?
    Mr. Cardin. Thank you, Madam Chair.
    Let me just jump in a little bit on the rotation or the 
expertise or the burnout issue because I think it is more than 
just that. I do think the richness of our court system benefits 
from judges rotating to different service, so I think it is not 
just the desire to make sure that a judge is trained in a 
particular area and knows the agencies that are involved and 
the community involved, which is true in any part of law that a 
judge has to deal with.
    It is also the fact that traditionally at our circuit court 
levels we felt that it is important for the administration of 
justice for judges to have a broad experience and not to just 
concentrate in one area.
    Some legislatures have disagreed with that by setting up 
family courts, which have worked very well in many parts of the 
country where they deal with family issues, including children 
issues.
    Regardless of what system is used, the judge needs to be 
trained, and I think that is the point, and judicial personnel 
needs to be trained. And I think the point that each of you 
have made is that there are not adequate resources nor have 
there been parity in resources in the judicial branch of 
government for training the court personnel to deal with this. 
And, obviously, our subcommittee recognized that last year in 
the fatherhood bill, and the Senators that were here are 
committed to trying to do something about that. So I think we 
all can work together to try to deal with that specific issue.
    Mr. Hardin, your point about lawyers I thought was very 
interesting. It is not a very lucrative field of law for 
attorneys. Many times the lawyer who gets involved in this area 
may do so for a couple of years or for a very small part of his 
or her total practice. And it even, I think, cries out more for 
the courts to be adequately trained because in children's 
issues, the court can exercise more discretion than it can when 
dealing with adults. So it points together again the main focus 
here, and that is to modernize and train--have enough resources 
to make sure that our court personnel are adequately trained in 
this area. So I think you all have made an excellent record for 
us on this, and we certainly hope that we will be able to move 
forward on the legislation that passed the House and perhaps 
broaden it. The legislation introduced by our Senate colleagues 
is broader than in our bill, and I think there is a lot of 
interest on our side to see this effort made even more 
comprehensive.
    Ms. DeLay, I have one question for you, and that is--it 
really follows up on Mrs. Johnson's point, and that is, in your 
experience, are the courts paying attention to the CASA 
volunteers' recommendations or information? Is it having the 
type of impact on the system that you think is correct?
    Ms. DeLay. Our family court judge does. It depends on, 
obviously, the judge. I would say when we disagree with any 
other part of the case, whether we disagree with CPS or maybe 
the family's attorney, I would say about 90 percent of the time 
he goes with CASA because we know the case better than anybody 
else. We spend more time, and he is interested in the best 
interest of the child, and these other people, certainly not 
CPS, but their clients may be somebody else.
    Mr. Cardin. Well, I really do applaud your efforts and the 
efforts of the volunteers, and I noticed that Congressman Tom 
DeLay was here for most of our hearing. I am sure it had 
nothing to do with your presence. [Laughter.]
    Mr. Cardin. But we certainly thank him very much for his 
leadership on the passage of the Foster Care Independence Act, 
and we hope that we can get Tom DeLay and President Clinton 
together on more bills so we can get some more things done. 
[Laughter.]
    Ms. DeLay. No promises. [Laughter.]
    Mr. Cardin. I can understand that.
    On the Adoption and Safe Families Act, I would like to get 
the response particularly from those that have been involved in 
the administration enforcement of those provisions as to how 
those requirements are working. Are we having the permanency 
hearings? Are we dealing with the termination of parental 
rights? Are we complying with the terms of that act and 
certainly the intent of that act to have more timely 
determination hearings? Whoever would like to--Mr. Moorman?
    Mr. Moorman. Yes, I would just like to speak from the 
private sector and from the Illinois experience. I can 
absolutely guarantee you that is happening in the State of 
Illinois, and the timelines are being met. There has been a 
very aggressive and I think a very positive response on the 
part of the court systems in Illinois. And as I said in my 
testimony--the results are there. I have been in the child 
welfare system for about 30 years in Illinois, and this is a 
new experience and a new era, and this piece of legislation 
definitely pushed that button. It is an entirely different 
experience. It does, back to my testimony, also accelerate the 
need for a very well trained staff to be able to meet the court 
requirements that are now in this bill. So lots of pieces fall 
together here, but it is having, in Illinois--I can just speak 
for Illinois--a remarkable effect.
    Mr. Cardin. Good.
    Judge Leuba. In Connecticut, you would see the same result. 
I am not sure it would be so dramatic. I don't have the 
statistics. But, really, ASFA has stood the system on its ear 
because for many years, as you know--and I am sure that is what 
led to your action--the emphasis was on the reunification, so 
much so that everyone in the system was spending all their 
efforts on reunification, and now I think the Congress has made 
it clear to the States that it is necessary to take into 
consideration the children rather than the reunification as the 
primary goal in the whole process.
    Mr. Cardin. The timelines of the act in Connecticut are 
being complied with?
    Judge Leuba. The timelines are moving. The training will 
help us to do more of that. In Connecticut, we have increased 
the judges from 9 to 16 in recent years, and the more we can 
add to it, the more we will add to it because we need more not 
just judges but courtrooms and staff. It is a multidisciplinary 
problem, as you know, and everybody has to participate. You 
just can't throw the judges in. It has to be a team effort.
    Mr. Hardin. Our observation nationally is that ASFA is 
certainly having a lot of good impact. Its effects are uneven 
in that they are stronger in some States than others, the 
impact is much greater in some courts than others, the 
knowledge of ASFA varies from place to place throughout the 
country. And I guess also when I say knowledge, I don't just 
mean knowledge in a very simple sense of a few of the 
requirements, but knowledge of what it takes to actually make 
it work.
    For example, regarding the permanency hearing, the big 
difference in an ASFA permanency hearing from what used to 
exist is that it is supposed to be a very careful, thoughtful, 
methodical decision about what the permanent home of the child 
is going to be. In order to have a really meaningful permanency 
hearing, it takes time. The court has to set aside more time 
for that hearing, and the people who are participating in the 
hearing have to be better prepared and they have to really have 
put more thought into their decision, and they have to be less 
willing to accept continuation of the status quo.
    So I see this as an ongoing process with ASFA. We have seen 
some dramatic improvements, particularly some of the places 
that were the most troubled, and it is very gratifying, for 
example, to see what they have done in Chicago. But there is 
still considerable room for improvement to truly consistently 
carry out the requirements of ASFA.
    Judge Grossmann. I would second what Mark says. There is a 
substantial improvement in places, but there is a lot of work 
to be done. And there are a lot of courts that are not meeting 
those timelines. There are a lot of children that are still 
languishing. So it is not over yet.
    Mr. Cardin. Thank you.
    Chairman Johnson of Connecticut. Two very brief questions. 
Mr. Moorman, you recommend that we reimburse training for 
nonprofit agencies in the same way we reimburse training for 
government agencies. In some parts of the country, for-profit 
agencies play a very big role, and is your recommendation for 
just nonprofit or all private sector child-caring facilities 
that contract with the State or something?
    Mr. Moorman. I think the issue here is that whoever is 
involved in the life of a child or a family needs to have the 
training. I think that is a critical piece here. I think that 
is the issue. If you are going to be involved, you have to be 
trained and you have to have the type of experience and 
background to be able to do it.
    Chairman Johnson of Connecticut. And let me just ask, one 
of the other big groups of volunteers in the system are the 
citizen review boards. How effective are they and do they need 
to be included in the training network as well? What is your 
experience with them, if any? I will ask this of the next 
panel, too. It may have really more direct--
    Judge Grossmann. Well, the citizen review board system has 
been useful and continues to be useful, but it is not a 
substitute for the court doing its own reviews.
    Chairman Johnson of Connecticut. Members of the citizens 
review, they get involved at an earlier level of case review. 
Do they play any role similar to the CASA role in the legal 
setting?
    Judge Leuba. Not in Connecticut.
    Mr. Hardin. Some States have much stronger foster care 
review boards than others. They are not similar to CASA 
programs to the extent that individual members don't go and 
investigate particular cases. But the boards do sit and review 
cases carefully, and they also play a role in some States in 
identifying and advocating for improvements in particular 
aspects of the system. So if they are seeing something in case 
after case that is wrong about the adoption process, et cetera, 
they can sometimes be quite effective in advocating for 
resources or policy changes.
    Also, in States that have particularly strong programs, 
they can be important in individual cases.
    Chairman Johnson of Connecticut. Thank you very much, and I 
thank the panel for your testimony. It has been very, very 
helpful.
    Now let me call Kristine Ragaglia, the commissioner of the 
Connecticut Department of Children and Families, accompanied by 
Thomas Kirk, the deputy commissioner of the Connecticut 
Department of Mental Health and Addiction Services, a 
partnership that is addressing itself to the substance of the 
bill introduced by our Senate colleagues; Nancy Young, director 
of Children and Family Futures, from Irvine, California; Mary 
Nelson, administrator of the Iowa Division of Adult, Children 
and Family Services, on behalf of the American Public Human 
Services Association; and Gale Saler, the deputy director of 
Second Genesis, Bethesda, Maryland.
    Nice to have you with us, too. Frank Horton, our former 
colleague in the House, highly esteemed and very effective 
former member. Thank you, Frank.
    We will start with Commissioner Ragaglia. Thank you.

     STATEMENT OF HON. KRISTINE D. RAGAGLIA, COMMISSIONER, 
CONNECTICUT DEPARTMENT OF CHILDREN AND FAMILIES, AND THOMAS A. 
 KIRK, JR., PH.D., DEPUTY COMMISSIONER, CONNECTICUT DEPARTMENT 
            OF MENTAL HEALTH AND ADDICTION SERVICES

    Ms. Ragaglia. Thank you very much. Good afternoon, Madam 
Chair. Thank you very much for the opportunity to testify today 
on the topic on the relationship between child protection and 
substance abuse. My name is Kris Ragaglia. I am the 
commissioner of the Connecticut Department of Children and 
Families, which is a multi-service agency in Connecticut which 
serves child protection, mental health, substance abuse 
services for children, juvenile justice and prevention 
activities. I am here today with Dr. Thomas Kirk who is the 
deputy commissioner of our adult mental health and substance 
abuse system called DMHAS, Department of Mental Health and 
Addiction Services. DMHAS is the State's lead agency for 
substance abuse services, and I understand that we--I just 
wanted to check the clock. I understood we have 6 minutes for 
our joint presentation here this morning--this afternoon. We 
have submitted written testimony. What I would like to do is 
highlight some of the issues.
    We know that when we look at our caseload that drugs and 
alcohol is a factor in about 60 to 70 percent of all of our 
cases. It is certainly a greater factor in our cases that are 
neglect cases as opposed to abuse cases, although it has been 
identified as a significant factor, 81 percent, in abuse 
fatalities in a Connecticut study that covered a two-and-a-
half-year period from 1995 to 1998.
    I can tell you as an attorney who used to represent our 
child protection agency several years ago that a majority of 
the cases where kids are in out-of-home care actually involve 
substance abuse.
    Before 1995, child protection cases involving substance 
abuse followed a basic pattern; we didn't have the expertise to 
identify and address parental substance abuse as an issue in 
those cases. We didn't consider ourselves as being in any way 
responsible as child protection workers for identifying the 
issue or ensuring that families actually got to treatment or 
followed through, and what tended to happen was that cases 
lingered. It didn't really matter if they were in-home or they 
were out-of-home cases. They lingered within our system. The 
only time that they did not linger was when kids were injured, 
either through neglect or through abuse.
    Unfortunately in 1995, we had a series of child fatalities 
in Connecticut, and it was very clear to us when we looked at 
those cases that substance abuse was the primary factor, and it 
was not identified, and we didn't know what we were doing in 
that area. We knew that we needed to better train our workers 
to recognize the signs of substance abuse. We knew that we 
needed immediate access to expert evaluations and screenings. 
We knew that we needed priority access to services. Hence, back 
in 1995, Project SAFE, which stands for Substance Abuse Family 
Evaluation, was born in Connecticut, and I think it is probably 
one of the first statewide programs that links child protection 
with the adult substance abuse system.
    We sat down and we worked with a private provider. At that 
time DMHAS was not involved. We developed a central intake 
system for referral from both our investigations and our 
treatment workers. We developed priority access for evaluations 
and screenings. All of this was funded through our child 
protection system to a tune of $1.6 million.
    We hired substance abuse specialists in our regional 
offices. We added pre-service training that was mandatory for 
workers as well as in-service training, and we felt that we 
were starting to make a difference because at least it was on 
our radar screen.
    Since 1995, we have made 25,000 unduplicated referrals for 
evaluation and screening. We have about 5,000 new referrals per 
year. Sixty-seven percent of these referrals actually showed 
for the evaluation, and 56 percent of the people who came for 
the evaluation actually needed treatment or were recommended 
for treatment.
    We determined we needed to figure out a better way to make 
sure that people who are in need of treatment on our caseloads 
get to that treatment. Around that same time, ASFA came in with 
the 12-month requirement, and we said we really need to get 
moving here because we need to prove to the court that we have 
made reasonable efforts to reunify.
    Shortcomings of the program were identified. First, was the 
treatment model. It really wasn't for women, and it certinly 
wasn't for women with children. We were also concerned that we 
were missing a good opportunity to have early prevention 
activities for the kids involved with these families. Treatment 
didn't really address issues around a cause for the use or 
misuse of the drug and alcohol. The approach failed to address 
related issues like housing and drug-free living environments.
    So, quickly, because I know that Tom Kirk is watching the 
clock tick, we said we cannot do this alone, and we turned to 
our counterpart, our adult mental health system, and asked for 
their assistance and, hence, Phase II of Project SAFE was born.
    Mr. Kirk. Thank you, Chair. It is a privilege to testify 
before you today on the important issue of children, families, 
and recovery. I am Dr. Thomas Kirk. I am deputy commissioner of 
the Connecticut Department of Mental Health and Addiction 
Services.
    Treatment does work. But today's traditional treatment 
settings work better for some than others. Last year in 
Connecticut, we treated about 27,000 adult persons in our 
treatment system. The majority of those persons are what might 
be called the more typical substance abuse treatment 
population, 72 percent were men, 28 percent were women, the 
average age was about 34, the primary substance of abuse, was 
alcohol, which was about 60 percent, close to 50 percent of 
cases used heroin, about 45 percent used cocaine. I mention 
this and emphasize it, and I will emphasize it repeatedly, this 
is not the profile for the cases that are coming into the 
system through the Department of Children and Families.
    The system in Connecticut, in response to the challenges 
that we have in terms of providing care, has emphasized access; 
the adult treatment system has been responsive. As we began 
forming the partnership with the Department of Children and 
Families, there were several things that stood out, and 
simplistic as it may sound, one of the major things we tried to 
attend to. The question was who was the client? Well, if I am 
in the adult treatment system, the client is the mother and 
father sitting before me for treatment. If I am in the DCF 
system, it is not the same.
    How is this population different from the entire treatment 
population? To be maximally effective, treatment services must 
be tailored to the individual needs and circumstances of the 
patients involved.
    Let me quickly tell you in the time remaining some of the 
things we found. One of them was that the 25,000 cases that 
were referred through the Department of Children and Families, 
5,000 each year, they are not the same as the typical adult 
treatment population. Number one, their use of marijuana is 
about twice what it is in the traditional adult population. 
Fifty percent don't use heroin. It is more like about 10 
percent. So what we find is that these 5,000 cases, represent 
an expansion on the 27,000 that we are doing, and very, very 
important, it is not just a matter of expanding the treatment 
population to respond to them, it is providing the right kind 
of care.
    The University of Connecticut has one of the major grants 
from the Federal Center for Substance Abuse Treatment to work 
on services for marijuana dependence. Their reports will be out 
in June. So if I left you with a couple of points, one of them 
would be: number one, your emphasis on children as part of the 
system here is critically important, but we also have to 
understand that the adult treatment system, it doesn't have the 
capacity to treat those persons; and, furthermore, the type of 
persons coming in for care are different. When you heard 
Senator Rockefeller talk about engagement and retention in 
care, those are not terms that we used 5 or 6 years ago, but 
they are clearly messages that have to be built into the system 
of care at this point in time.
    My time is up, or it is close to being up. Let me have a 
couple of additional points. The numbers are higher and the 
type of care that is being provided is different, so that the 
kinds of things that DCF and our agency have worked on the last 
couple of years are geared toward a format that says we are 
going to add another component to the treatment system, but now 
we are going to call it the family recovery system. It pays 
attention to the individual. It pays attention to the child. 
The type of outcomes that are built in are different. But, 
furthermore, the kind of care that must be provided is not the 
same as what we have in our current system.
    Thank you.
    [The prepared statements follow:]

Statement of Hon. Kristine D. Ragaglia, Commissioner, Connecticut 
Department of Children and Families

    Good afternoon, Madam Chair and Members of the Subcommittee 
on Human Resources. Thank you for the opportunity to testify 
before you today on this important topic. My name is Kristine 
Ragaglia, and I am the Commissioner of the Connecticut 
Department of Children and Families (DCF). With me today is Dr. 
Thomas Kirk, Deputy Commissioner of the Connecticut Department 
of Mental Health and Addiction Services (DMHAS). In our state, 
DCF is mandated to provide mental health, substance abuse and 
protective services to children. DMHAS is responsible for the 
adult population and is the state's lead agency for substance 
abuse services.
    I would like to begin by commenting on the extent of 
substance abuse among families involved with the child 
protection system and the challenge this presents for achieving 
permanency for children within the timelines mandated by the 
Adoption and Safe Families Act (ASFA). I would then like to 
highlight and comment on Connecticut's Project SAFE (Substance 
Abuse Family Evaluation), an innovative and collaborative 
approach to dealing with these issues. Dr. Kirk will then 
discuss the specific treatment needs of this population and the 
importance of developing working partnerships between child 
welfare agencies and substance abuse providers in the effort 
towards improving outcomes for children and families.
    The rise in substance abuse among many of the parents 
involved with the child welfare system has complicated the 
system's efforts to protect children. Substance abuse is 
extremely destructive and is a major factor leading to the 
abuse and neglect of children. The impact of substance abuse on 
children is a critical issue. Over the last 10 years, the 
number of abused and neglected children has doubled nationwide, 
from 1.4 million in 1986 to more than 3 million in 1997. 
Substance abuse was a factor in 70 percent of those cases. The 
impact of drugs and alcohol abuse in such cases is dramatic and 
has been identified as a contributing factor in a significant 
number of child fatalities. It is estimated that 5 children die 
each day as a result of neglect and abuse. Children whose 
parents abuse substances are almost three times more likely to 
be abused and four times more likely to be neglected than other 
children.
    If substance abuse issues are left unaddressed, many of the 
system's efforts to protect children and to promote positive 
change in families will be wasted. We need to break the cycle 
of the intergenerational transmission of substance abuse and 
child abuse and neglect. Children with substance abusing 
parents are more likely than other children to suffer from 
significant developmental delays and have a higher risk of 
developing substance abuse problems as adults. In addition, 
these children are more likely to abuse and neglect their own 
children when they become parents. Moreover, children of 
substance abusing parents have an increased likelihood of being 
placed in out-of-home care.
    Given the often difficult task of identifying and securing 
appropriate and timely substance abuse treatment for parents 
whose children are in out-of-home care, children have 
historically remained in placement longer than might otherwise 
be necessary. As you are aware, the federal government enacted 
ASFA in 1997 in an effort to address this concern and the need 
to move children into permanent living arrangements as quickly 
as possible following placement into foster care. Connecticut 
supports the goals of ASFA and the emphasis it places on timely 
permanency for children. More specifically, ASFA set out 
shortened timelines for seeking terminations of parental rights 
and requires the states to seek termination of parental rights 
within 15 months of a child entering foster care unless certain 
exemptions apply (i.e. the child is placed with a relative, 
there is a compelling reason that termination is not in the 
best interests of the child, or appropriate reunification 
services were not provided). These shortened timelines have 
increased the urgency and need to target substance abuse 
prevention and treatment services for parents involved in the 
child welfare system.
    Connecticut has addressed these issues by developing and 
implementing an innovative program called Project SAFE. The 
program was initially developed in 1995 to improve the child 
protection system by screening for substance abuse, and Gov. 
John G. Rowland provided leadership in making the necessary 
changes in the child protection system. Project SAFE was one of 
the first programs to directly link the child protection system 
with the adult substance abuse treatment system on a statewide 
basis. The program presently provides centralized intake 
procedures and priority access to substance abuse evaluations, 
drug screens, and outpatient treatment services.
    As a result of this collaborative program, direct line 
social work staff in DCF have an ability to secure timely 
substance abuse evaluations and screenings in cases where 
substance abuse issues are identified. Since the program began, 
DCF staff has made over 25,000 unduplicated referrals for 
substance abuse evaluations and screenings, and there are 
approximately 5,000 new referrals a year. By tracking clients, 
we have been able to monitor the show rates for evaluation 
screening and outpatient treatment as well as retention in 
treatment. These efforts have assisted us in maximizing 
resources.
    At the time Project SAFE was created, DCF began to hire 
substance abuse specialists to serve as consultants to social 
workers in the regional offices. This provided the needed 
expertise and training for the DCF social workers to make the 
program work between the two systems and created the necessary 
infrastructure. The results of Project SAFE have also provided 
the court system with necessary information regarding access to 
and availability of substance abuse services in Connecticut.
    We found that the Project SAFE client is likely to be new 
to the adult treatment system and to present with complex and 
multiple needs. Almost 60% of the referrals from Project SAFE 
are women. Approximately 67% of clients referred for a 
substance abuse evaluation keep the appointments, although some 
areas having show rates of above 75%. More than 56% of those 
evaluated receive recommendations for substance abuse 
treatment. Given that a significant number of clients are found 
to require substance abuse treatment following the initial 
evaluation, there is a clear need for collaboration with and 
access to necessary and appropriate treatment programs.
    As noted above, ASFA created new challenges for Project 
SAFE by creating shortened timelines for developing permanency 
plans for children and by emphasizing the state's 
responsibility to provide reasonable efforts to reunify 
children with their parents following placement into foster 
care. There was a clear need to create a strategic plan for 
Project SAFE in collaboration with DMHAS that would meet the 
complex needs of our clients within the timelines mandated by 
ASFA. We needed to identify and assess the impact these new 
requirements would have not only on DCF but also on the 
substance abuse treatment system. The child protection system 
could not address the issue of substance abuse on its own. The 
substance abuse system needed to begin addressing issues such 
as gender, family functioning, trauma and parenting skills. 
Similarly, the child protection system needed to gain knowledge 
about substance abuse screening and treatment.
    To address these needs, a new strategic planning 
partnership was created in 1998 called Project SAFE Phase II. 
This collaboration has provided an opportunity to improve 
screening, assessment, bridge the gaps in data and knowledge, 
develop joint outcome measures, enhance children's services and 
share in resource development.
    Connecticut's Alcohol and Drug Policy Council provided the 
support and leadership for this interagency collaboration by 
developing client-based models. One model was developed for 
women and children that focused on the specific and unique 
needs of these clients. In addition, in an effort to promote 
reunification of families when appropriate, Connecticut 
implemented a program called Supportive Housing for Recovering 
Families. Based on the client-based model, the program supports 
and assists clients in finding safe, drug-free housing and 
provides in-home intensive case management services for parents 
who have made substantial gains in their substance abuse 
treatment and plan to be reunified with their children. The 
early success rate based on the criteria for those entering the 
program is close to 80%. One reason this program works so well 
is that the service closely monitors the parent's compliance 
with adult outpatient substance abuse treatment.
    The new partnership between the child protection system and 
substance abuse providers has created innovative and unique 
opportunities for research and education regarding substance 
abuse, child development and prevention. While parental 
substance abuse may increase the likelihood of out-of-home 
placement for children, studies show that the overwhelming 
majority of children affected by parental substance abuse 
remain in the custody of their parents.
    There are a number of projects that we are involved with in 
collaboration with the academic community to help break the 
cycle of substance abuse and child abuse and neglect and to 
assist in maintaining children in their own homes whenever 
possible. These projects include integrating parenting groups 
within substance abuse treatment settings. More specifically, 
the Relational Psychotherapy Mother's Group in New Haven, 
Connecticut has found that mothers receiving this service were 
at lower risk for maltreating their children, reported higher 
levels of involvement with their children and greater parental 
satisfaction compared to mothers who did not receive this 
service.
    The experience in Connecticut is that substance abuse can 
and should be identified by the child protection system. The 
challenge lies in developing and maintaining working 
partnerships between the child protection system and the 
substance abuse treatment system and in developing, 
implementing and funding effective treatment and prevention 
programs.
    To discuss these challenges, I'd like to introduce my 
colleague, Dr. Thomas Kirk, Deputy Commissioner of DMHAS. Thank 
you again for giving Connecticut the opportunity to testify 
before you today on this important and timely topic.

Thomas A. Kirk, Jr., Ph.D., Deputy Commissioner, Connecticut Department 
of Mental Health and Addiction Services

    Thank you. It is a privilege to testify before you today on 
such an important issue: children, families and recovery. I am 
Dr. Thomas A. Kirk, Jr., Deputy Commissioner for the 
Connecticut Department of Mental Health and Addiction Services.
    Treatment does work. But today's traditional treatment 
settings work better for some than others. The traditional 
treatment system is geared primarily for the ``majority'' 
population of drug abusers (male heroin users with criminal 
justice involvement) and treatment slots and strategies for 
women (marijuana users with young children) are often not 
available.
    Let me tell you a story about Cathy J. She has had periodic 
episodes of excessive drinking over the past few years, and 
especially so in the past six months since separating from her 
abusive husband. This 32-year-old mother of two now lives with 
friends who also drink. Depression disturbs her sleep and 
precipitates episodes of rage, usually directed at her son, 
Jack. Jack, who used to be a good student, is now failing in 
school. Cathy is determined to make things better, but she 
needs help.
    We know that approximately 1.84 million American women per 
year, like Cathy J., are abusing alcohol or drugs (U.S. Public 
Health Service). We also know the impact of these women's 
substance use on their children is huge:
    Use of substances during pregnancy causes significant 
problems for the fetus (Brown & Zukerman, 1991).
    During childhood, these children are at risk for emotional 
and behavioral health problems (Hawley et al., 1995).
    Women who abuse substances are more likely to abuse and 
neglect their children (Kelly, 1992).
    Women who abuse substances are usually themselves past 
victims of childhood sexual abuse. Among women in inpatient 
substance abuse programs, about 75% report childhood sexual 
abuse (Rosenhow et al., 1988). This history of trauma leaves 
women more likely to have problems with self-injury, eating 
disorders, abusive relationships, as well as abusing their own 
children. To be effective, programs for women must treat 
trauma. They must focus on nurturing relationships and provide 
gender-specific group treatment for women who have been 
victimized by men. They must provide childcare, focus on 
parenting, and place more attention on other barriers facing 
mothers who are substance abusers, such as their immediate 
needs for safe housing and jobs.
    In our work with the Connecticut Department of Children and 
Families around Project SAFE, Phase II, we have learned that we 
must understand, ``Who is the client?'' and ``How are they 
different than the entire treatment population?'' To be 
effective, treatment services must be tailored to the 
individual's needs and circumstances. To answer these 
questions, we have developed a system of assessment to 
determine: (1) risk to the child, (2) readiness for treatment 
and (3) the severity of the substance abuse problem.
    Because of the early identification provided through 
Project SAFE, Connecticut is seeing an expanded treatment 
population. This expanded population requires a new service mix 
that our current service system can not fully address. These 
services fall outside of the parameters of our current funding 
sources.
    Women are entering the treatment system in earlier stages 
of the addiction cycle. The client is not only the individual 
with a substance abuse problem, but also her children and 
family. We need to build a range of service options that fit 
these circumstances.
    Our service system needs to be able to build a family 
recovery plan rather than focusing solely on the individual. We 
need to look differently at our expectations for outcomes, 
considering the health and safety for the children, quality of 
life, and other critical factors for family life. We need to 
build into that system engagement specialists that may work 
with a client for weeks or months to develop her readiness for 
treatment. Once actively engaged, retention specialists can 
sustain and expand the duration in treatment. This is what 
Connecticut is doing!
    What works for women and their families?
    Case management is effective in getting and keeping women 
in treatment by tailoring programs to their individual needs 
and addressing barriers to getting to treatment (Erickson et 
al., 1997; Brindis & Theidon, 1997). Case management is 
associated with decreases in substance use, increased 
enrollment in educational and vocational programs, reduced 
legal involvement, improved child birth weight, and increased 
social support (Linehart et al., 1996), as well as retention in 
treatment (Haller, 1991).
    Focusing on child welfare can be a helpful, motivating 
factor in treating women (Coletti, 1980), and permitting 
substance abusing women to live with their children during 
treatment is associated with longer stays in treatment (Hughes 
et al., 1995; Szuster et al., 1996).
    Using a family focus for treatment, and especially 
parenting training, improves self-esteem and parenting 
attitudes (Camp & Finkelstein, 1997).
    Providing attention to trauma issues along with substance 
abuse treatment results in greater improvements in substance 
use, and fewer trauma-related symptoms (Najavits et al., 1998).
    In Connecticut, we are finding that using women in recovery 
as engagement specialists, outreach workers, and other peer 
support roles significantly improves the likelihood of 
connecting women to treatment and other support services.
    The message I would like to leave you with today is that 
filling this newly identified gap in treatment--services 
mentioned above using a family-based model--will result in 
healthier and safer children and families. Filling the gap will 
provide an opportunity to break a tragic cycle of abuse and 
addiction that is handed down from generation to generation.
    Thank you.

References

    Blending Perspectives and Building Common Ground: A report 
to congress on Substance Abuse and Child Protection, U.S. 
Department of Health and Human Services (DHHS) 1999.
    No SAFE Haven: Children of Substance Abusing Parents by The 
National Center on Addiction and Substance Abuse (CASA) 1999 
Columbia University.
    McCurdy, K and Daro D. Current trends in child abuse 
reporting and fatalities: The results of the 1993 survey annual 
fifty-state survey. Chicago, National Committee for Prevention 
of Child Abuse 1994.
    Connecticut Department of Children and Families Substance 
Abuse Study prepared by Tere Foley, 1994.
    State of Connecticut Project Safe Phase II 1999, by Dr. 
Nancy Young, PhD.
    Connecticut Alcohol and Drug Policy Reports 1999 and 
updated report for 2000.
    Luthar, S.S. and Suchman, N.E. Relational Mothers' Group: A 
developmentally informed intervention for at risk mothers. 
Development and Psychopathology, in press.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much.
    Dr. Young?

  STATEMENT OF NANCY K. YOUNG, PH.D., DIRECTOR, CHILDREN AND 
               FAMILY FUTURES, IRVINE, CALIFORNIA

    Ms. Young. Good afternoon, and I bring greetings to you 
from the president of our organization, Sid Gardner, who had 
fond memories of working with you in Connecticut. He wouldn't 
let me go home if I didn't start by saying that.
    Chairman Johnson of Connecticut. First supporter of 
Anderson as president.
    Ms. Young. That is right,
    I was asked to talk about the scope and prevalence of the 
substance abuse problem in child welfare, and there are a 
couple of things that I'd like to mention about that. First is 
that there is a range of ways that we have looked at the 
problem. If we focus first on the larger population in the 
general population, if we look at an elementary school 
classroom, say there are 30 kids in that classroom, three of 
them are living with a parent who is alcoholic or needs 
treatment for illicit drug use, 11 percent of the kids in our 
country. So if you are talking about 11 percent of the kids in 
the country, it sets the context for that more narrow 
population of almost 550,000 kids who are living in out-of-home 
care.
    Clearly, those 8.3 million that are living in a family 
where there is an alcoholic or someone who needs treatment for 
illicit drug abuse, not all of them are abusing or neglecting 
their children. Many of them are. And if we look at that 
narrower population of those that have abused or neglected 
their children, how many of those have alcohol and drug 
problems, it depends on how you ask the question, it depends on 
who you ask the question of, and what population you are 
looking at.
    But as you mentioned earlier, generally the range is--if 
you ask workers, they will say at least half of their caseload. 
If you do a case review, look at the actual case that comes in, 
about 60 percent. In Sacramento County that has done some 
pretty in-depth studies and has an assessment process in place, 
that has looked for about the last 4 or 5 years and tried to 
differentiate that population to not just somebody who has a 
substance abuse problem, but the extent of that problem. They 
ask, somebody who is using? Is that somebody who has got some 
negative consequences as a result of that use and is a 
substance abuser? Or is that somebody who has crossed over the 
line, that the chemicals in their brain have changed, creating 
the compulsion to continue to use that substance, regardless of 
the negative effects that it is having on their family?
    And when they differentiate that population, they are able 
then to make a differential response, so they are using their 
treatment resources a bit more wisely by being able to say 
these are the parents who need to have intensive services and 
these are parents who we can serve in outpatient.
    So, again, the estimated prevalence changes. It depends on 
how you ask it and when you ask it and of what population. All 
of those estimates are not great data, and I used to--just even 
up until probably 6 months ago, you would have heard me say we 
need better data, and I think I have a written point that says 
we need better data. But the prevalence of is over half of the 
population--and there hasn't been one of these estimates that 
has said it is not over half, so where then is the 60 percent 
response? Where is the response in the child welfare system and 
in the alcohol and drug treatment system that says it is the 
majority of the kids?
    Someone made a statement in the first panel about these 
kids--or the families are dysfunctional families. Perhaps it is 
a dysfunctional coping skill that is being used by families 
that have been impacted by abuse and neglect for more than one 
generation. Over three-quarters of the women who come into our 
publicly funded treatment system have suffered trauma as a 
child, either abuse or neglect. So I guess part of the point 
is: How do we turn the system around to keep that from 
happening in a second generation or a third generation if we 
look at that larger number of kids who are being affected by 
substance abuse who also are in the child welfare system? In my 
written testimony, I have provided a table that gets at some of 
those estimates trying to extrapolate the estimates into the 
total numbers of children and families affected.
    The numbers point out some big gaps, and a couple gaps that 
I think we need to emphasize. One is the gap in workers that 
can work across systems, that understand the other system 
enough that they are able to look at families in a different 
way, that look at family recovery, as Dr. Kirk mentioned, how 
to intervene for those children. At present, I know of only one 
State that has developed a system that tries to intervene on 
behalf of the children of substance abusers, regardless of 
their parents' receiving treatment and recovering or not. So 
turning that system around I think is a big gap.
    The gap in data systems, the gap in treatment resources, we 
talk about the competition that goes on among women client 
groups. You heard that women are only about a third of the 
publicly funded treatment admissions, and among those third, we 
have different client groups that get different kinds of entry 
into the system. But it is a real competition to get a woman, 
and particularly a woman with her children, into the publicly 
funded treatment system.
    This committee has heard me testify before about the clocks 
that are operating in the lives of these families, the TANF 
clock, twenty-four months on the TANF clock to be in work 
participation and 60-month lifetime; the ASFA clock with 12 
months for a permanent plan; the recovery clock that says at 
least an early recovery, one day at a time for the rest of our 
lives; and the child development clock that is one of those 
clocks that doesn't stop regardless of what we legislate, and 
how to pay attention to that.
    Recently, I have become aware of a fifth clock, and that is 
a clock on us. How long do we get? If our clients get 24 months 
to be in a work activity and they get 60 months in their 
lifetime, if they get 12 months to have a permanent plan for 
their child, how long do we get as policymakers? We have known 
about this problem at least a decade. We need a partnership 
between the two agencies that are able to work on systems and 
work on the gaps that we have in the system, to fill those gaps 
and to work together to make that happen.
    Thank you very much for my time today.
    [The prepared statement follows:]

Statement of Nancy K. Young, Ph.D., Director, Children and Family 
Futures, Irvine, California

    Thank you for inviting me to testify on the impact of 
parental substance abuse on the placement of children into 
foster care. I have been asked to address the issue of the 
prevalence and scope of substance abuse problems among the 
population affected by the Adoption and Safe Families Act 
(ASFA). I'd like to make four primary points on this topic 
today:
    1. the overall number of children affected by parental 
substance abuse;
    2. the estimated prevalence of substance abuse among child 
welfare cases;
    3. the degree of substance-related problems within child 
welfare services; and,
    4. the implications of this information on the 
implementation of the Adoption and Safe Families Act (ASFA).
    Before I talk about ASFA prevalence and scope issues, I 
think we need to focus for a moment on the prevalence in the 
larger population that concerns all of us--among the nation's 
nearly eighty million children and their parents.
    If we think of the typical classroom, which these days 
contains nearly thirty children, the National Household Survey 
on Drug Abuse tells us that in that classroom there are three 
children who are affected a great deal by substance abuse. 
Eleven percent of our children live in a household where at 
least one parent is dependent on alcohol and/or in need of 
treatment for illicit drugs. That's more than eight million 
children in the country, and that is the context for our 
narrower, but very significant data on the child welfare 
system.\1\
---------------------------------------------------------------------------
    \1\ Huang, L., Cerbone, F. & Gfroerer, J. (1998). Children at risk 
because of parental substance abuse. In Substance Abuse and Mental 
Health Administration, Office of Applied Studies, Analyses of Substance 
Abuse and Treatment Need Issues (Analytic Series A-7). Rockville, MD: 
U.S. Department of Health and Human Services, Substance Abuse and 
Mental Health Service Administration.
---------------------------------------------------------------------------
    In that system, the most detailed studies performed have 
documented percentages of children impacted by alcohol and 
other drug use by their parents ranging from 60% to over 75%. 
In dependency courts, anecdotal evidence indicates that over 
90% of dependency court cases are affected. The range of 
estimates depends on which population is under scrutiny and how 
the problem was estimated.
    <bullet> In studies that have surveyed workers in public 
and private agencies, workers state that at least alcohol and/
or other drugs significantly affect 50% of families with 
substantiated child abuse/neglect allegations.\2\
---------------------------------------------------------------------------
    \2\Child Welfare League of America (1998). Alcohol and Other Drug 
Survey of State Child Welfare Agencies. Washington, DC: Child Welfare 
League of America.
---------------------------------------------------------------------------
    <bullet> In multiple sites across the country--Sacramento 
County, Oregon, Connecticut--when assessments have been 
conducted or open child welfare cases have been reviewed, the 
estimates consistently indicate that alcohol or other drugs 
(AOD) have played a significant role in the abuse and neglect 
of 60% of those cases.\3\
---------------------------------------------------------------------------
    \3\ Young, N.K., Gardner, S.L. & Dennis, K. (1997). Responding to 
Alcohol and Other Drug Problems in Child Welfare: Weaving Together 
Practice and Policy. Washington, DC: Child Welfare League of America 
and Children and Family Futures (1999). Project SAFE Phase II Strategic 
Plan. Hartford: Department of Mental Health and Addiction Services and 
Department of Children and Families.
---------------------------------------------------------------------------
    <bullet> Among young children in urban areas of two states 
(California and Illinois), 78% were estimated to be in out of 
home care due to parental substance abuse.\4\
---------------------------------------------------------------------------
    \4\ U.S. General Accounting Office (1994). Foster Care: Prenatal 
Drug Abuse has an Alarming Impact on Young Children. Washington, DC: 
U.S. General Accounting Office.
---------------------------------------------------------------------------
    <bullet> When cases are reviewed in which the child has 
been placed in protective custody, estimates are in the 65% to 
75% range.\5\
---------------------------------------------------------------------------
    \5\ General Accounting Office (1998). Foster Care Agencies Face 
Challenges Securing Stable Homes for Children of Substance Abusers. 
Washington, DC: U.S. General Accounting Office.
---------------------------------------------------------------------------
    <bullet> However, when we ask Dependency Court Judges who 
see the narrow spectrum of cases who have been placed in out-
of-home care, the response is that virtually every case--over 
90%--that come into their courtroom has some alcohol and drug 
problems in the family that affect the well-being of the 
children.\6\
---------------------------------------------------------------------------
    \6\ Personal communications with Judge James Milliken, San Diego 
Dependency Court; Judge John Parnham, Escambia County Florida Juvenile 
Court; Judge Robert Hutson, Orange County, California Dependency Court.
---------------------------------------------------------------------------
    The following table shows the population of children 
reported as abused and neglected; the numbers reduce to those 
who are placed in protective custody. Based on the number of 
children affected by child abuse and neglect, the estimated 
number of those children who are also affected by parental 
substance abuse is shown.

                                       1997 CHILD PROTECTIVE SERVICES \7\
----------------------------------------------------------------------------------------------------------------
                                                                              Children Affected by Child Abuse/
                                           All Children Affected by Child       Neglect and Parental Substance
                                                   Abuse/ Neglect                           Abuse
----------------------------------------------------------------------------------------------------------------
Children Reported.....................                         > 3 Million                              Unknown
CPS Investigations....................                 Estimated 2 Million                              Unknown
Substantiated Cases...................                             984,000                    492,000 (50%) \2\
Young Children........................                            490,000*                    382,200 (78%) \4\
Placed in Out of Home Care............                           155,200**   100,800 to 116,400 (65% to 75%) \5\
Population of Children in Out-of-Home                              520,000   338,000 to 390,000 (65% to 75%) \5\
 Care (3/1998)........................
----------------------------------------------------------------------------------------------------------------
*Approximately half of substantiated case
**Sixteen percent of victims were removed from the home

    Projecting these numbers nationally means that between 
300,000 and 400,000 of the children in out-of-home care are 
from families where AOD problems will determine whether these 
children can return home to safe, stable families. We must 
remember, however, that in 1997, there were approximately 
905,000 admissions to publicly funded treatment in the entire 
country. Only 34% of those admissions (306,000) were admissions 
for women.\8\
---------------------------------------------------------------------------
    \7\ U.S. Department of Health and Human Services, Children's Bureau 
(2000). Highlights of Findings from the 1997 National Child Abuse and 
Neglect Data System. Http://www.acf.dhhs.gov/programs/cb/stats/
ncands97/hl.htm.
    \8\ National Association of State Alcohol and Drug Abuse Directors 
(1999). State Resources and Services Related to Alcohol and Other Drug 
Problems for Fiscal Years 1996 and 1997. Washington, DC: NASADAD.
---------------------------------------------------------------------------
    Thus in 1997, providing treatment to the mothers of the 
155,200 children placed in out-of-home care in a single year 
would require one-third of all annual women's admissions. 
Further, providing treatment to the mothers of the entire 
population of children who are currently in out-of-home care 
would require virtually 100% of annual admission slots. Finding 
appropriate substance abuse services for child welfare-referred 
women and their children is a daily competition among child 
welfare clients and women who seek treatment on their own, 
women who are referred by the criminal justice system 
(particularly drug courts), women referred by primary health 
care providers (particularly pregnant women), and those 
referred by the TANF system.
    To make the best possible use of these scarce treatment 
resources, we need to understand better the differences 
revealed by the data among three kinds of AOD-involved parents:
    1. parents who are using a substance,
    2. those who are abusing the substance--who are 
experiencing negative consequences as a result of their use, 
and
    3. those who have crossed over the line to addiction and 
chemical dependency, in which brain chemistry has been altered 
in ways, which create a compulsion to continue drug use, 
despite the negative consequences for the family.
    In Sacramento County, which has done detailed studies of 
these three levels; over 3,000 cases have been assessed for 
alcohol and drug problems. Among those cases, 7% were 
determined to not be substance users, one in five (20%) were 
substance users without substantial negative consequences, 
another 26% were classified as substance abusers, and 47% were 
assessed as chemically dependent; 21% were in early stages of 
recovery at the time of assessment.
    The State of Connecticut has a well-developed system of 
screening and assessing for substance abuse problems among 
caregivers in the Department of Children and Families. In State 
Fiscal Year 1999, there were over 5,000 substance abuse 
assessments completed; 56% of clients assessed (2,735) received 
a recommendation for treatment services.
    Despite the differences in studies and resulting prevalence 
rates, the implications of these numbers in implementing ASFA 
strongly suggest that we need to address four gaps:
    <bullet> the gap in workers in both systems who can work 
across the systems--who have the ability and will to build the 
bridges that ASFA's timetables now demand;
    <bullet> the gap in data systems that can document the AOD 
problems that many states and communities are still failing to 
capture;
    <bullet> the gap in treatment for the parents who are 
willing and able to comply with treatment requirements, 
especially for women with children in a treatment system that 
is oriented more to males than to women; and,
    <bullet> the gap in communications at the worker level and 
at the top policy levels between CWS and AOD agencies who need 
to work out agreements on how they will refer and monitor cases 
so that children can be returned home to stable families where 
they can be safe.
    The good news is that the early innovators across the 
nation have begun to fill these gaps, using the limited 
resources now available to them. Some of their experience is 
captured in the Report to Congress commissioned as part of ASFA 
that was presented last year and which so powerfully captures 
the range of policy actions needed to respond to the problem. 
In addition, we are in the midst of developing case studies of 
eight of these innovative sites for a monograph that CSAT will 
publish later this year.
    The other good news is that the early innovators have 
enough experience at this point that they have made changes to 
their programs and are in a second stage of their initiatives, 
building on pilot projects and beginning to go to scale. The 
best examples of this that we are familiar with are Sacramento 
County and Connecticut's Project SAFE.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you, Dr. Young.
    Ms. Saler?

  STATEMENT OF GALE SALER, DEPUTY EXECUTIVE DIRECTOR, SECOND 
               GENESIS, INC., BETHESDA, MARYLAND

    Ms. Saler. Madam Chairman and Mr. Cardin, my name is Gale 
Saler. I am deputy executive director of Second Genesis, a not-
for-profit drug treatment and prevention agency providing 
residential and outpatient substance abuse treatment and 
prevention services to adults and children in Maryland, 
Virginia, and Washington, D.C. One of our programs is Mellwood 
House for Women and Children. And I am happy to be here today 
to bring you some good news about the treatment of substance 
abuse as it relates to child welfare and to offer some 
opportunities for further improvement.
    The women and children's program that we operate was 
originally funded by a grant from the Center for Substance 
Abuse Treatment. This past year, as that grant ran out, the 
Maryland State Legislature at the request of the Governor 
appropriated the funds to continue that program based on our 
success and, in fact, worked with us to expand that program.
    The treatment program we offer is a modified therapeutic 
community that allows women to bring up to two of their 
children up to 10 years of age into treatment with them. The 
program provided is comprehensive, including substance abuse 
treatment and education, parenting training, education, work 
adjustment training, vocational counseling, child care, 
preschool preparation, children's therapy, family counseling, 
family health education, and so on. It is not an easy program. 
And it is more complex than this brief overview.
    The teachers, for example, would be running remedial and 
GED classes for mothers and a preschool preparation for 4-year-
olds in the morning, and in the afternoon operating a study 
hall for school-aged children, teaching their mothers how to 
supervise homework and how to advocate for their children in 
the school system.
    We do all of this work with the parents--the mothers and 
their children for about $152 a day. It is a program that is 
much better experienced than it is described. We are located 
only a few miles up Pennsylvania Avenue right outside D.C., and 
I would welcome you or your staffs to come out anytime and talk 
to the women and the counselors who are out there doing the 
work every day.
    My written testimony details some of the research and 
evaluation we and the University of Maryland Center for 
Substance Abuse Research completed. I just want to highlight a 
couple of items here, and that has to do with follow-up data 
that we have gathered on the women at follow-up, which occurred 
approximately 9 months to a year post-residential treatment. 
Eighty-eight percent of the women who completed treatment 
reported no drug use in the days prior to their interview. 
Fifty-nine percent of the women who had not completed treatment 
had not used drugs. Eighty-three percent of the completers had 
negative urinalysis, 47 percent of the non-completers. Fifty-
five percent of the completers were employed, 24 percent of the 
non-completers. Ninety-five percent of the completers had had 
no further criminal justice involvement after they left 
treatment, 79 percent of the non-completers. And none of the 
women who had completed treatment had lost custody of their 
children. This was true despite the fact that some of the 
children had come directly from foster care to Second Genesis, 
and other mothers were in treatment because of pressure from 
Child Protective Services or the Department of Social Services.
    So treatment is having a strong, positive impact and is 
most effective when mothers complete their treatment. For that 
reason, we continue to develop interventions directed at 
increasing the numbers of women who complete their individual 
treatment programs and remain in ongoing recovery programs.
    There are challenges that still exist for us. Even given 
the availability of treatment dollars, which right now in the 
State of Maryland we are lucky to have, there continues to be a 
lack of capital dollars to open additional facilities or expand 
existing ones. That is a problem that I am dealing with right 
now in terms of having the treatment funds to expand the 
program at Mellwood up the street, but not having the capital 
funds and, in fact, having fund-raised the funds to open 
another facility in Baltimore City, which we have been working 
on for a number of months, but, again, having difficulty 
placing and siting and dealing with zoning issues to open that 
facility.
    Another infrastructure problem is finding and training 
qualified quality staff. In current economic times, counseling, 
like teaching, is suffering in recruiting and maintaining folks 
in the field.
    The other issue that I would hope this committee would look 
at is that the monies that we are using to provide the services 
that we provide to women and their children are substance abuse 
monies, and we are, therefore, limited in what services we can 
provide for the children. We need to be able to access other 
child-related funding streams to expand the services that are 
crucial to long-term prevention with these high-risk children. 
I encourage this committee to provide the needed leadership to 
ensure that we take those necessary next steps.
    Thank you.
    [The prepared statement follows:]

Statement of Gale Saler, Deputy Executive Director, Second Genesis, 
Inc., Bethesda, Maryland

    Madam Chairwoman, and Members of the Committee. I 
appreciate this opportunity to testify on the issue of 
substance abuse in the child protection system.
    For many women with substance abuse problems, the decision 
to seek, avoid, or refuse treatment centers on their concerns 
about their children. Recognizing the critical need for 
residential treatment programs for drug-addicted mothers and 
their children, Second Genesis, a substance abuse treatment 
agency serving over 500 clients in the Washington-Baltimore 
area, applied for and received a 5-year demonstration grant 
from the Center for Substance Abuse Treatment (CSAT). The 
primary purpose of the grant was to establish a therapeutic 
community for women who had severe histories of substance abuse 
and who wanted to have their children live with them while they 
were in treatment. In many cases, these were women who had no 
safe alternative in which to place their children while they 
were in treatment. With support from CSAT, Second Genesis set 
up a treatment facility, Mellwood House, so that it could house 
21 women and approximately 30 children at any one time.
    Studies have shown that chemically dependent women in 
general have different treatment concerns than do men. Addicted 
women with children have even greater needs than do others of 
their gender. According to one study, ``In order to manage the 
drug-dependent woman and her child, it is essential that a 
comprehensive treatment program be provided. It is necessary to 
include intensive prenatal management, psychosocial counseling, 
prenatal/parenting education, [and] psychiatric therapy when 
necessary'' (Finnegan, 1988).
    Young children in families suffering from alcohol and/or 
drug dependency are a high-risk group for various developmental 
deficiencies and have a greater need for intervention. Risk for 
behavioral, psychological, social, educational and future drug 
and alcohol problems can be related to the multiple problems 
that appear with increased frequency in this population 
including: lack of communication and social withdrawal; 
assumption of roles for which a child is not developmentally 
ready; self-doubt and diminished self-esteem; self-blame; 
higher rates of anxiety; phobias, insecurity and nightmares; 
disproportionate symptoms of depression; a higher rate of 
somatic complaints; centeral nervous system involvement and 
lower IQ scores and deficient school performance. For the 
Children, the issues related to intervention are in many ways 
more complex than for adults. First, it is increasingly 
recognized that intervention can occur early in childhood 
before detrimental behaviors--become manifest. Second, 
intervention for children in chemically dependent families 
raises issues related to balancing the individual needs of the 
children, and the reality that they need support in a family 
environment that is currently dysfunctional (Springer et al, 
1992).
    The literature demonstrates that providing children and 
family services in treatment produces many benefits. Drug-
affected children can exhibit lasting gains from comprehensive 
care with early enrichment programs and parental involvement 
(Smith, 1990). A National Association for Perinatal Addiction 
Research and Evaluation study showed that infants who are 
exposed to drugs in utero can catch up the non-drug-exposed 
children by the age of two if conditions such as motivated 
mothers and nutritional, medical and developmental assessment 
and management are provided (Substance Abuse Reports, June 
1992).
    Perhaps most importantly, bringing children into treatment 
with their mothers encourages the formation of an appropriate 
bond between mother and child during developmentally sensitive 
years.
    [Drug-exposed] children, especially, need a safe secure, 
predictable environment, where medical needs are met and 
opportunities are provided to compensate for neurodevelopmental 
immaturities. To maximize the potential for an appropriate 
attachment, they require a single, loving, consistent 
interactive caregiver--the body of evidence that points to the 
consequences of disrupting an attachment, no matter how 
tenujous, are compelling reasons for attempting to maintain and 
strengthen the parent/child bond (Jones, McCullough, DeWoody, 
1990). ``Keeping families together also lessens the strain on 
the overwhelmed foster care system, where children of 
chemically involved parents are the fastest growing 
population'' (Weston et al, 1989).
    Second Genesis, Inc., began offering therapeutic community 
services for women and their children at Mellwood House in June 
1994 under the above mentioned CSAT grant. It was immediately 
recognized that the children who accompanied their mothers into 
treatment required interventions for delayed development 
resulting from neglect, abuse, living in violent households and 
exposure to substances in utero. The unaddressed needs of the 
children created a significant disruption in the operation of 
the program. Services for children were not addressed by the 
CSAT grant so Second Genesis secured an $80,000 grant from the 
Prince George's County (Maryland) Commission for Children, 
Youth and Families to contract with the Reginald S. Lourie 
Center to provide a 12-month study from January through 
December 1995, to determine the developmental needs of the 
children at Mellwood House and to provide interventions 
required to address those needs.
    The women who came to Mellwood House for treatment had 
severe histories of substance abuse and associated problems. On 
standardized assessment instruments the women filled out at 
intake, more than half reported beliefs and feelings about 
parenting that are associated with a risk of child abuse and a 
need for clinical intervention. At follow-up, six to eight 
months after leaving the program, the women showed huge 
increases in holding realistic expectations about children's 
developmental capabilities and limitations. This was true for 
both clients who completed residential treatment and for 
clients who did not. The clients who completed residential 
treatment also reported dramatic decreases in levels of stress 
associated with being a parent and also associated with risk 
for child abuse. Clients who did not complete the program 
showed no change in parenting stress levels.
    Throughout that year, 51 children received developmental 
testing and 14 mothers and their children attended parent-child 
groups. The total number of children tested exceeded the 
projected expectations of the project. All children were 
evaluated within a month of entry into the program. Assessments 
focused on sensory processing and reactivity; behavioral and 
emotional problems as reflected in play and mother-infant 
interactions and child behaviors; and developmental status.
    Eighty-eight percent of the children tested had been 
exposed to substance in utero, and 12% (6) had not. 15% of the 
children exposed in utero qualify for developmental services 
through Maryland Infants and Toddlers Program, the preschool 
education program, or other school programs because of the 
nature and degree of their developmental delays. Twenty-seven 
percent of the exposed children fall into the at-risk category 
for one or more of the developmental categories listed, placing 
them at high-risk for developing more serious delays if left 
untreated. The areas that showed the greatest need for 
intervention were socialization, daily living skills and 
communication. Of the non-utero exposed children tested, it is 
significant that although they represented a statistically 
insignificant number of the full sample, 25% of them showed 
developmental problems. That is significant because it 
indicates that developmental problems point to the impact that 
socio-environmental variable had on their development. In 
addition, 23% of the children who were exposed were tested as 
having significant behavioral problems in at least one area. 
The children who were so identified were referred for specific 
interventions including behavior management, play therapy and 
parental guidance.
    Mother-child interactions were evaluated using the 
Functional Emotional Assessment Scale (FEAS)(Greenspan 1992). 
This instrument assesses the child's emotional and social 
functioning in the context of the relationship with his or her 
caregiver. It also provides a measure of the mother's capacity 
to support the child's emotional development. The mother is 
asked to play with her child as she might at home for 14 
minutes. These unstructured play observations are videotaped, 
then the child and caregiver's behaviors are scored for six 
levels of emotional development:
    1. Regulation and interest in the world
    2. Forming relationships (attachment)
    3. Intentional two-way communication
    4. Complex sense of self: (a) behavioral organization of 
sequential circles of communication; (b) behavioral elaboration 
of feelings dealing with warmth, pleasure, assertion, 
exploration, protest and anger
    5. Emotional ideas: Representational capacity and 
elaboration of feelings and ideas that are expressed 
symbolically
    6. Emotional thinking of complex intentions, wishes and 
feelings in symbolic communication expressed through logically 
connected ideas
    This test is intended for children from 7 months through 5 
years of age; therefore, play for children over the age of 5 
could not be scored. Based on the results of this test, the 
mothers and their children showed significant problems in their 
capacity to self-regulate, to engage in social interactions 
with others, to demonstrate closeness and attachment for one 
another, to organize symbolic play, and to represent emotional 
themes in play. Pre-tests and post-tests measured the 
functioning of children referred to Mellwood House during 1995. 
Qualitative observations were made on nine children and their 
mothers to document changes in functioning after attending the 
parent-child groups for six months. Some of the changes noted 
were the following:
    For the Mothers:
    <bullet> Increased trust of staff to meet the mothers' and 
childrens' needs
    <bullet> Increased pleasure interacting with their children
    <bullet> Increased reciprocity in playing with their 
children
    <bullet> Emergence of symbolic play with their children
    <bullet> Controlling anger when confronted with childrens' 
autonomy
    <bullet> Tolerating childrens' independence
    <bullet> Learning that their childrens' needs are separate 
from their own
    <bullet> Learning to set appropriate limits
    <bullet> Increased pleasure sharing with other mothers
    <bullet> Greater competence with parenting skills
    For the Children:
    <bullet> Diminished signs of depression
    <bullet> Less crying and fussing
    <bullet> Increased interest in other children and adults
    <bullet> Initiated interactions with others
    <bullet> Increased attachment for mother
    <bullet> More affectionate to mother and others
    <bullet> Approach staff to ask for things
    <bullet> Improved use of language, gestures
    <bullet> Increased use of symbolic play
    <bullet> Decreased use of pacifier when developmentally 
inappropriate
    <bullet> Improvements in daily living skills
    <bullet> Better response to limit setting
    Based on these results, it was clear that the interventions 
provided at Mellwood House in 1995 were most helpful to 
children in improving socialization, daily living skills and 
self-regulation (e.g. less irritability, greater ability to 
tolerate transitions). Children with difficulties in the areas 
of play and sensory processing also showed some progress. The 
areas that appear least apt to change appeared to be in 
communication and language, fine and gross motor skills, and 
attention. Behavior problems may also improve for some 
children, while others required more intensive intervention 
than could be provided at Mellwood House.
    In 1997, Second Genesis utilized data acquired from the 
Reginald S. Lourie study to acquire a supplemental grant from 
the Center for Substance Abuse Treatment that permitted us to 
enhance children's assessment and treatment services from late 
1997 through 1998. Funding to meet the treatment and 
developmental needs of children has, unfortunately, been 
sporadic, and is not considered a substance abuse treatment 
cost. Because childrens' services are not typically ``substance 
abuse treatment,'' agencies that typically fund substance abuse 
treatment services for women have been unable to extend funding 
to provide additional services for the children who accompany 
their mothers into treatment. And the unmet needs of the 
children are a serious problem for program that treats women 
with children.
    During the course of the 5-year demonstration grant, CSAT 
funded an evaluation component designed to evaluate baseline 
information, client satisfaction, and client outcomes. The 
Center for Substance Abuse Research (CESAR) of the University 
of Maryland was contracted by Second Genesis to provide the 
program evaluation.
    Each woman was allowed to bring one or two children under 
age 11 to live with her at Mellwood House while she was in 
treatment. Between February 1996 and September 1998, CESAR 
interviewed 113 clients at intake about the 156 children they 
brought into Mellwood House. We believe the characteristics of 
this particular sample of children represent the entire set of 
children who resided at Mellwood House during the five-year 
demonstration period. The average age of the children was 4.0 
years. Almost half of the children were male, and about 77% of 
them were African-American. The mothers reported that 45% of 
the fathers were known to be using drugs.
    Many newborns are not tested to see whether drugs are in 
their blood. Nevertheless, mothers reported that 25% of the 
children in this sample had tested positive for cocaine, 
alcohol, and/or other potentially damaging substances at birth. 
Most of the children had grown up in poverty. Many had lived in 
dangerous environments (including crack houses). Twenty-eight 
of the children (18%) had been homeless at some time in the 2 
years preceding treatment. Child Protective Services had 
previously removed 13% of the children in this sample from the 
mother's care because of abuse and/or neglect. Twenty-eight 
percent of the children had not seen their fathers at any time 
in the year before admission. Another 12% had seen their 
fathers only once or twice. Interviewers from the Center for 
Substance Abuse Research (CESAR) at the University of Maryland 
administered two standardized parenting questionnaires to 
clients when they entered treatment. The first was the Adult-
Adolescent Parenting Inventory (AAPI). The AAPI is an index 
that measures attentive and nurturing child rearing attitudes 
as opposed to abusive and neglectful child rearing attitudes. 
It examines four parenting constructs: (1) Developmental 
Expectations of Children; (2) Empathetic Awareness of 
Children's Needs; (3) Belief in Corporal Punishment; and (4) 
Reversing Parent-Child Roles. The self-report questionnaire 
includes 32 items to which clients respond with ``strongly 
agree, agree, uncertain, disagree, or strongly disagree.''
    CESAR summarized AAPI responses from 132 clients who 
entered treatment during the first 3\1/2\ years of the 
program--from 9/1/94 to 12/31/97. The distribution of scores 
for empathetic awareness was skewed toward the low end of the 
scale. Only 7% of the women scored in the high range. Parents 
who score in the high range tend to create a supportive 
parenting environment, recognizing their children's needs and 
accepting their children for who they are. They tend to view 
disciplining children as a way to foster growth, not as a means 
of exerting strict control. Thirty-three percent of the women 
scored in the middle/average range. The majority of the women 
-59%--had low scores. Low scores indicate that the mother 
usually views children's wants and needs as irritating and 
believes that tending to them would spoil the children.
    Approximately half (49%) of the women displayed little 
understanding of appropriate child-parent roles. Their answers 
indicated that they measured a child's worth by the child's 
ability to gratify the needs of the parent. Such parents tend 
to be needy and to display feelings of inadequacy. Forty 
percent of clients interviewed scored in the average range for 
this construct and 11% of the clients scored high. Parents who 
get high scores on this scale tend to recognize the needs of 
both the child and the parent and to are able to put the 
child's needs first.
    The second parenting questionnaire administered at intake 
was the Parenting Stress Index (PSI). On the PSI, the mother 
reports how much stress she is experiencing in her role as a 
parent in the areas of (1) the child's characteristics, (2) the 
parent's characteristics, and (3) life stressors associated 
with the parent-child system. Children's characteristics 
include adaptability, demandingness, mood, hyperactivity, 
acceptability according to parental expectations, and 
children's reinforcement of the parent role. Parent personality 
and situational variables include depression, parental sense of 
competence, attachment, role restriction, isolation, and 
health. The self-report questionnaire includes 120 items to 
which clients respond with ``strongly agree, agree, not sure, 
disagree, or strongly disagree.'' High scores are associated 
with increased risk of child abuse.
    CESAR summarized PSI responses from 128 clients who entered 
treatment during the first 3\1/2\ years of the program. (A few 
women completed the AAPI or the PSI but not both. That is why 
the sample sizes differ for the two instruments.) A very high 
percentage of the clients reported levels of stress to the 
child-parent system that would lead to recommending clinical 
intervention. Over half (57%) scored in the high stress range 
(the top 10% of the scale's range) for overall stress to the 
parenting system. Thirty-two percent of clients scored in the 
top 10% of the available range for reporting characteristics 
that indicate feelings of being overwhelmed and inadequate. 
Similarly, approximately half (46%) of the clients reported 
that their children's behaviors were in the top 10% of the 
scale for child behaviors make it difficult to be a parent.
    Unfortunately, we had no direct measure of the quality of 
care a mother gave her children after leaving Second Genesis 
Mellwood House. However, the AAPI and the PSI have both been 
standardized and validated as measures associated with quality 
of care. Furthermore, working with an overlapping but different 
sample of Mellwood House clients, CESAR did gather data about 
whether any children had been removed from the mother's 
physical custody between admission to treatment and the follow-
up interview (usually 6 to 8 months after leaving treatment). 
None of the mothers who completed the residential program had 
had children removed. This was true despite the fact that some 
of the children had come directly from foster care to Mellwood 
House, and other mothers were in treatment because of pressure 
from Child Protective Services or the Department of Social 
Services.
    CESAR succeeded in locating a high percentage of this set 
of clients for follow-up interviews. About six to eight months 
after leaving Mellwood House, 85 of the women from this sample 
filled out the AAPI (Adult-Adolescent Parenting Inventory) 
again. Among the 21 clients who completed residential 
treatment, the number reporting realistic expectations about 
children's developmental capabilities and limitations increased 
from 25% to 75%. Among the 64 clients who left against advice 
or were referred, terminated, or remanded, the number reporting 
realistic expectations increased from 15% to 61%. From a 
scientific perspective, these changes were decidedly 
significant (p<.01). Changes on the other AAPI scales--empathy 
for children's needs, opposition to corporal punishment, and 
understanding of mother and child roles--were not significant.
    71 of these clients completed the Parenting Stress Index 
(PSI) at follow-up. For the 51 who did not complete treatment, 
changes in reported stress levels influenced by child 
characteristics, parent characteristics, and life stressors 
were all trivial. Both at intake and at follow-up, between 55% 
and 59% of these women scored in the high stress range, not in 
the normal range, on each of the PSI scales. The high stress 
range is associated with increased risk of child abuse.
    For the 20 clients who completed residential treatment, the 
number who scored in the normal range (low risk for child 
abuse) increased noticeably on each scale. The percentage of 
these women who scored in the normal range rose from 55% to 90% 
for stress related to parent characteristics (p <.05). It 
increased on every sub-scale of the parent characteristics 
scale: depression, attachment, restrictions associated with the 
parental role, sense of competence, isolation, and health. The 
percentages in the normal range for stress levels associated 
with child characteristics and with life stressors also 
increased, but the changes were not large enough to be 
statistically significant.
    Unfortunately, we had no direct measure of the quality of 
care a mother gave her children after leaving Second Genesis. 
However, the AAPI and the PSI have both been standardized and 
validated as measures associated with quality of care. 
Furthermore, working with an overlapping but different large 
sample of Mellwood clients, CESAR did gather data about whether 
any children had been removed from the mother's physical 
custody between admission to treatment and the follow-up 
interview (usually 6 to 8 months after leaving treatment). None 
of the mothers who completed the residential program had had 
children removed. This was true despite the fact that some of 
the children had come directly from foster care to Mellwood 
House, and other mothers were in treatment because of pressure 
from Child Protective Services or the Department of Social 
Services.
    Literature Citations:
    Abidin, R.R., Parenting Stress Index. Charlottesville, 
Virginia: University of Virginia, 1986.
    Achenbach, T.M., Child Behavior Checklist. Burlington, 
Vermont: University of Vermont, 1989.
    DeGangi, G., Ph.D., Annual Report: Lourie Center-Second 
Genesis Collaborative Project. Upper Marlboro, Maryland: The 
Albert Lourie Center.
    DeGangi, G, Poisson, S, Sickel R., & Wiener, A.S. Infant/
Toddler Symptom Checklist. Tucson, Arizona: Therapy Skill 
Builders.
    Frankenburg, W.K. & Dodds, J.B. (1975). Denver, Colorado: 
DDM, Inc. Denver Developmental Screening Test (Revised). DDM, 
Inc., Denver, Colorado.
    Greenspan, S.I. (1991). Functional Emotional Assessment 
Scale. In Infancy and Early Childhood: The Practice of Clinical 
Assessment and Intervention with Emotional and Developmental 
Challenges. Madison, Connecticut: International Universities 
Press.
    Substance Abuse Reports, June 1992, Silver Spring, MD.
    Sparrow, S.S., Balla, D.A., & Cicchetti, D.V. (1984). 
Vineland Adaptive Behavior Scales. Circle Pines, Minnesota: 
American Guidance Service, Inc.
    Betty Byers, (1989) Developmental Disorders of Language, 
Whurr Publishers.

[GRAPHIC] [TIFF OMITTED] T6736.001

      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you.
    Ms. Nelson?

  STATEMENT OF MARY NELSON, ADMINISTRATOR, DIVISION OF ADULT, 
    CHILDREN AND FAMILY SERVICES, IOWA DEPARTMENT OF HUMAN 
   SERVICES, ON BEHALF OF THE AMERICAN PUBLIC HUMAN SERVICES 
                          ASSOCIATION

    Ms. Nelson. Chairman Johnson and Congressman Cardin, my 
name is Mary Nelson, and I am the child welfare director in 
Iowa. I am also here today on behalf of the American Public 
Human Services Association for which I serve as vice president 
of the child welfare affiliate. In addition, I co-chair APHSA's 
joint work group with NASADAD, the National Association of 
State Alcohol and Drug Abuse Directors.
    I am pleased to testify before you today about the urgent 
need to address the impact of alcohol and drug abuse on 
children and families in the child welfare system. In my 
testimony I would like to do three things: first, I would like 
to describe the magnitude of the problem and its effects on 
child welfare; second, to talk about some of the exciting 
efforts that are underway at the national, State, and local 
levels; and, third, to ask you to consider creating a Federal 
initiative to develop comprehensive prevention and treatment 
services for child welfare families with substance abuse 
problems.
    Substance abuse by parents is one of the most pervasive 
problems facing child welfare. Forty to 80 percent of the 
children who are involved with the child welfare system have 
families with alcohol and drug problems. In my own State of 
Iowa, over 50 percent of our family foster care cases involved 
parental substance abuse.
    Studies indicate that children whose parents abuse alcohol 
and drugs are almost three times likelier to be abused and more 
than four times likelier to be neglected. Children from 
families with AOD problems are more likely to remain in out-of-
home care for longer periods of time and have less chance of 
returning home or being adopted. They are also at greater risk 
for re-entering care.
    While the majority of these families require substance 
abuse services, as we have heard this afternoon, studies 
suggest that less than one-third receive treatment. Studies 
also show a high failure rate for engaging and retaining in 
treatment women with children in foster care. More must be done 
to develop and increase the availability and effectiveness of 
treatment.
    Partnership between child welfare and AOD is critical. 
There are numerous challenges, however, to collaboration 
between our two systems which I have detailed in my written 
testimony. None of these challenges are new, but what is new is 
the Adoption and Safe Families Act and the urgent need to 
ensure safety and achieve permanency for children in expedited 
time frames. A redesign of treatment services that engages 
parents early on and achieves measurable progress in shorter 
time frames is critical. Without this, children will likely 
remain in foster care longer because judges will not terminate 
parental rights if services have not been provided or families 
will be broken up when they might otherwise have remained 
intact.
    State agencies have taken a leadership role at both the 
national level and in their own States and localities to 
address the problems I have described. Soon after ASFA's 
enactment, APHSA joined with NASADAD to bring administrators 
from both the child welfare and AOD systems to the table as 
problem solvers. My written statement includes a detailed list 
of issues for joint attention by our work group. All of these 
activities are directed at the goal of improving the 
accessibility and effectiveness of substance abuse prevention 
and treatment services for child welfare and achieving the 
goals of ASFA.
    In Iowa, we have provided AOD training for our child 
protective staff and developed strategies to better serve this 
population such as recovery coaches and support groups. Next 
month we are holding a statewide conference to further develop 
these partnerships across the State.
    Project SAFE, as you heard about in your own State of 
Connecticut, Madam Chairman, is another good example of a 
promising collaboration. Also, a handful of States are 
implementing IV-E waivers for substance abuse services, 
including your State of Maryland, Congressman Cardin. 
Individual counties are also taking important steps to forge 
partnerships to address the AOD service needs of child welfare 
clients so that safety, permanence, and parental recovery can 
be addressed.
    States and localities, however, are at different places 
with respect to progress. These efforts need to be expanded 
statewide and across all States to meet the goals of ASFA. Even 
with these exciting efforts underway, the extent of the problem 
far outstrips the current resources of either system. Other 
Federal funding streams, such as IV-B, the substance abuse 
block grant, Medicaid, and IV-E, are either tapped out or 
limited in how they can be used for these purposes. We need 
additional targeted funding to address the unmet need as well 
as increased flexibility in current funding.
    APHSA and NASADAD have been working with other national 
organizations--Child Welfare League, Children's Defense Fund, 
and the Legal Action Center--to develop a general outline of a 
Federal partnership grant program. If funded, a program like 
this or like the proposal you heard this afternoon from Senator 
Rockefeller could support and enhance child welfare and AOD 
agencies' efforts to address the impact of alcohol and drug 
abuse on children and families in the child welfare system. We 
ask for your consideration of such an initiative and would 
welcome the opportunity to work with you on this.
    In closing, I would also like to add my support for 
enhancing training opportunities and resources for judges and 
court personnel. The courts and public and private child 
welfare agencies play critical roles in achieving safety and 
permanency for children. ASFA imposes new requirements for 
State courts, and we need to ensure that all partners have the 
resources and training to handle their additional 
responsibilities. We appreciate your efforts and look forward 
to working with you on this issue as well.
    Thank you.
    [The prepared statement follows:]

Statement of Mary Nelson, Administrator, Division of Adult, Children, 
and Family Services, Iowa Department of Human Services, on behalf of 
the American Public Human Services Association

    Chairman Johnson, Congressman Cardin, and Members of the 
Subcommittee. My name is Mary Nelson, and I am the 
Administrator of the Division of Adult, Children and Family 
Services in the Iowa Department of Human Services. I am also 
here today on behalf of the American Public Human Services 
Association (APHSA), for which I serve as Vice-President of the 
child welfare affiliate, the National Association of Public 
Child Welfare Administrators (NAPCWA). In addition, I co-chair 
APHSA's Joint Workgroup with the National Association of State 
Alcohol and Drug Abuse Directors (NASADAD). APHSA is a 
bipartisan organization of state and local human service 
agencies and individuals whose mission is to develop, promote 
and implement public human service policies that improve the 
health and well-being of families, children and adults.
    I am pleased to testify before you about the urgent need to 
address the impact of alcohol and drug abuse on children and 
families in the child welfare system.
    In my testimony today I would like to do three things:
    First, to describe for you the importance of responding to 
the problems of families who come to the attention of the child 
welfare system with alcohol and drug problems in a timely and 
comprehensive manner. I also want to describe some of the 
challenges states face in doing so.
    Second, to detail for you some of the exciting efforts that 
are underway at the national, state and local levels to forge 
partnerships between child welfare and alcohol and drug 
prevention and treatment agencies, and related service 
providers. These partnerships are designed to ensure that the 
needs of children for safety, permanence, well being and 
parental recovery can be addressed.
    Third, to ask you to consider creating a federal child 
welfare and substance abuse initiative to develop a 
comprehensive system of prevention and treatment services for 
families with substance abuse problems who come into contact 
with the child welfare system. New targeted funding would 
promote safety and permanence for children in the child welfare 
system and recovery from alcohol and drug abuse for their 
families.

Alcohol and Drug Problems Facing Families in The Child Welfare 
System

    State human service administrators and child welfare 
directors have identified substance abuse by parents as one of 
the most pervasive problems affecting the child welfare system 
today. The facts are staggering. An estimated 40 to 80 percent 
of the children who are involved with the child welfare system 
have families with alcohol and drug problems. In my own state 
of Iowa, over 50% of our family foster care cases involve 
parental substance abuse, and at least \1/3\ of our ``in-home'' 
cases involve parental substance abuse. In Polk County, which 
contains our state's largest city Des Moines, the Youth Law 
Center reports that 55% of new child welfare referrals to 
Juvenile Court (in-home supervision and placement cases) 
involve parental substance abuse.
    National studies indicate that children whose parents abuse 
alcohol and other drugs (AOD) are almost three times likelier 
to be abused and more than four times likelier to be neglected 
than children of parents who are not substance abusers.\1\ 
Children from families with alcohol and drug problems are more 
likely to remain in out of home care for longer periods of time 
and have less chance of being reunited with their parents or 
adopted. They also are at greater risk of reentering care once 
they are returned. While the majority of these families require 
some kind of substance abuse service, studies suggest that less 
than one-third are able to be provided with treatment.
---------------------------------------------------------------------------
    \1\ Kelleher, K., Chaffin, M., Hollenberg, J., & Fischer, E. 
(1994). Alcohol and drug disorders among physically abusive and 
neglectful parents in a community-based sample. American Journal of 
Public Health, 84,(10), 1586-1590.
---------------------------------------------------------------------------
    These statistics point to the serious lack of alcohol and 
drug treatment services nationally, a problem which is 
compounded by a lack of appropriate and effective service 
interventions tailored to women with children, particularly 
those who come to the attention of the child welfare system. 
While there are good examples of treatment programs that have 
been effective for women and children, most substance abuse 
services are not designed to meet the specific needs of the 
child welfare population. Studies show a high failure rate for 
engaging and retaining in treatment women with children in 
foster care. More must be done to develop and increase the 
availability and effectiveness of such programs. A redesign and 
rethinking of current service delivery is critical to 
addressing these challenges as well as an expansion of services 
to address the unmet need.
    The Federal substance abuse confidentiality laws and its 
implementation add to these challenges. Confidentiality 
barriers, whether imposed by statute or in practice, can often 
prevent critical information from being shared across systems. 
Caseworkers cannot make critical safety and permanency 
decisions if they do not know how the parent is progressing in 
treatment or if they are attending. Judges are reluctant to 
reunify families or terminate parental rights if they do not 
have the critical information needed to make informed decisions 
about safety and permanency.
    None of these challenges are new to child welfare 
directors. These issues have confronted the child welfare 
system from the time of the crack cocaine epidemic and have 
continued with the rise of methamphetamines and the resurgence 
of heroin. But what is new is the Adoption and Safe Families 
Act (ASFA) and the urgent need to achieve permanency for 
children in expedited timeframes.
    The problems of alcohol and drug abuse among families 
involved with the child welfare system and the inadequacy of 
resources and appropriate treatment have become especially 
apparent since the enactment of ASFA. States are committed to 
ASFA's goals of safety, permanency and well being for children 
in the child welfare system. The need for closer connections 
between the child welfare system and the alcohol and drug 
system is clear--now more than ever. The complex issues facing 
their common clients call for both systems to work together to 
find better ways of treating families and addressing the 
safety, permanency and well being of children.
    These problems transcend the availability of sufficient 
resources. We must do better with what we have. But the extent 
of these problems far outstrips the current resources of either 
system and additional funding, including federal funding, is 
needed. Funding for Title IV-B has competing service demands. 
The Substance Abuse Block Grant has priorities and set-asides, 
and there is not enough funding to meet the competing claims on 
those dollars from other populations such as criminal justice. 
Medicaid is limited in its ability to pay for the range of 
comprehensive services that need to be part of substance abuse 
treatment for parents in the child welfare system, particularly 
with respect to non-medical supportive services. Medicaid does 
cover medical treatment, such as inpatient detoxification, but 
does not cover a wide range of preventive and supportive 
services that are necessary to ensure successful outcomes. 
Title IV-E does not cover substance abuse services and child 
welfare waivers for these services have been limited to date.
    Good practice demands that parents be appropriately 
assessed and engaged in treatment early on, unless of course, 
risk to the child makes reunification inappropriate. Treatment 
interventions must be improved to achieve measurable progress 
in shorter timeframes. Child welfare agencies and family court 
judges must have the critical information from AOD treatment 
providers to assess risk and safety, and make informed 
permanency decisions. Without the above, children will likely 
remain in foster care because judges will not terminate 
parental rights if services have not been provided, or families 
will be broken up when they might otherwise have remained 
intact with the provision of services. Initial screening and 
assessment, coupled with early treatment and enhanced 
engagement and retention strategies, will make it more likely 
that realistic assessments of the likelihood of reunification 
or appropriateness of other permanency options can be made 
within the timetables mandated by the Adoption and Safe 
Families Act. The states are accountable and committed to 
meeting these new timetables. However, increased resources are 
essential to improving the capacity of states to meet the ASFA 
mandates.

Collaborative Efforts Between Child Welfare and Alcohol and 
Drug Agencies

    There are both philosophical and structural challenges to 
collaboration across the child welfare and AOD systems. 
Historically, at all levels of government, Federal, state and 
local, child welfare and AOD systems have functioned 
independently of each other, even when administrative 
responsibilities for both systems are located within the same 
department, and even though they frequently both work with the 
same families. Each system operates with different clients 
(either the abused/neglected child or the substance-abusing 
parent), goals, frameworks, legal mandates, and desired 
outcomes.
    Recognizing the impact of parental alcohol and drug abuse 
on children, states have paid increased attention to the need 
for child welfare and alcohol and drug partnerships at the 
national, state and local levels. There are some exciting 
efforts that are underway to forge collaborative efforts 
between child welfare and alcohol and drug prevention and 
treatment agencies, so that the needs of children for safety, 
permanence and well being and for parental recovery can be 
addressed. However, states and localities are at different 
places with respect to their progress on this. These efforts 
need to be expanded statewide and across all states to meet the 
goals of safety, permanency and well being embedded in ASFA.

National Partnerships

    APHSA and NASADAD Joint Workgroup on Substance Abuse and 
Child Welfare. With the enactment of the ASFA in November 1997, 
APHSA and NASADAD members felt it was imperative to bring state 
agencies from both systems--child welfare and AOD--to the table 
as problem solvers. Our associations formed a task force in 
March of 1998 to work together, with the goal of improving the 
accessibility and effectiveness of appropriate substance abuse 
prevention and treatment services for families in the child 
abuse and neglect and foster care systems. APHSA and NASADAD 
identified the following issues for joint attention by its 
members and the workgroup:
    <bullet> Developing shared knowledge and understanding on 
the part of both systems regarding underlying values and 
missions of each system, as well as identifying ways to work 
more collaboratively across systems.
    <bullet> Developing shared knowledge and understanding on 
the part of both systems of the impact of AOD issues on 
families in the child welfare system.
    <bullet> Need for and development of shared screening 
tools, training for child welfare (e.g., on assessing need for 
AOD treatment) and AOD staff (e.g., on risk assessment and 
permanency planning), joint protocols for collaborative work at 
the practice level, data collection and performance measures.
    <bullet> Identifying and developing methods for better 
engaging families referred by child welfare into AOD treatment, 
keeping them engaged in treatment, and re-engaging them when 
necessary; as well as identifying and developing treatment 
methods that can achieve success with families in shorter time 
frames.
    <bullet> Identifying and developing ways to work within 
existing Federal laws, as well as changes in Federal laws which 
may serve as barriers to working together (e.g., 
confidentiality prohibitions, which may limit cooperation and 
coordination).
    <bullet> Identifying and disseminating information about 
successful models of joint child welfare and AOD programs.
    <bullet> Addressing the need for additional resources for 
prevention, treatment, and other essential support services; 
and ways to access and utilize various Federal, State and local 
funding streams.
    APHSA and NASADAD also developed joint recommendations in 
response to the HHS Report to Congress required by ASFA 
entitled Blending Perspectives and Building Common Ground. 
APHSA and NASADAD urged HHS to provide leadership and support 
for a variety of activities including improving and expanding 
treatment and services, improving state systems and 
collaboration, identification and dissemination of best 
practices, support for state-based cross training, addressing 
confidentiality barriers, increasing Federal funding for 
prevention, treatment and aftercare, and removal of barriers to 
current funding streams to make them work more effectively, and 
enhancing research, data and performance. The ultimate goal is 
to develop, enhance and sustain an array of comprehensive and 
timely services including prevention and early intervention 
that addresses the needs of children and families in the child 
welfare system.

State Partnerships

    Collaborative efforts also are underway at the state level.
    <bullet> Iowa. For example, in my home state of Iowa, we 
provide AOD training for our child protective staff--including 
indicators, screening, relationship to abuse, and 
interventions. In addition, Iowa has used some of the Promoting 
Safe and Stable Families funding as well as local ``decat'' 
funding (flexible state child welfare funding), to develop 
strategies for serving this population, such as child welfare/
AOD liaisons/coaches and support groups (e.g., Moms Off Meth). 
The Department of Public Health also funds several residential 
programs for moms and their children, but not near enough.
    At the local level, child welfare and AOD practitioners in 
several communities are developing joint strategies and 
partnerships.
    Next month, my Department of Human Service and Department 
of Public Health, which contains Iowa's AOD agency, are holding 
a statewide interactive audio-visual conference which will 
include all our local offices, local child welfare providers, 
and substance abuse providers. The goal is to make sure 
everyone has same baseline information and a shared 
understanding of the issues, and to foster these types of 
partnerships and planning for next steps across the state.
    <bullet> Connecticut. A good example, Madam Chairman, is 
your home state of Connecticut. Last November, I had the 
opportunity at the HHS Stakeholders Meeting on Substance Abuse 
and Child Protection to hear about Connecticut's Project SAFE 
(Substance Abuse Family Evaluation). In this project, parents 
or guardians with substance abuse problems who are in the child 
welfare caseload are given priority access to drug testing, 
substance abuse evaluations, and outpatient treatment services. 
In its first four years, Project SAFE made 23,000 referrals for 
substance abuse evaluations. Approximately two-thirds of the 
families were evaluated. About 60 percent of the assessments 
resulted in treatment referrals, but only a smaller percentage 
of those, 35 percent, kept the treatment appointments. When the 
alcohol and drug and child welfare agencies examined this 
further, they discovered that the outpatient treatment 
traditionally provided was not meeting the needs of the 
families in the child welfare system. In Phase 2 of the 
project, just underway, new treatment options including 
residential treatment are being provided. A related pilot 
project, Supporting Housing for Recovering Families, offers 
housing and intensive case management to the families in 
treatment who are preparing to return to the community.
    <bullet> Federal IV-E Waivers. Four states, Delaware, 
Illinois Maryland, and New Hampshire, are implementing federal 
waivers to use their federal Title IV-E foster care funds to 
hire alcohol and drug counselors, special family support teams, 
or recovery coaches to assist child protection staff and 
families so appropriate follow-up and treatment can be 
provided. It is believed that these supports will help ensure 
prompt and appropriate treatment, which then speeds the process 
of determining whether or not children can stay with their 
families. In Delaware, which began its demonstration in 1996 
and is furthest along, the counselors help get families into 
treatment and also provide counseling throughout the process. 
Preliminary evaluation results show that to date they have been 
successful in connecting more families to treatment, and in 
reducing the length of time that children remain in care by 
just over one third.

Local Partnerships

    In some cases, individual counties also have taken 
important steps to promote local partnerships between the 
public child welfare and alcohol and drug agencies.
    <bullet> In Sacramento County, California, the Alcohol and 
Other Drug Treatment Initiative (AODTI) has been in place since 
1993. It was established by the Sacramento County Department of 
Health and Human Services to incorporate substance abuse 
services as an integral part of its service delivery system, 
including child welfare. It is a good example of how child 
welfare and AOD service providers can effectively work together 
to lessen the gap between those that need services, and those 
who receive services. Training has been an important part of 
Sacramento County's initiative. It developed a 3-tiered AOD 
training component that introduced all staff to basic AOD terms 
and basics around identification; provided staff who carry 
caseloads training in advanced assessment and intervention, and 
offered this last group more specialized group treatment 
skills. An evaluation of the training showed improved staff 
attitudes in working with AOD clients, greater confidence among 
staff in the effectiveness of treatment modalities, and 
increased staff's ability to assess child safety issues, 
especially in regard to AOD issues.
    The initiative yielded a significant increase in the number 
of child welfare workers who conducted AOD assessments with 
families. The initiative also spawned the development of 
pretreatment groups being run by social workers and/or AOD 
counselors. These groups immediately engaged clients that are 
believed to be in need of treatment--the antithesis of the 
typical practice of referring clients with AOD problems to ``a 
waiting list'' at a treatment program. In some cases the 
pretreatment group proved sufficient to address the families' 
needs; for high-risk families the groups provided an important 
interim service while waiting for a more intensive treatment 
slot to open.
    <bullet> In Cuyahoga County, Ohio, Project S.T.A.R.T. 
(Sobriety Treatment and Recovery Teams) employs and trains 
Family Advocates--women who have been in recovery at least five 
years and often have been previously involved in the child 
welfare system--to work alongside social workers. Mothers in 
the program begin treatment within 24 hours of their first 
meeting with the program staff. S.T.A.R.T. staff work closely 
with the treatment providers and the families, monitoring the 
children and the mother's progress in treatment. Child safety 
is the top priority.
    <bullet> In Cook County, Illinois, the state Department of 
Children and Family Services funds a Juvenile Court Assessment 
Unit on site at the Cook County Juvenile Court. Judges can 
refer parents appearing at temporary custody hearings and 
others directly to the unit for an alcohol and drug abuse 
assessment and an immediate same-day referral to treatment, if 
warranted. Judges and caseworkers receive feedback on the 
results of the assessment by the next business day at the 
latest and are electronically tracked in the assessment unit's 
data base to keep track of the parents' status and progress.

A Federal Child Protection/AOD Partnership

    The examples of partnerships mentioned above demonstrate 
the commitment by state and local agencies to address these 
issues. And while states have been creative in leveraging 
funding for these activities, there nevertheless remains a 
significant unmet need. As part of APHSA and NASADAD's joint 
activity related to addressing the need for additional 
resources at the federal level, our two associations joined 
together with several other national organizations with long 
traditions of involvement in child welfare and alcohol and drug 
reforms, who also provided leadership on the need for 
partnerships between these two systems. These organizations are 
the Child Welfare League of America, the Children's Defense 
Fund, and the Legal Action Center.
    <bullet> The Child Welfare League of America in 1997 
developed a survey to find out what policies, protocols and 
programs state agencies have in place to support chemically 
affected children and families involved with the child welfare 
system. Through this original research, CWLA identified 
numerous policy and programmatic gaps. CWLA is working to close 
these gaps by recommending actions that professionals from 
child welfare, alcohol and other drug prevention and treatment, 
health, mental health and welfare can take to develop and 
implement responsive policies and programs. Toward that end, 
CWLA produced Responding to Alcohol and Other Drug Problems in 
Child Welfare: Weaving Together Practice and Policy written by 
Nancy Young, Sid Gardner and Kimberly Dennis. In addition, CWLA 
is in the final stages of development of an assessment tool and 
decision making guidelines that front-line child welfare and 
substance abuse treatment providers and supervisors can use to 
determine how alcohol and other drugs are impacting child 
safety, family functioning and assist workers in determining 
the most appropriate intervention options for each family. CWLA 
provides ongoing support to member (and non-member) agencies 
which includes research and information dissemination, resource 
referrals, training seminars, and working with agencies, other 
service institutions and their communities to facilitate 
communication and enhance service delivery.
    <bullet> The Children's Defense Fund published Healing the 
Whole Family: A look at Family Care Programs in the Fall of 
1998. Healing the Whole Family reported on CDF's survey of 50 
residential care programs for women and children around the 
country, half of which served families where substance abuse 
was the primary problem. The report outlines through examples 
the key components of comprehensive service programs for 
families with substance abuse problems whose children come to 
the attention of the child welfare system. Particular emphasis 
is given to the programs' services to the mother, the child and 
the parent and child together. The study laid the foundation 
for CDF's continuing work to expand attention to and treatment 
for the needs of families with alcohol and drug problems that 
come to the attention of the child welfare system.
    <bullet> The Legal Action Center, the only not-for-profit 
law and policy organization working at the critical 
intersection of welfare, addiction and crime, has published two 
important publications which detail ways to address alcohol and 
drug problems among women with children who are receiving 
welfare. Tools for Confronting Alcohol and Drug Problems Among 
Welfare Recipients discusses the extent of the alcohol and drug 
abuse problems and strategies for responding to them. Steps to 
Success: Helping Women with Alcohol and Drug Problems Move from 
Welfare to Work profiles a number of treatment programs that 
effectively address the needs of women on welfare and their 
families through a comprehensive array of treatment, health, 
education, employment training and social services. The Legal 
Action Center also offers training and policy advocacy support 
to 25 state associations of addiction service providers and 
provides direct legal assistance to individuals and families 
with alcohol and drug histories.
    Recognizing a shared goal, these organizations together 
with APHSA and NASADAD have worked to explore and promote 
opportunities for expanding activities to achieve improved 
collaboration and cooperation between the child welfare and 
alcohol and drug systems. In the Spring of 1999, 
representatives of these organizations, joined by the General 
Accounting Office, presented a briefing for congressional staff 
on the problems of alcohol and drug abuse among families in the 
child welfare system and effective strategies for responding to 
these problems to ensure safety and permanence for them.
    The APHSA/NASADAD Workgroup and the staff from the 
organizations also developed the general outline of a federal 
partnership grant program that, if funded, could support and 
enhance child welfare and alcohol and drug prevention and 
treatment agencies' efforts to partner to address the impact of 
alcohol and drug abuse on children and families in the child 
welfare system.
    Last week, APHSA's policy-making body, the National Council 
of State Human Service Administrators, adopted a policy 
resolution to address the serious problem of substance abuse 
and its impact on children and families in the child welfare 
system. The council's policy asks Congress to consider the 
creation of a child welfare and substance abuse initiative to 
enhance state agency capacity to collaborate on the development 
of a comprehensive system of services to address the prevention 
and treatment needs of families with substance abuse problems 
who come into contact with the child welfare system. Such an 
initiative should be developed in consultation with the states. 
We support additional federal funding for this critical area, 
however, we must emphasize that new federal funding for this 
initiative should not come at the expense of other human 
service programs. In addition, the resolution urges Congress to 
maintain core funding for current critical public human service 
programs.
    In recognition that collaboration is a critical component 
of achieving positive results in this arena, we believe the 
initiative should promote state child welfare and substance 
abuse agency partnership in applying for and administering the 
new program funds. The program should provide states with 
maximum flexibility to use funding for a full range of joint 
service and capacity building activities such as 1) screening, 
assessment and referral to services; 2) comprehensive 
prevention, early intervention, treatment and after care 
services in home-based, outpatient, and residential settings; 
3) engagement and retention strategies; 4) joint training of 
child welfare and AOD agency staff, judges and court staff; 5) 
enhancement of data collection efforts to monitor progress and 
evaluate outcomes; 6) evaluation strategies to identify 
effective treatment approaches; and 7) technical assistance.
    State human service administrators are committed to 
accountability in operating these joint programs, and are 
interested in working to develop performance measures to assess 
state performance in implementing such an initiative. These 
measures should be developed in consultation with state and 
local public officials responsible for administering child 
welfare and AOD programs. New measures should be consistent 
with the federal outcome measures developed for ASFA and for 
the Substance Abuse Prevention and Treatment Block Grant.
    Information sharing among substance abuse, child welfare 
agencies and the courts is critical to making permanency and 
safety decisions for children and to achieving positive service 
outcomes. APHSA is committed to examining the barriers that 
federal confidentiality statute and regulations pose to states, 
educating key stakeholders on these issues, and to recommending 
statutory, regulatory and/or practice changes that would better 
facilitate sharing and disclosure of information between the 
two systems. We believe sharing of information is especially 
critical around assessing progress in treatment, assuring 
safety and making informed decisions regarding permanency.
    Furthermore, APHSA urges Congress and the Administration, 
to the fullest extent possible, to increase the flexibility of 
IV-E, Medicaid and the Substance Abuse Prevention and Treatment 
Block Grant. Increased flexibility would enable funding to be 
used to provide a variety of substance abuse treatment and 
prevention services to the families who come into contact with 
the child welfare system.
    We believe that realization of these recommendations will 
provide states with the needed resources and capacity to 
promote safety, permanency, well being and parental recovery in 
families who come to the attention of the child welfare system.
    Thank you.
      

                                <F-dash>


    Chairman Johnson of Connecticut. Thank you very much for 
your testimony. One of the things that comes through loud and 
clear in different ways from your testimony is the need to use 
the money in a way that meets the needs of the child or family.
    I think it is fair to say that the evidence shows that 
recovery from drug addiction can take years, and most of our 
programs are months or a year. So if we pour a lot of money 
from the Federal level into substance abuse treatment, as 
opposed to giving States more money to treat families, you 
know, you run the risk of focusing those dollars on the months 
or the year as opposed to a system that supports identification 
and treatment and support and development thereafter.
    So while I see over and over again that need for 
flexibility, for coordination, for money to follow need, I am a 
little concerned about spelling out in public law exactly what 
the nature of the interagency collaboration ought to be and 
exactly precisely what we are going to fund, because even 
though it will be on a broader scale, look what we did just a 
few years ago with great good intent in the Adoption and Safe 
Families Act. We completely ignored the court system. So here 
we are with a great system forcing the agencies into these 
timetables, and we don't have the rest of the system in place.
    So I know the waiver that we have in Connecticut, I have 
read the minutes of these meetings. The barriers to really 
integrated action are just so systemic and so State- and 
Federal-based that it does worry me to start a whole new piece 
of legislation as opposed to new money and pursuing--and this 
will take a long time to figure out, but we are going to meet 
with people who have done waivers. We are going to get into 
that in a seminar setting so we can understand what is 
happening with the waivers. But, Ms. Saler, you mentioned that 
your money ends up getting identified and that limits your 
approach
    Ms. Saler. Right, because we have treatment funds, but even 
when the treatment dollars are available, we have serious 
infrastructure problems in the whole treatment system in 
establishing enough services. And as you said, one of our major 
issues is many of the children who come into our program have 
serious developmental delays, which we know are a precursor to 
them following the pattern that their mothers have taken. We 
don't have the money from the children's service side to 
actually treat them while they are with us, to begin the 
treatment for those problems.
    Chairman Johnson of Connecticut. For instance, educational 
problems and behavioral problems.
    Ms. Saler. Right.
    Chairman Johnson of Connecticut. Kristine, in your joint 
effort here, how are you making sure that the full scope of 
services gets focused on the needs of this family?
    Ms. Ragaglia. Well, perhaps I should start and let my 
partner finish the answer because he is more the expert in the 
actual treatment modalities.
    I think the first step has really been identifying the 
issue that we didn't have the right treatment modalities 
available in terms of women and their children and trying to 
address all the numbers of issues and looking at this from a 
real family-focused approach. One of the things that we have 
discussed is that we really need to have our Department of 
Social Services at the table with us because they have some 
added components, you know, and having our Department of Mental 
Retardation would give us some of the early childhood 
developmental delay kind of money at the table as well.
    I don't think it is that hard, quite frankly, for 
commissioners to sit down and work together and figure out how 
to do it together. But it really takes a commitment on the part 
of the people who lead the agency to do that.
    Now, we can do that legislatively, but the question will 
be, when we force it that way, will that be effective, either? 
You know, a marriage--
    Chairman Johnson of Connecticut. I don't want to pay you to 
work together. I mean--
    Ms. Ragaglia. That is what I--
    Chairman Johnson of Connecticut. You ought to be working 
together. I don't mind paying you for--
    Ms. Ragaglia. It is a marriage by consent--
    Chairman Johnson of Connecticut.--service money out there, 
but--
    Ms. Ragaglia. Yes. Well, a marriage by consent I think 
works better, and I think it was our agency's realization that 
we needed to partner that led us to where we are today. At the 
same time, I think that what you heard from Deputy Commissioner 
Kirk's testimony was that because the client population that we 
are talking about and that we are identifying through Project 
SAFE is different from what already exists out there, there are 
issues about appropriate services being available in terms of 
marijuana treatment, which is something that is very different 
from what presently exists out there. And I will actually defer 
to my colleague on that in particular.
    Mr. Kirk. Let me just make a couple points. One of them 
is--and Kristine mentioned at the time--that the Governor 
established something known as the Connecticut Alcohol and Drug 
Policy Council about 5 years ago because he said that he has 15 
different agencies that are all somehow involved with substance 
abuse and they don't necessarily collaborate with one another.
    The legislature went ahead and put the council into 
statute. So each year in Connecticut, we produce a master 
report. But one of the things that came from that effort was 
that we came up with the concept of what we call ``client-based 
models,'' and in my testimony we attached a profile of what we 
call the client-based model for women and children. Basically 
what it says is ``stop paying so much attention to who is 
funding the service and give me a picture of what the services 
are that these women and children need.''
    I think the second piece that stands out--and Nancy Young 
has really driven this home to us in her work with us--is joint 
accountability. Each of us as agencies are involved with the 
same family, but when we sit with our providers, historically 
we had different outcomes for each agency. And so that from a 
system point of view, we as two state agencies holding the 
provider responsible for the care produced joint 
accountability. The system historically has been a fragmented 
kind of system. And that is the world we live in. But the 
reality is there are clearly mechanisms available in terms of 
accountability and in terms of a funding system that would make 
more sense.
    Ms. Young. May I respond also? You said something to the 
effect of not paying the agencies to work together. Well, the 
reality is that the work that goes on after those collaborative 
meetings is what the funding--is one of those funding gaps. I 
mentioned it as the workers who can work across systems. Those 
workers are those kind of boundary-spanning positions. Who 
understands the other system enough to be able to look at what 
they are trying to create and make it work? And those positions 
are not in the systems, generally, and they are always the 
positions that go quick. When there is a funding cut, those are 
the ones that get cut back.
    So someone in the previous panel referred to it as--or I 
guess the Senators from the quilting bee area referred to it as 
stitches. We refer to it as the glue. You can't have 
collaboration unless you have glue that holds it together. The 
outcomes might be the final thing that is the final glue, but 
you have got to have some personnel that understand enough of 
the other system to be able to work together to get there.
    So when you say you don't want to fund systems to work 
together, there has to be the directive, the willingness to 
make that happen, but there also has to be the personnel power 
to implement it and to make it happen not just at the 
administrative level but when we go into States or into 
counties, there may be the will at the top level. Getting that 
down to the line is a whole other deal, and you can't do that 
unless you have dedicated staff to keep that going.
    Chairman Johnson of Connecticut. I hear what you are 
saying. We did have a very interesting study done the first 
round of welfare reform, and what was fascinating was that the 
States had just bit the bullet and cross-trained the front 
worker so they could do all the eligibility stuff and all the 
job training stuff. They were the ones where the success rate 
was the fastest, where you still had to--as you still do in 
Connecticut--go from DSS to Department of Labor, even if they 
are in the same building, it is a different person, there isn't 
a holistic approach, and there isn't the system knowledge.
    My experience with the kind of person you describe is that 
not only are they the first to go when there is a budget cut, 
but depending on the character of the commissioners, they may 
or may not have any influence.
    Ms. Young. That is true.
    Chairman Johnson of Connecticut. So I worry about--I mean, 
I think we need to give this a lot of thought. How do we 
leverage this level of collaboration? Do we require a client-
based model and you can't do it without this? You know.
    Ms. Young. Right.
    Chairman Johnson of Connecticut. And joint accountability 
mechanisms, do we look at that kind of thing? Then we recognize 
that there has to be some cross-training money. We are going to 
need a lot of help with this one.
    Ms. Young. In looking at the resources that are in the 
system, the only data that I have seen looked at how many of 
the States actually put some of their TANF money into substance 
abuse treatment found that 18 States put TANF funds into 
treatment. That was about in 1997 or so that survey was done.
    In my own State, in California, we did allocate TANF 
dollars to go to substance abuse treatment, and the counties 
have gotten very creative on how they can use those funds for 
families that are in the child welfare system. But it counts 
towards participation in our State, but our State gets nothing 
out of the Federal work participation rate. We are almost 
penalized by having looked at that as a support service that 
needed to be in place in order for women and their families to 
get ready to enter work. We can do that within our State, but 
our State doesn't get anything on the Federal work 
participation requirements.
    Chairman Johnson of Connecticut. That is an interesting 
point.
    Ben?
    Mr. Cardin. Thank you.
    As was pointed out, my State along with others have had 
waivers in which they tried to provide for substance abuse to 
the people within the welfare system. I am curious as to--we 
have been talking a little bit about that during this panel, 
but whether you could perhaps summarize what you think the do's 
and don't's we've learned from that experience, if we are going 
to establish a national funding source for people within the 
welfare system to deal with substance abuse, what have we 
learned from the State waivers as to what works and what 
doesn't work?
    Ms. Young. I think HHS would probably have to answer it as 
far as what they have learned from the waivers. I think there 
is only one State so far that has evaluation data in, and that 
was the first State that addressed substance abuse 
specifically. That was Delaware. The other States, there are 
three others that have waivers that are specific to substance 
abuse, and they are just really beginning--Maryland, Illinois--
    Ms. Nelson. New Hampshire.
    Ms. Young. New Hampshire. Thank you. And there are 
different models that have been created in each of those, and 
some--
    Mr. Cardin. That is the concept of waivers so that we can 
get--
    Ms. Young. Right. But I think one of the common threads is 
to be able to jointly plan for the case. They are doing it in 
different ways, but there is a partnership that is created 
between the substance abuse treatment agency and the child 
welfare agency. It might be that they are carrying the case 
jointly. It might be that substance abuse specialist is out 
stationed in a regional office and they provide assistance to 
the child welfare agency. There are different ways that people 
across the country, not just in the waiver States, are 
approaching the issue, but at its core it is how to bring 
together the professionals in a way that is looking at the 
family as a whole instead of you do this part and we will do 
this part and instead are jointly planning together what is 
going to happen at the service end and what happens at the 
administrative end.
    Ms. Nelson. I think Delaware does have some preliminary 
results that do show they are, through these partnership 
efforts and through the joint training and the kinds of things 
Nancy talked about, where they are being able to get more 
families connected to treatment so they are successfully 
accessing the treatment and they are actually reducing length 
of stay for the kids that are out-of-home.
    Mr. Cardin. Ms. Saler?
    Ms. Saler. Yes, with the waiver in Maryland, one of the 
things that we have been able to do is access multiple sources 
of funding, including increasing the participation of DSS and 
child welfare in substance abuse treatment. Right now, if we 
look at the funding sources that are allowing us to expand our 
services for women and children in Maryland, they would include 
the State appropriation that we got, but also the fact that we 
are able to receive Medicaid payments for the treatment for the 
families, and we are receiving what is referred to in this 
State as 512 money, which is monies that are appropriated for 
treatment of women whose children test positive at birth for 
drugs.
    So with all of it and the increasing awareness, we have 
been able to access and use more dollars.
    Mr. Cardin. Dr. Kirk, I am struck by the relationship 
between substance abuse and domestic abuse. Throughout all of 
your testimonies, there is a high percentage of individuals who 
had been abused that will have a substance abuse problem 
themselves. It is more likely that their children will have 
suffered from some form of domestic abuse. And, Dr. Kirk, I 
noticed in your testimony you bring out those high percentages, 
but it seems like you are implying that the current funding 
sources do not permit you to deal with the domestic abuse 
issue. Or maybe I am reading your testimony incorrectly there.
    Is this something we should take into consideration? If we 
are going to be able to provide for comprehensive help, do we 
also have to have a component here that deals with domestic 
abuse?
    Mr. Kirk. Yes, let me answer that because it ties to 
something that Madam Chair indicated. One of the things that is 
unique about this population--and I have worked in this area 
for 20 years, but I am learning new things the last 5. When you 
are working with this particular population--Madam Chair, you 
made the distinction--you talked about recovery. And what I 
would urge us all to think about is the difference between what 
I call treatment and recovery, and also pre-treatment.
    We will have, because of domestic violence situations, for 
example, an engagement specialist who will work with a woman 
for weeks or months before she actually goes into treatment. 
Why? Because she doesn't trust the system. The precise cases 
you are talking about from the clinical point of view, one of 
the after-effects, post-traumatic stress disorder or whatever 
you want to call it, is a great deal of distrust. The 
difficulty in getting this woman to come into the system when 
clinically she distrusts the relationships involved is very, 
very strong.
    That is why you see, when you look at this client-based 
model--we have a whole range of services we call pre-treatment. 
Medicaid and general assistance and these other traditional 
payor sources--they don't pay for pre-treatment services. That 
is different.
    Secondly, what I tell our clients as well as people we are 
involved with, is the following ``you will be in treatment for 
a defined period of time; you will be in recovery for a longer 
period of time.'' And one of the challenges with the 
relationship with the child welfare agency is to get everybody 
to accept that while the person is in active treatment, you may 
not want to go for reunification. You may be very concerned 
about the risk to the child. Once the person is stable in 
recovery, then that is perfectly fine because the family 
stability is likely to be there.
    Please distinguish between an intensive treatment phase 
where the risk relative to the child is far greater than once 
they go into recovery. But the domestic violence piece, it is 
not so much the domestic violence itself as much as it is what 
does that mean in terms of the impact on the individual person.
    Mr. Cardin. And I very much agree with you. Domestic 
violence causes major trauma scars as well as a challenge to 
prevent in the future domestic violence. So we have to deal 
with both aspects of it.
    I guess my point is that in developing perhaps a new 
Federal role in dealing with vulnerable families on substance 
abuse, should we also include in that the flexibility to deal 
with domestic violence?
    Mr. Kirk. Yes, yes. Let me add one quick point. One of the 
pieces, the Federal group just came out with something from 
SAMSHA called ``Substance Abuse Treatment for Persons, Child 
Abuse and Neglect.'' And one of the interesting things they 
point out is that if during the substance abuse screening the 
history reflects history of domestic violence or child sexual 
abuse in the person's background, one of the things that should 
occur is a mental health comprehensive evaluation.
    Well, our typical substance abuse providers, whether State-
operated or private, do not typically have that resource 
available to them. So when you talk about these additional 
resources, it is not building on top of a stable base. It is 
broadening the base so that the kinds of things that are 
provided are responsive to precisely what you are talking about 
here.
    Mr. Cardin. Ms. Ragaglia?
    Ms. Ragaglia. And if I may actually add to that, an 
additional component that is not necessarily at this point in 
time available to our adult substance abuse providers is the 
role of the child, because the impact of a child living in a 
home where the parent is a substance abuser is a significant 
one. And if we are not using the opportunity for the parent who 
is in treatment to also address the impact of all of that on 
the child, we have lost a major long-term prevention activity 
which probably isn't going to cost a whole lot more, but if we 
can figure out a way to do that--and that is one of the things 
that we have been talking about--that is a key component. If we 
can hit it at that point in time, then we have made a huge 
long-term impact on the issue in general.
    Mr. Cardin. Thank you very much, Madam Chair.
    Chairman Johnson of Connecticut. I hope you will read--we 
didn't have the details of Senator Rockefeller and Senator 
DeWine's bill, but I am sure it will be on the Internet at some 
time. But I am concerned about isolating out a problem, even a 
problem as big as substance abuse, and treating families with 
substance abuse through a different program. And certainly, you 
know, I would rely on your long experience and professional 
guidance and others out there. I am not in a position to make 
that judgment, but it does worry me. I have just seen all too 
often well-intentioned programs become straitjackets in 5, 6, 
8, 10 years.
    So certainly the more holistic approach to the family and 
getting some of the barriers out of the way that you brought 
up, like the work rules and the fact that treatment doesn't fit 
in, even the timelines in our Adoption and Safe Families Act, 
if the family is serious about treatment, you know, do we need 
to recognize that may rightly influence the 15-month line? So I 
think we need to think through a lot of these issues.
    I did want to just ask you if you are running into privacy 
issues, into data issues as you try to work interagency. And is 
there a difference between the privacy rules for children and 
adults?
    Ms. Young. My experience has been that people talk about 
that as being one of the major barriers, and there are some 
people in the field who feel like it is the major barrier. My 
experience has been, in working with probably 20 jurisdictions 
across the country in the last 3 or 4 years, it is something 
that has to be dealt with, but it is not something that is a 
barrier that can't be dealt with. It needs the discussion. It 
needs the work-through. It has to go through their county 
councils, their State attorneys, and then they get it and have 
the opportunity to be able to work through it. Others probably 
don't share that same view.
    Mr. Cardin. If the Chair would yield on that, I take it is 
different in every State.
    Ms. Young. Well, the Federal regulations related to 
confidentiality are not, but being able to figure out how to 
make that work at the local level on how they are going to 
exchange information, it is unique to your own system of how 
they make it work.
    Chairman Johnson of Connecticut. Did you want to comment, 
Ms. Saler? You looked like it. [Laughter.]
    Ms. Saler. I was nodding because that is very much our 
experience. The Federal confidentiality requirements for 
substance abuse are very strict. On an individual basis, we are 
very much able to find ways to work with the system, and also, 
we make it very clear to women who come to us that we will 
always act first to protect the child. And that is a given. It 
is told to them. It is given to them in writing. They 
understand that we will do that and that we intend to, and we 
ask them to sign releases for us to talk to the child welfare 
agencies that their children might be involved with. So we do 
that up front.
    Chairman Johnson of Connecticut. How do you overcome their 
fear at that? This is what I hear from my Head Start friends, 
that they can see there is a problem, they can encourage them, 
they can quietly try to get them to services, but everybody, 
including their friends, you know, are hoping that they can 
work this out because they are terrified. And the irony is that 
then we can't get them in early.
    Ms. Saler. That is right. The women--
    Chairman Johnson of Connecticut. They need counseling and 
some more modest approach to that. So I don't know whether 
there should be some sort of 6-month immunity or something if 
somebody really gets in there and does it, then--I don't know. 
This is something you need to help us with.
    Mr. Cardin. Madam Chair, before you adjourn, I just want to 
ask unanimous consent that my opening statement be put in the 
appropriate part of the record.
    Chairman Johnson of Connecticut. Yes, I would be happy to 
accommodate. I did offer him the opportunity, but it is hard 
once we get rolling.
    I also want to say in closing that it is very nice to have 
a State as progressive as Maryland nearby and to have a ranking 
member that is as knowledgeable about the services available in 
a State and who has worked as closely with as many providers 
because it does give us the chance often to have people from 
the front line in Washington, and that isn't always easy. I 
appreciate the distance that some of you have come and your 
willingness to prepare testimony and to take thoughts away 
about what has gone on that will enable you to give us 
continued input over the months ahead.
    Thank you very much.
    [Whereupon, at 3:23 p.m., the hearing was adjourned].
    [Submissions for the record follow:]

Statement of Child Welfare League of America

    The Child Welfare League of America (CWLA) welcomes this 
opportunity to submit testimony to the Subcommittee on Human 
Resources for the hearing on child protection issues.
    CWLA is an 80-year-old national association of over 1,100 
public and private voluntary agencies that serve more than two 
million abused and neglected children and their families. CWLA 
member agencies provide the wide array of services necessary to 
protect and care for abused and neglected children, including 
child protective services, family preservation, family foster 
care, treatment foster care, residential group care, adolescent 
pregnancy prevention, child day care, emergency shelter care, 
independent living, youth development, and adoption.
    CWLA is pleased that the committee will be hearing from 
such a distinguished panel on the devastating impact on 
substance abuse on the children and families involved in the 
child welfare system. We especially applaud Senator Rockefeller 
for his leadership on a new initiative to improve our systems 
of care and to respond more effectively to the needs of 
children and families. Mary Nelson, Administrator of the 
Division of Adult, Children and Family Services, Iowa 
Department of Human Services, is testifying today on the 
challenges in addressing child protection and permanency issues 
among families with alcohol and other drug (AOD) problems. Her 
testimony reflects the concerns and suggestions that CWLA and 
others have put forth to enhance the capacity of our systems of 
care to respond more appropriately and effectively and to 
improve results for the children and families involved.
    CWLA takes this opportunity to provide comments on the 
second subject of the hearing, the challenges for state courts 
under ASFA and how pending legislation will help address them.

New Demands on State Court Resources

    The Adoption and Safe Families Act (ASFA, P.L. 105-89) 
imposed new requirements for state abuse and neglect courts, 
but did not provide any new resources for courts to handle the 
additional responsibilities. Courts are now expected to decide 
early in the case whether reunification services are required. 
Courts must conduct a permanency hearing at 12 months, rather 
than at 18 months, as under previous law. Courts must also 
process the petitions to terminate parental rights, which 
states are required to initiate for children who have been in 
foster care 15 out of the most recent 22 months. Under ASFA, 
courts must also adopt procedures to ensure the participation 
of foster parents, preadoptive parents, and relative caretakers 
of abused and neglected children.
    CWLA strongly supports legislation introduced in the Senate 
by Senator DeWine and others that will provide state abuse and 
neglect courts with additional resources to be better equipped 
to handle their new responsibilities. This legislation, (S. 
708) the Strengthening Abuse and Neglect Courts Act, supports 
grants to courts to reduce pending backlogs of abuse and 
neglect cases so they can hire additional personnel, extend 
court operating hours or conduct night court sessions so that 
more cases can be handled in a timely manner. The legislation 
also authorizes additional training for judges, abuse and 
neglect attorneys, and court personnel and provides funding for 
courts to improve their automated data collection system.
    The House is already on record in support of a provision of 
that bill that allows Title IV-E training funds to be used to 
train court personnel in matters related to the court's role in 
expediting adoption procedures, implementing reasonable 
efforts, and providing for timely permanency planning and case 
reviews. CWLA supported that effort and encourages Congress to 
take action this year to pass legislation to provide courts 
with the resources they need to be able to make more timely 
decisions about permanency options for abused and neglected 
children so that more children can move to permanent homes.
Enhanced Resources and Options for Child Welfare Training

    The focus on these key training issues as they pertain to 
the courts also allows important consideration of other 
critical aspects of training that require clarification and 
enhancement to resolve current and future problems. ASFA's 
emphasis on better and faster permanency decision making also 
fundamentally requires well trained caseworkers.
    In recent years, some states have experienced significant 
problems in accessing and utilizing Title IV-E training funds 
to support appropriate and needed training for staff in private 
agencies that are state approved and meet federal eligibility 
criteria as child care institutions. The law outlines that 
short-or long-term training at educational institutions is 
reimbursable at the 75 percent match rate for such training of 
state agency and local public agency staff. The statute also 
prescribes that short-term training of current or prospective 
foster or adoptive parents and private agency staff can be 
reimbursed at a 75 percent federal match. Federal regulations 
to implement these provisions narrow the focus of allowable 
activities, limiting the availability and accessibility of 
these critical training resources.
    One commonly confronts differing interpretations of what is 
allowable, which entities are eligible, and what is the level 
of reimbursement. Various states, private agencies, and others 
have reported widespread difficulties in accessing this 
critical training resource. The difficulties have grown with 
the continued lack of clarification as well as inconsistency in 
guidance given to the states. States, as a result, differ 
considerably on what they do and what they have been told they 
can or cannot do. In the end, public and private agencies have 
had to cobble together strategies to support needed training.
    As we seek to expand appropriate training opportunities to 
court personnel and others involved in child welfare decision 
making and services, the current difficulties will only be 
compounded in absence of addressing the inconsistencies in 
current program directives and operations.
    CWLA urges you to resolve these problems to permit 
equitable access to Title IV-E incentives for training parent 
caregivers; direct care workers, case managers, and others in 
the broad array of child welfare services in public and 
approved private child welfare agencies; and, those in critical 
areas of decision making, including court personnel and special 
advocates. In addition, reimbursable activities should include 
full menu of training that can enhance capacity to improve 
outcomes and are consistent with the state plan to achieve 
safety, permanency, and well-being.
    Outcomes for children and families improve when those 
involved in making decisions and providing services and 
supports have been well trained in good practice. Appropriate 
access to the Title IV-E training resource will help assure 
that.
    In sum, we commend this Subcommittee for continuing to 
investigate ways we can better address the needs of abused and 
neglected children and their families. We look forward to 
continuing to work with you to help protect our most vulnerable 
children.
      

                                <F-dash>


Statement of Barbara Bryan, National Child Abuse Defense and Resource 
Center, Roanoke, VA

Re: ``Square One'' Training for all in Child Protection Claims

    As the only child/family volunteer advocate to regularly 
attend my state's Social Services State Board meetings (first 
in 1986), I recognize ``training'' as part of the child 
protection lobby's mantra: ``More money, more workers, more 
training.'' None has, will, or can work unless and until there 
is training in recognition of false allegations of child abuse 
and neglect: mistaken, mischievous, and malicious, however they 
originate.
    Training system employees or adjunct volunteers--whether 
judges, court, CASA or other caseworkers, and alleged experts 
on child protection--to move children more swiftly through the 
system per ASFA/CIP and Adoption 2002 provisions, has created a 
counterproductive effort funded by Congress and operating under 
color of law.
    Failing after the initial allegation to catch OR QUESTION 
reality of an allegation, ``trained'' personnel procedurally 
rush children from natural protectors per labels and 
``diagnoses'' of never scientifically validated theories such 
as mythical Munchausen Syndrome by Proxy and variant names. 
That there is NO peer-reviewed professionally published journal 
article showing MSbP and variants EVER has been subjected to 
any scientific methodology in replicated research, COURTS are 
CRUCIBLES for ``acceptance.''
    Using MSbP's attached myths, now that ``safety'' trumps 
extended family in ASFA/CIP, children are kept from extended 
family, ``fast track'' adopted out in record time, ``legally'' 
and tax subsidized. That is hardly an admirable ``Adoption 
Option.''
    Leader among states in getting training on MISTAKEN CLAIMS 
OF CHILD ABUSE is Virginia. Official representatives have 
attended NCADRC's International Conference since 1995. 
Generally the Governor selects appointed members of the VDSS 
State Board as his eyes and ears. Anyone whose judgment is 
valued by a Governor should hear the law and science which 
those receiving millions of federal dollars may prefer are 
untold. Too often, ``abuse'' is the excuse for organizational 
and ``training'' funding but NOT for child protection. Too many 
innocents have ``days in CLOSED DOOR courts'' where hearsay 
from third party financially interested witnesses becomes 
``evidence.''
    For more information on both September's 9th International 
Conference and also on MSbP and how its misuse is fracturing 
families, please see the sites: www.stop-abuse-org click on 
Plug, and www.falseallegation.com (still under construction).
    Too little has changed since our participating in an April 
4-5, 1990 hearing of this same Subcommittee when similar 
underlying issues of child removal/foster care were discussed 
and predicted horrors of crack cocaine babies were offered. 
Please return to Square One ``training'' for abuse/neglect 
allegations with something like SWAP. That is our Social Work 
Again Proposal vs. unchecked actions of child protection 
caseworkers.
    Thank you, Barbara Bryan, volunteer, Communications Dir., 
National Child Abuse Defense & Resource Center (Toledo-based), 
at: P.O. Box 8323, Roanoke, VA 24014 Phone: 540/345-1952 Fax: 
540/345-1899 Email: ``mailto:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="307278724249515e70515f5c1e535f5d">[email&#160;protected]</a> <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f0b2b8b28289919eb0919f9cde939f9d">[email&#160;protected]</a>
      

                                <F-dash>


Statement of Voice for Adoption

    Voice For Adoption (VFA), a group of more than 70 national 
and local special needs adoption organizations, welcomes this 
opportunity to submit testimony on the child protection issues 
related to the training needs of court personnel and the extent 
of substance abuse in child protection.
    Founded in 1996, VFA participants include professionals, 
parents, and advocates committed to securing adoptive families 
for America's waiting children. Our distinguished board of 
directors is made up of recognized leaders in the field of 
adoption. Organizations on VFA's board include: the Adoption 
Exchange Association (AEA) in Colorado, Children Awaiting 
Parents (CAP) in upstate New York, Child Welfare League of 
America (CWLA) in the District of Columbia, Institute for Black 
Parenting in California, National Adoption Center (NAC) in 
Pennsylvania, North American Council on Adoptable Children 
(NACAC) in Minnesota, Spaulding for Children in Michigan, 
Family Builders Adoption Network in California, and The 
Adoption Exchange (TAE) in Colorado. The mission of VOA is to 
ensure to ensure permanent, nurturing families for our nation's 
most vulnerable children and to strengthen support for families 
who adopt.
    Our nation has seen a dramatic increase in child abuse and 
neglect cases over the past twenty years. The U.S. Department 
of Health and Human Serivces reported that in 1997 
approximately 2,980,000 children were reported to state and 
local agencies due to someone's concern about their safety. The 
courts were able to substantiate approximately one third of 
these cases.
    Congress passed the Adoption and Safe Families Act (ASFA, 
(P.L. 105-89) in 1997 to ensure that all decisions regarding 
the permanency options for children in the child welfare system 
be made more swiftly. This law has placed new requirement on 
our nation's abuse and neglect courts. ASFA requires the courts 
in abuse and neglect cases to decide whether reunification with 
the child's birth family is possible or whether the court 
should terminate parental rights within 15 months. Yet ASFA 
does not provided additional resources for the courts. Today, 
there are over one-half million children in the foster care 
system. In 1998, there were approximately 36,000 adoptions from 
the foster care system, up from 31,000 in 1997 and 28,000 in 
1996. While states have increase their finalized adoptions in 
the past two years since ASFA, many of these children were 
legally free and part of a backlog of children that found 
permanent families.
    The Brianna case here in nation's capital illustrates the 
need for training and increased financial resources. On 
December 22, 1999, D.C. Superior Court Judge Evelyn E.C. Queen 
ordered a 22 month old little girl named Brianna Blackmond back 
to her mother's care. Weeks later the child was dead from blows 
to the head in the home of her mother. The Judge had not seen 
the report from Brianna's caseworker that urged the judge not 
to send her back. Also, Judge Queen made the decision without 
holding a hearing on the subject. Due to confidentiality rules, 
many of the case's facts have not been brought to light. 
However, it is clear that with more training and resources the 
court decision might have been different and Brianna still 
alive today.
    VFA endorses legislation introduced by Senator DeWine (S. 
708), the Strengthening Abuse and Neglect Courts Act. W e 
strongly urge Congress to pass this vital legislation this 
session. The bill will improve training and resources for our 
nation's court system. Most importantly, the bill will improve 
the lives of many children by moving them through the court 
system in a more timely manner, and finding them permanent 
loving homes more quickly.


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
